<html>
<title> - MTBE CONTAMINATION IN GROUNDWATER: IDENTIFYING AND ADDRESSING THE PROBLEM</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   MTBE CONTAMINATION IN GROUNDWATER: IDENTIFYING AND ADDRESSING THE 
                                PROBLEM
=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                              MAY 21, 2002
                               __________

                           Serial No. 107-108
                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________




                       U. S. GOVERNMENT PRINTING OFFICE
80-670                          WASHINGTON : 2001
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
GREG GANSKE, Iowa                    BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           TOM SAWYER, Ohio
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES ``CHIP'' PICKERING,          GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
TOM DAVIS, Virginia                  THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                 BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland     LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
ERNIE FLETCHER, Kentucky

                  David V. Marventano, Staff Director
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Environment and Hazardous Materials

                    PAUL E. GILLMOR, Ohio, Chairman

JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
GREG GANSKE, Iowa                    EDOLPHUS TOWNS, New York
JOHN SHIMKUS, Illinois               SHERROD BROWN, Ohio
HEATHER WILSON, New Mexico           GENE GREEN, Texas
VITO FOSSELLA, New York              KAREN McCARTHY, Missouri
  (Vice Chairman)                    THOMAS M. BARRETT, Wisconsin
ROBERT L. EHRLICH, Jr., Maryland     BILL LUTHER, Minnesota
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania        HENRY A. WAXMAN, California
MARY BONO, California                PETER DEUTSCH, Florida
GREG WALDEN, Oregon                  JOHN D. DINGELL, Michigan,
LEE TERRY, Nebraska                    (Ex Officio)
ERNIE FLETCHER, Kentucky
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)








                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Ellis, Patricia, Hydrologist, Delaware Underground Storage 
      Tank.......................................................    46
    Grumbles, Hon. Benjamin H., Deputy Assistant Administrator, 
      Office of Water, U.S. Environmental Protection Agency......    13
    Jones, James R., President, Board of Directors, South Tahoe 
      Public Utility District....................................    56
    Miller, Timothy L., Chief of National Water Quality 
      Assessment Program, U.S. Geological Survey.................    16
    Perkins, Craig, Director of Environmental and Public Works 
      Management, City of Santa Monica...........................    60
    Stephenson, John B., Director of Environmental Issues, U.S. 
      General Accounting Office..................................    21
    Williams, Pamela R.D., Exponent..............................    53

                                 (iii)










   MTBE CONTAMINATION IN GROUNDWATER: IDENTIFYING AND ADDRESSING THE 
                                PROBLEM

                              ----------                              


                         TUESDAY, MAY 21, 2002

              House of Representatives,    
              Committee on Energy and Commerce,    
                            Subcommittee on Environment    
                                   and Hazardous Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:40 p.m., in 
room 2123, Rayburn House Office Building, Hon. Paul E. Gillmor 
(chairman) presiding.
    Members present: Representatives Gillmor, Ganske, Shimkus, 
Ehrlich, Radanovich, Terry, Pallone, Brown, Green, McCarthy, 
Luther, Capps, Harman, and Waxman.
    Staff present: Jerry Couri, policy coordinator; Amit 
Sachdev, majority counsel; Hollyn Kidd, legislative clerk; 
Michael Goo, minority counsel; Dick Frandsen, minority counsel; 
and Courtney Johnson, minority research assistant.
    Mr. Gillmor. The subcommittee will now come to order.
    The Chair recognizes himself for the purpose of delivering 
an opening statement.
    Today's hearing has been called to look into the scope and 
the impact that MTBE has had on groundwater throughout our 
country. As Congress prepares to look at proposals to remediate 
MTBE in groundwater through significant use of the Leaking 
Underground Storage Tank Trust Fund, I think it is reasonable 
that our committee explore exactly what kind of situation we 
are trying to remedy.
    Close observers of our committee know that debates over 
this fuel additive are not without their passions and agendas, 
but we are not interested in rehashing the debates of the past 
but rather in dealing with the realities of the present and the 
future. For this reason, our hearing is designed to not talk 
about the statutory provisions of the Clean Air Act 
reformulated fuel program or any pending or potential MTBE 
litigation or efforts to phaseout, ban or mandate the use of a 
specific fuel additive. Not only are some of those questions 
outside the jurisdiction of the subcommittee, some of those 
matters are best left to other branches of government. I 
believe that Congressman Greenwood's excellent hearing last 
November gave an appropriate forum for many of those issues to 
be aired.
    So let me be as clear as I can about what our committee 
does seek to accomplish.
    First, we want to know exactly how many parts of our 
country are facing MTBE contamination in the groundwater and 
drinking water.
    Second, we want to know how severe this contamination is 
and how rapidly we must respond to avoid potential health 
risks.
    Third, we want to know what is causing MTBE to get into 
groundwater and drinking water.
    Fourth, we want to know how active the current local, State 
and Federal efforts are to protect groundwater and drinking 
water.
    Last, it is incumbent upon our committee to see what 
further efforts need to be undertaken to ensure the safety of 
the environment against MTBE contamination.
    I want to welcome our experts who have come to testify 
today. I want to thank them for the sacrifices that they have 
made here to be with us.
    Our first panel combines the wide-ranging work of the U.S. 
Geological Survey on MTBE and groundwater with the most recent 
work of the General Accounting Office on leaking tanks and 
their relationship to MTBE and groundwater contamination. In 
addition, the view of the U.S. EPA's Office of Water will 
hopefully tie all of those findings together.
    Our second panel brings us a wealth of insight as well. We 
will be hearing from the National Groundwater Association, 
which is comprised of several drinking water professionals that 
deal with MTBE on a daily basis. We will also hear the 
experiences from two members of local governments in California 
that have two of the larger MTBE contaminated sites.
    Finally, we will have the opportunity to get a Ph.D.'s 
perspective on the science on MTBE.
    Getting to the bottom of this issue is essential, not as 
part of the larger oxygenated fuels debate but rather because 
we must understand if there is another environmental threat for 
us to address. Regardless of which fuel Americans put in their 
gas tanks, if a dangerous MTBE continues to lurk in our 
groundwater and nothing is done, then we will be facing massive 
cleanup responsibilities and serious drinking water delivery 
issues. If our hearing today bears out that we must take 
further action, I am prepared to take that step and will move 
our committee toward a legislative solution. I hope that we 
will have the bipartisan cooperation of members of this 
committee when this time comes.
    I now yield 5 minutes to my colleague and the ranking 
member of this subcommittee, the gentleman from New Jersey, Mr. 
Pallone, for the purpose of an opening statement.
    Mr. Pallone. Mr. Chairman, I want to start out by saying 
that I always want to have a hearing on an important 
environmental issue like MTBE.
    I would hope that the subcommittee would move quickly to 
move a bipartisan bill that would authorize more spending on 
leaking underground storage tanks, which is the primary source 
of MTBE contamination. I know that Mrs. Capps had language in 
the energy bill and that the Senate has addressed this in the 
energy bill. I am not sure whether that conference would move 
to include something like this, but I think it is incumbent 
upon us as the subcommittee to try to move legislation on this 
important issue as soon as possible after the hearing.
    I also want to say, on a side issue, that I would urge the 
subcommittee to move on an interstate waste bill as soon as 
possible, hopefully immediately after the Memorial Day recess. 
I know a number of Members on our side of the aisle, as well as 
the other side of the aisle, would like to see action on that 
legislation as soon as possible.
    Mr. Chairman, concern over water contamination caused by 
the gasoline additive methyl tertiary-butyl ether, or MTBE, has 
raised question concerning the desirability of using the 
additive as a means of producing cleaner-burning fuel. MTBE is 
used by most refiners to produce the reformulated gasoline 
required under the Clean Air Act in portions of 17 States and 
the District of Columbia. It is credited with producing marked 
reduction in carbon monoxide emissions. RFGs have also reduced 
emissions of toxic substances and the volatile organic 
compounds that react with other pollutants to form smog.
    Over the last few years, however, incidence of drinking 
water contamination from MTBE have raised serious concerns, 
particularly in California by Mr. Waxman, and have led to calls 
for restrictions on its use. In March 1999, Governor Davis of 
California ordered a phaseout of MTBE use in the State by 
December 31, 2003. Twelve other States, including New Jersey, 
have subsequently enacted limits or phaseouts of the substance.
    We all remember that EPA responded to initial reports of 
water contamination by intensifying research and focusing on 
the need to minimize leaks from underground fuel tanks. As 
reports of contamination spread in 1998 and 1999, however, 
EPA's position evolved. On March 20, 2000, the Agency announced 
it was beginning the process of requiring a reduction or 
phaseout of MTBE use under the Toxic Substances Control Act. 
Because regulatory action could take years to complete, EPA 
urged Congress to amend the Clean Air Act to provide specific 
authority to reduce or eliminate use of the substance.
    Since then, the Senate Environment and Public Works 
Committee has twice reported a bill to provide such authority, 
and the Senate incorporated similar provisions in its version 
of H.R. 4, the energy bill which only recently passed.
    I recognize if MTBE were removed from gasoline without 
amending the Clean Air Act there would be a need for refiners 
to use alternative sources of oxygen in RFG. The potential 
alternatives are other forms of ether or alcohol such as 
ethanol. Of course, we know that substitutes do exist. For that 
reason I think Congress should act immediately to phaseout the 
use of MTBE. However, we should also provide for the 
opportunity to use alternative fuels that will meet strict air 
quality standards.
    Mr. Chairman, the other action that Congress needs to be 
addressing is the No. 1 source of MTBE contamination in our 
drinking water, petroleum releases from leaking underground 
storage tanks, LUST. With nearly $2 billion in the trust fund 
to clean up these LUST sites across the country and hundreds of 
thousands of sources of contamination identified, I am at a 
loss to understand why the administration actually cut funding 
and in its budget only dedicated $73 million to clean up these 
leaking tanks.
    Cleanup needs to happen now. As we will hear from the 
witnesses, MTBE contamination poses a real problem, one that 
should not be overlooked by this administration. We must do 
better; and, hopefully, working together on a bipartisan basis, 
we can move quickly to accomplish the goal and address this 
matter.
    I thank you for having the hearing today.
    Mr. Gillmor. Thank you, Mr. Pallone.
    Mr. Ganske.
    Mr. Ganske. Thank you, Mr. Chairman.
    A year or 2 ago I brought a vial--and it is vile stuff--of 
MTBE here to the hearing; and I just unscrewed the cap and left 
it unscrewed for just a very short period of time, maybe 30 
seconds, and it totally filled the room with such obnoxious 
odor I think most people wanted to leave. I then screwed it on 
tightly, and somehow or other it ended up back in my apartment. 
Even though it was a glass vial with a very thick plastic cap, 
it evaporated through the plastic eventually.
    This is a substance that I think we need to worry about. 
Iowa is not one of the States where it is in the gasoline, but 
2 years ago Iowa's Department of Natural Resources issued a 
report that showed that 32 percent of groundwater samples had 
MTBE levels of at least 15 micrograms per liter. What is worse 
is that 29 percent of the groundwater samples had MTBE 
concentrations above the level at which the EPA issues a 
drinking water advisory. Think about that. No MTBE sold or used 
in Iowa today, yet 29 percent of groundwater samples in Iowa 
qualify for Federal drinking water advisories due to 
contamination of this product.
    We are going to hear testimony today about MTBE. Some of 
the worst contamination occurs in States like New Jersey and 
California, but it is a problem that we are seeing everywhere. 
How does it get into Iowa's water? Possibly from previous 
years, but also possibly from exhaust pipes, trucks, cars 
coming across Iowa or maybe from two-cylinder engines.
    Some have looked at fixing this. British Petroleum, 
California's largest gasoline marketer, is replacing MTBE with 
ethanol before Governor Gray Davis's deadline. Since Governor 
Davis set a date of banning MTBE, the ethanol producers have 
come online with 1 billion gallons of production capacity for 
the new market. I think we should move to replace this 
substance with something that is environmentally more friendly; 
and in the future, as we consider how best to solve the problem 
of MTBE contamination in groundwater, I hope we will keep 
renewable ethanol in mind.
    I would also like to say that another common sense measure 
we ought to think about is opening up the Leaking Underground 
Storage Tank Trust Fund in order to help fund the States' 
cleanup of underground storage tanks. I am sure that many of 
them contain MTBE.
    Mr. Chairman, I think it is important to have this hearing. 
The safety of our water supply is very, very important to our 
citizens. When you have a chemical that is so pervasive and so 
emissible as MTBE is, then the public I think is demanding that 
we do something about it.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Gillmor. The gentleman from Ohio, Mr. Brown.
    Mr. Brown. Mr. Chairman, since 1999 California and a dozen 
other U.S. States have placed restrictions on the sale of MTBE. 
Regardless of your views on that chemical, it is clear that the 
intent of these laws in each of these States is to protect 
public health and the environment.
    The problem is that Chapter 11 of the North American Free 
Trade Agreement allows private corporations from Mexico and 
Canada to challenge laws like these on the basis that they are 
barriers to free trade and that they constitute an 
expropriation of the company's property. To make matters worse, 
lawsuits brought under Chapter 11 of NAFTA are decided behind 
closed doors by tribunals comprised almost primarily of trade 
lawyers with little public health and environmental and medical 
expertise. These unelected tribunals are empowered by the North 
American Free Trade Agreement to repeal a sovereign nation's 
public health and environmental laws without accepting even 
petitions or testimony from third parties.
    The investor-state relationship cast by Chapter 11 
exemplifies the greatest imaginable abuse of our democratic 
principles by allowing private corporations to sue a foreign 
sovereign government and overturn domestic health and safety 
laws passed by regulation or by votes of legislative 
democratically elected bodies.
    Corporations have been quick to capitalize on Chapter 11. 
In response to California's decision to phaseout the use of 
MTBE, a decision made democratically in a State in the United 
States, the Methenex Corporation of Canada, a for-profit 
corporation, sued the State of California for $970 million, 
something which could not have been done under any trade 
agreement ever agreed to in this country--$970 million.
    While Congress and the stakeholders in the MTBE debate have 
not reached a consensus on how to deal with the problem, we 
should be free to resolve this issue through domestic, 
democratic means. The Bush administration, unfortunately, does 
not share this view. Fast track legislation supported by the 
White House does not include any provision that would prevent a 
similar Chapter 11 from being included in future trade 
agreements, and the Senate process holds little hope for such a 
provision.
    U.S. Trade Representative Bob Zoellick is committed to a 
similar Chapter 11, again allowing a corporation to sue and try 
to overturn a democratically obtained law or regulation in 
another country, has committed to a similar Chapter 11 in 
future agreements.
    If Chapter 11 is included or a Chapter 11 look-alike is 
included in future agreements like a free trade act to the 
Americas, this committee might as well close its doors, because 
any new law that would be passed to protect the environment, to 
preserve public health, is ultimately subject to review by 
private corporations in any other country in this hemisphere. 
We must not allow international trade laws to undermine this 
committee's work, this Congress's work, the work of the 
American people to draft environmental and public health laws 
in our own States and in our own country.
    I yield to Mr. Waxman.
    Mr. Waxman. I thank the gentleman from yielding to me. I 
have to go to another hearing.
    I thank the chairman for holding this hearing and for 
accommodating my request to hear testimony from the city of the 
Santa Monica. I believe all members of the subcommittee will 
benefit from learning of the disastrous impact MTBE has had on 
Santa Monica's water supply. We must be mindful that as long as 
MTBE is in the fuel supply what happened to Santa Monica can 
happen elsewhere.
    I am pleased that the city of Santa Monica was able to send 
Mr. Craig Perkins to testify today. Mr. Perkins is Director of 
the Environmental Public Works Management for the City, and he 
has worked tirelessly to address Santa Monica's MTBE 
contamination since 1996.
    Like Santa Monica, many communities throughout the country 
have had their drinking water contaminated by leaking 
underground storage tanks. It is time for Congress to take 
action to prevent additional communities from being poisoned by 
MTBE.
    I thank the gentleman from Ohio for yielding to me so I can 
get my 2 cents in on his 5-minute period.
    Mr. Brown. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Gillmor. Mr. Ehrlich.
    Mr. Ehrlich. Mr. Chairman, this is the latest in a series 
of hearings in this committee on MTBE contamination of 
groundwater. In my opinion, it is time to move legislation on 
this issue. To that extent I adopt the comments of my friend 
from California, Mr. Waxman.
    I am aware that many of my colleagues do not agree on 
issues such as banning MTBE or mandating the use of ethanol, 
but there is one thing on which we all agree, the need to 
reform the Federal LUST program to ensure that all tanks comply 
with and are operating in accordance with current regulations 
designed to prevent petroleum releases and to get more money 
out of the LUST fund to the States so that these leaking tanks 
can be cleaned up. The LUST trust fund will have a balance of 
just under $2 billion at the end of this fiscal year. The 
administration has requested appropriations of only $73 million 
in fiscal year 2003, less than the amount the fund will earn in 
interest next year.
    Last year, the GAO released a report containing numerous 
recommendations to Congress to reform the Federal LUST program. 
Reform legislation has been introduced in the Senate and is 
moving in committee. Moreover, this committee has twice moved 
bipartisan legislation targeted toward improving the program. 
In fact, in the 105th Congress, the House passed the last bill, 
H.R. 668, on the suspension calendar on a voice vote. Clearly, 
there is precedent in this area and a history of bipartisan 
cooperation. This committee's oversight subcommittee held a 
hearing last year on this issue with respect to MTBE 
contamination, and there was virtually universal agreement that 
we could move a storage tank bill forward.
    In light of these factors, I strongly urge the chairman and 
ranking member of the subcommittee to introduce and move tank 
reform legislation in the near future. I will support their 
efforts, and I am sure many of my colleagues will as well.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Gillmor. Mrs. Capps.
    Mrs. Capps. Mr. Chairman, thank you for holding this 
hearing. I am very pleased that the subcommittee is turning its 
attention to the problem of MTBE contamination and the leaking 
underground storage tanks that are causing drinking water 
supplies across the country to become contaminated. It is about 
the most basic service the government does, to ensure clean and 
safe drinking water.
    As we know, MTBE is a fuel additive designed to reduce the 
production of smog by increasing the burning efficiency of 
gasoline. But because of its unique properties which Mr. Ganske 
described, MTBE often escapes underground storage tanks and 
contaminates groundwater, making the water smell and taste like 
turpentine at even very low levels, and has resulted in closing 
important drinking water supplies all across the country.
    There are two issues I want to raise today. First, MTBE 
contamination in groundwater supplies from leaking underground 
tanks is prevalent and a problem. In my central coast district 
of California, there are 42 known MTBE-contaminated sites in 
San Luis County and 111 in Santa Barbara County.
    For example, the coastal town of Cambria is facing a real 
calamity. MTBE contamination has shut down two municipal 
drinking water wells the community service district has used as 
backup sources during dry seasons and droughts. The district 
has spent more than $1 million to research the problem. Cambria 
is also considering the addition of a desalination plant to 
ensure an adequate supply of drinking water, and that will cost 
millions more.
    However, Mr. Chairman, the threats posed by MTBE are not 
confined to my congressional district. Our colleague from Santa 
Monica described what it is like there. Nationwide, more than 
419,000 leaks from underground storage tanks have been 
detected; and the EPA projects that many more can be confirmed 
as older tanks are upgraded, replaced or closed to meet current 
regulations. Currently, over 160,000 of these sites need to be 
addressed.
    South Tahoe Public Utility District--and the second panel 
has a representative from that district--has shut down 13 of 
its 34 drinking wells due to MTBE contamination. Twenty-one of 
Wisconsin's 71 counties have detected MTBE in groundwater, and 
in Iowa it has been detected in over 23 percent of urban 
alluvial wells. So it is time that we do something about this.
    We need to assist the communities directly affected by MTBE 
contamination. Our committee, the House and the Senate, has 
already started the process of addressing this issue. In the 
energy package, the committee included my amendment to 
authorize $200 million to clean up MTBE contaminated sites, but 
this was only a small step toward addressing these cleanup 
needs when we should be taking a giant leap forward.
    In 1986, Congress established the Leaking Underground 
Storage Tank, or LUST, Trust Fund to tackle this nationwide 
problem. It was specifically created to ensure prompt and 
appropriate cleanup from leaking underground storage tanks at 
gas stations and other facilities. It is financed by one-tenth 
of a cent gallon gasoline tax on motor fuel, but because we 
have appropriated less each year for cleanup than is collected 
in taxes annually, this trust fund will have an estimated 
balance of $2.14 billion at the end of fiscal year 2003.
    This year, the trust fund will collect an estimated $193 
million, yet the President's budget requests only $73.2 million 
to undertake cleanup activities. This is $68,700 less than last 
year's appropriation. I think we need to do better than that. 
The American people are paying taxes on gasoline and other 
fuels precisely to ensure that these underground tanks are not 
polluting their drinking water, and we should use the funds for 
that purpose. This is something that this Congress needs to 
move forward on.
    MTBE-contaminated sites will continue to pop up around the 
country unless we immediately fix this contamination problem. 
If not, we are gambling on the purity of our drinking water. 
That is a risk I am not willing to take.
    I look forward to exploring the issue. I thank the 
witnesses for appearing today, and I thank you for holding this 
hearing, Mr. Chairman.
    Mr. Gillmor. The gentlewoman from Missouri.
    Ms. McCarthy. Mr. Chairman, I am going to put formal 
remarks in the record so we can get on to the witnesses, and I 
thank the witnesses for being here, and I thank you for this 
hearing.
    I would like to associate myself with the statements of Mr. 
Ehrlich. Having been in the Missouri legislature and having 
been the author and sponsor of the Missouri LUST program in my 
service there, I am concerned that we in Congress are not 
adequately funding the program. There is no money in the 
Missouri fund, and there will be no money in the future.
    While we do try to inspect our tanks once every 3 years and 
we have had a pretty good program in place in the past, I think 
it is time to revisit the LUST fund legislation, that we make a 
commitment to fund it adequately, reform it and improve upon it 
as needed.
    Fortunately, my State has not had a problem with MTBE 
except in a few instances. But for the sake of all States who 
want to protect their groundwater, we really need to address 
this issue.
    I thank you, and I will put formal remarks in the record.
    Mr. Gillmor. I would like to ask unanimous consent that all 
members may have 5 days to submit opening statements and 10 
days to file relevant information on the topic of the hearing. 
Hearing no objection, it is so ordered.
    The gentleman from Texas.
    Mr. Green. Mr. Chairman, I appreciate you calling this 
meeting because much of the debate centered around whether to 
ban MTBE is the impact on our drinking water supplies. I have 
read the testimony of most of our witnesses and am encouraged 
to see MTBE groundwater detections are declining.
    Addressing leaky underground storage tanks and keeping the 
two-stroke motors off our lakes used for drinking water has 
contributed to cleaner water. However, more needs to be done on 
the regulatory level to address the underground storage tank 
issue. The States and the EPA need to crack down on tank owners 
not in compliance with Federal underground storage tank 
regulations. 1998 was supposed to be the year that all tanks 
were to be double-lined and inspected for leaks, but, 
unfortunately, many of these tanks still do not meet the 
Federal standards. I strongly urge all communities to stop 
allowing uninspected tanks to be refilled until they are 
brought in compliance.
    In addition, for tanks located in close proximity to 
critical drink- ing water sources, more extensive leak-proofing 
may be needed.
    We must look at all alternatives before banning MTBE 
because of the significant economic impact on American 
consumers and fur- ther help our enemies in the Middle East and 
even Iraq. The price of gasoline will dramatically increase as 
new supplies of oil must be imported to make up for the loss of 
MTBE. We import now 5 percent of our oil needs from Iraq, and 
we will lose 5 percent of daily gasoline needs if MTBE is 
banned. Banning MTBE means we may have to purchase more Iraqi 
oil to meet our needs.
    Mr. Chairman, I have a chart that I would like to put into 
the record reflecting this fact.
    [The chart referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0670.001
    
    Mr. Green. In addition to the national security issues, 
whole areas of this country will experience the ethanol effect. 
States like California will see gas prices increase from 50 to 
100 percent be- cause they must use ethanol. Ethanol cannot be 
transported through pipelines so the only way to move it around 
the country is by tanker trucks, rail or barge. When you add 
all of the addi- tional transportation costs to the basic cost 
of the gasoline, aside from price implications, our 
nonattainment regions of this country will see a reduction of 
air quality because of the clean air benefits of MTBE cannot be 
equaled by ethanol.
    Mr. Chairman, I support emptying the Leaking Underground 
Storage Tank Trust Fund down to the last nickel if it means we 
can bring all the underground storage tanks into compliance. 
Ban- ning MTBE will only fix a symptom of a much larger 
problem. Where there is MTBE there is a host of other chemicals 
that States need to be testing for and forcing remediations 
where necessary. I have used this statement many times: 
Anything that makes my truck run, I don't want to taste or 
smell. Just because I can taste or smell MTBE, there are lots 
of other chemicals in our gasoline

that may be in there that we may not be testing for. MTBE is an 
easy marker that, once removed, should not be taken as a sign 
that the underground contamination problem is fixed.
    I look forward to discussing this issue in great depth with 
today's witnesses.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Gillmor. The gentleman from Illinois is recognized, but 
first I would like to congratulate him on the passage of his 
Dot Kids bill on the floor today. It was very well done.
    Mr. Shimkus. Mr. Chairman, I thank you; and I appreciate 
those kind words. It was a great victory, and we have a great 
opportunity to at least have another tool in the attempt to 
protect our kids. We are excited. We also are excited that we 
have Senator Ensign and Senator Dorgan ready to move it forward 
on the Senate side.
    I have a few comments to make, but I am going to disregard 
those. I understand that we have a panel of experts. I don't 
want to get into a fist fight with my friend from Texas, who is 
doing his best to ensure that his issue is up front; and, with 
all due respect, he knows that we have some disagreements and 
we are aligned on the side when we need to be on the same side. 
We will not make this bloody for his purposes, which is to say 
we look forward to lis- tening and hearing from our panel of 
experts.
    Mr. Green. If the gentleman will yield for a brief 
response.
    Mr. Shimkus. I am honored to.
    Mr. Green. We will save our physical competitiveness for 
the basketball court.
    Mr. Shimkus. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Gillmor. The gentlewoman from California, Mrs. Harman.
    Ms. Harman. Mr. Chairman, I have a statement for the 
record.
    Mr. Chairman, I am the one sitting next to Mr. Green, and I 
have promised not to be violent either. But I would point out 
just a few facts about California. Mrs. Capps and Mr. Waxman 
have also addressed these facts.
    First of all, I am sorry that we postponed the MTBE ban for 
a couple of years. I guess it is 1 year. I am for implementing 
that ban as soon as possible.
    Second of all, my understanding is that we do in California 
the most extensive MTBE monitoring of drinking water that is 
done anywhere in the country. As of May 2002, which is this 
month, this is very current data, we have 2,996 systems serving 
31.4 million of the State's 34 million people. Over 56 systems, 
that is 1.9 per- cent, reported detections of MTBE in their 
drinking water sources. Thirteen had concentrations exceeding 
California's MTBE drinking water standards. That may not sound 
like a lot, but over the mil- lions of people served that is a 
lot of people, and that is a lot of potential health problems.
    I would just say to Mr. Green on his point about being 
dependent on Iraqi oil, I don't think that we should be 
dependent on Middle Eastern oil at all. I think we should ban 
harmful additives from our gasoline, and we should move 
expeditiously to energy inde- pendence. The way I would get 
there is to use all forms of alter- native energy, not fossil 
fuels, many of which are developed and produced in my State and 
his State; and I think that is a recipe

for a more secure country, a cleaner environment, and a 
healthier population.
    Mr. Chairman, I yield back the balance of my time.
    [The prepared statement of Hon. Jane Harman follows:]
 Prepared Statement of Hon. Jane Harman, a Representative in Congress 
                      from the State of California
    My thanks to Chairman Gillmor for convening this hearing on MTBE 
contamina- tion of ground water.
    As a representative from a state with considerable experience with 
MTBE in gaso- line, I can also attest to the severe groundwater 
contamination found in several areas of the state--including Los 
Angeles County and the city of Santa Monica, which is adjacent to my 
Congressional District.
    Today's hearing will hopefully focus needed attention on local, 
state and federal efforts to remove MTBE from ground water and, in 
particular, on the need to in- crease expenditures from the LUST 
leaking tank trust fund.
    Like my colleague from Santa Barbara (Mrs. Capps), I believe the 
expenditures from the LUST Trust Fund are inadequate to address the 
extent of MTBE contami- nation, aid states in their inspections, or 
improve enforcement actions against tank owners.
    Last year, in testimony before our sister subcommittee, the General 
Accounting Office said that despite installation of required protective 
equipment, more than 200,000 underground tanks were not operated and 
maintained property--thus con- tributing to the chance of leaks.
    Most of the operating and maintenance problems were attributed to 
poorly trained staff and the lack of regular state inspections. In its 
testimony, GAO said only 19 states physically inspect all of their 
tanks at least once every three years and 22 states only target 
inspections on potentially problematic tanks.
    In addition to more frequent inspections, a number of states 
reported to the GAO that they need additional enforcement tools to 
correct problems tanks. One of the most effective tools is the ability 
to prohibit suppliers from delivering fuel to sta- tions with tank 
problems. Twenty-seven states said they did not have the authority to 
take this simple preventative step.
    These are a few of the issues that can be addressed by improving 
the LUST fund legislation and increasing the allocation of federal 
funding for these activities.
    I hope this hearing presages our efforts to consider such 
legislation.
    Mr. Chairman, between the information we will receive today and 
that already obtained by the Investigations Subcommittee in its hearing 
last November, we have a full appreciation of the extent of MTBE ground 
water contamination and the steps necessary to stop it at its source.
    I encourage you to take the next step and bring to the Subcommittee 
a legislative proposal to address this need.
    I look forward to working with you toward that end.
    Thank you.
    Mr. Gillmor. The gentlewoman yields back.
    [Additional statements submitted for the record follow:]
   Prepared Statement of Hon. George Radanovich, a Representative in 
                 Congress from the State of California
    Mr. Chairman, I commend you for taking the time to evaluate and 
focus on the extent of MTBE contamination in our nation's water supply.
    As more studies on MTBE contamination are being completed across 
the nation, the extent of the problem is becoming fairly well known. 
MTBE contamination has affected communities across the country. I have 
personally witnessed the terrible ef- fects of MTBE in my home state of 
California where communities have faced the loss of a significant 
portion of their drinking water supplies due to MTBE contami- nation 
caused by failures of underground storage tank systems.
    With the threat of adverse health effects, it is imperative that 
EPA works aggres- sively to conduct and support studies to better 
quantify the risk from ingesting water containing MTBE. Once MTBE 
enters the environment, it is difficult to re- spond to the fast moving 
contaminant, therefore now is the time to utilize the LUST trust fund 
to its maximum capability. It is crucial that we immediately implement 
improved methods to protect our water supply systems, and I look 
forward to hear- ing what type of guidance EPA will provide for states 
on the assessment and reme- diation of MTBE contaminated sites.
    In the end, I hope we can work together to protect the drinking 
water that our citizens depend on each and every day and build on our 
Committees' recent progress and result in continued improvements in one 
of our Nation's most critical and precious resources.
    Thank you, Mr. Chairman, for holding this hearing today. I look 
forward to the witnesses' testimony.
                                 ______
                                 
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                              on Commerce
    Thank you, Chairman Gillmor. I want to commend you for your efforts 
in putting together today's hearing on the scope of concerns related to 
Methyl Tertiary Butyl Ether (MTBE) cleanup efforts.
    The Clean Air Act Amendments of 1990 created reformulated gasoline 
requirements that resulted in widespread use of MTBE as a gasoline 
additive designed to reduce air pollution caused by mobile sources, 
such as cars, trucks, and boats. But since its implementation, we have 
also heard in hearings before this Committee that MTBE may pose some 
significant threats to groundwater sources when it leaks from 
underground tanks.
    Today's hearing is important, because I believe it is another 
opportunity for us to listen to Federal and State officials involved in 
cleanup efforts and to hear from scientific experts about the nature 
and scope of concerns regarding MTBE contamination. We need to 
determine how to proceed in crafting public policy regarding MTBE 
contamination that utilizes the best available scientific information 
and makes the most effective use of available Federal and State 
resources.
    As my colleagues know, both the House and Senate-passed energy 
bills provide additional authorization to use Federal resources, 
including funds collected in the Leaking Underground Storage Tank 
(LUST) Trust Fund, for MTBE cleanups. The House-passed bill authorizes 
$200 million to be taken from the LUST Trust Fund for the cleanup MTBE 
releases from leaking underground storage tanks. The Senate-passed bill 
also authorizes $200 million to be appropriated from the LUST Trust 
Fund to be used for release prevention and compliance and to clean up 
MTBE releases from underground storage tanks and otherwise. In the 
coming weeks we will be working to reconcile the House and Senate 
energy bills and these provisions.
    I look forward to the testimony of the witnesses today to assist us 
in designing appropriate public policy in addressing releases of MTBE.
    Thank you, Mr. Chairman.
                                 ______
                                 
Prepared Statement of Hon. Ed Towns, a Representative in Congress from 
                         the State of new York
    Mr. Chairman, thank you for holding this important hearing. As you 
know, my state, New York, is one of fourteen states that has already 
taken steps to limit or ban MTBES. The problem with MTBE's is not 
limited to these fourteen states. I welcome this hearing as an 
opportunity to learn how widespread the MTBE groundwater contamination 
problem is, but i come to this hearing skeptical that we know the 
answer to that question.
    I believe that the federal government must take preventative steps 
to ban MTBE's, assist states with their remediation efforts in a far 
more meaningful way, and offer those states that are required to use 
reformulated gas under the 1990 clean air act amendments of 1990 with a 
waiver until an appropriate alternative can be provided. Today, I hope 
to hear what steps can be taken on a federal level to eliminate this 
potentially devastating organic chemical as well as what can be done to 
assist states, such as New York, that do not have the infrastructure in 
place to replace MTBEs with ethanol.

    Mr. Gillmor. We will proceed to our panel.
    Our first witness is the Honorable Ben Grumbles, Deputy 
Assistant Administrator for the Office of Water, U.S. 
Environmental Protection Agency.

   STATEMENTS OF HON. BENJAMIN H. GRUMBLES, DEPUTY ASSISTANT 
 ADMINISTRATOR, OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION 
  AGENCY; TIMOTHY L. MILLER, CHIEF OF NATIONAL WATER QUALITY 
    ASSESSMENT PROGRAM, U.S. GEOLOGICAL SURVEY; AND JOHN B. 
  STEPHENSON, DIRECTOR OF ENVIRONMENTAL ISSUES, U.S. GENERAL 
                       ACCOUNTING OFFICE

    Mr. Grumbles. Thank you, Mr. Chairman.
    I am Ben Grumbles, the Deputy Assistant Administrator for 
the Office of Water at the U.S. Environmental Protection 
Agency.
    First, let me convey the Assistant Administrator Tracy 
Meehan's regrets for not being able to be here today to testify 
before the subcommittee.
    Second, I appreciate the opportunity to share with you some 
of EPA's perspectives and actions regarding the extent of MTBE 
contamination of our Nation's valuable water resources. EPA 
continues to craft national policies and programs to improve 
air quality while also ensuring the provision of safe, reliable 
drinking water.
    I know the value of your time, Mr. Chairman, so I will just 
summarize the basic message, which is MTBE presence in water 
supplies is widespread but at relatively low levels. We 
recognize that it may be more of an issue of taste and odor, 
but it is also a potential public health issue, so more 
aggressive research is needed and analysis is needed on that 
point.
    EPA is working aggressively with its Federal, State and 
local partners to accelerate the level of pollution prevention 
and source water protection and watershed planning.
    In the remaining minutes of the testimony, I would like to 
get into some of the specifics and the background.
    In terms of the sources of MTBE contamination, as the 
members of the subcommittee have already pointed out, the 
Nation's fuel supply contains constituents, including MTBE, 
which may pose environmental and human health risks when not 
managed carefully. These gasoline components have the potential 
to be released to the environment wherever gasoline is stored, 
transported or transferred. The most significant sources of 
contamination of water resources are from leaking storage 
tanks, pipelines, refueling spills, and emissions from older 
marine engines. However, the presence of MTBE makes the 
challenge of cleaning up these releases more difficult because 
MTBE's chemical and physical properties make it much more 
likely to reach groundwater than other petroleum constituents. 
Even at low concentrations, MTBE may make the drinking water 
undrinkable due to its unpleasant taste and odor.
    MTBE's impact on drinking water supplies. MTBE 
contamination from all sources, but primarily underground 
storage tanks, is fairly widespread. Approximately 419,000 
petroleum releases from underground storage tanks have been 
reported since the beginning of EPA's LUST program in the mid-
1980's. There are also hundreds of thousands of abandoned 
underground storage tanks, many of which have releases.
    A national study by New England Interstate Water Pollution 
Control Commission in 2000 found that most States detect MTBE 
at 60 to 80 percent of Leaking Underground Storage Tank sites.
    MTBE contamination has affected communities across the 
country, as members have mentioned this afternoon. Santa 
Monica, California, has faced the loss of a significant portion 
of its drinking water supplies due to MTBE contamination caused 
by failures of underground storage tank systems. Lake Tahoe has 
faced similar problems; and in Long Island, New York, MTBE 
contamination has resulted in alternate or improved drinking 
water supplies having to be provided for over 160 affected 
public and private wells.
    To assess the extent of MTBE contamination at the national 
level, EPA is collecting data on MTBE in finished drinking 
water as part of its Unregulated Contaminant Monitoring Rule 
published in 1999. Preliminary data indicates that MTBE has 
been detected in only 1 of 154 large systems that have reported 
to date at a level of 13 parts per billion. Of the 283 small 
systems that have reported, 3 systems detected MTBE at levels 
ranging from 6 to 49 parts per billion. The complete set of 
EPA's unregulated contaminant monitoring occurrence data will 
be available in 2004.
    The USGS has amassed a large data set for the period 1993 
to 2000. Their data show that MTBE occurs more frequently in 
water supplies in regions with high MTBE use but that the vast 
majority of detections are very low levels.
    In addition, results published in 2001 from a joint USGS/
EPA study of 12 northeastern States from 1993 through 1998 
showed that MTBE was detected in 7.8 percent of community 
drinking water supplies. Less than 1 percent of these 
detections were above the levels of 20 to 40 parts per billion 
cited in EPA's Drinking Water Advisory which the Agency had 
published in 1997 to help consumers avoid unacceptable taste 
and odor from low levels of MTBE in water supplies.
    In terms of addressing the challenges, let me just say 
public health researchers have limited data about what the 
adverse health affects may be if a person ingests water 
contaminated with MTBE. EPA has been working aggressively to 
conduct or support studies to better quantify the risk from 
ingesting water containing MTBE.
    In March 1998, EPA added MTBE to its Drinking Water 
Contaminant Candidate List for making risk-based decisions on 
contaminants the Agency will consider for future regulatory 
action. EPA is committed to making a decision at the earliest 
possible time as to whether or not a health-based regulation is 
appropriate.
    Mr. Chairman, in closing, I would just like to say I 
appreciate the opportunity to testify before you today on this 
important subject. EPA is taking several actions to aid States 
and localities in addressing MTBE contamination. We have 
provided substantial funding and technical support, and we look 
forward to working with you and your colleagues to address this 
most significant and important issue.
    I would be happy to answer any questions at the appropriate 
time.
    [The prepared statement of Benjamin H. Grumbles follows:]
     Prepared Statement of Benjamin H. Grumbles, Deputy Assistant 
     Administrator for Water, U.S. Environmental Protection Agency
    Good morning Mr. Chairman, and Members of the Subcommittee. I am 
Ben Grumbles, Deputy Assistant Administrator for Water at the U.S. 
Environmental Protection Agency (EPA). First, let me convey Tracy 
Mehan's regrets for being unable to be here today to speak with this 
Subcommittee. Second, I appreciate the opportunity to share with you 
EPA's perspectives and actions regarding the extent of Methyl Tertiary-
Butyl Ether (MTBE) contamination of our nation's valuable water 
resources. EPA has been and continues to craft national policies and 
programs to improve air quality while also ensuring the provision of 
safe, reliable drinking water to all of our citizens.
                     sources of mtbe contamination
    The nation's fuel supply contains constituents, including MTBE, 
that may pose both human health and environmental risks when not 
managed carefully. MTBE, as well as other gasoline components, has the 
potential to be released to the environment wherever gasoline is 
stored, transported, or transferred. The most significant sources of 
contamination of water resources are from leaking underground and 
aboveground storage tanks, pipelines, refueling spills, emissions from 
older marine engines, and to a much lesser degree, storm runoff and 
precipitation. However, the presence of MTBE makes the challenge of 
cleaning up these releases more difficult, because MTBE's chemical and 
physical properties make it much more likely to reach ground water than 
other petroleum constituents. Even at low concentrations, MTBE may make 
the water undrinkable due to its unpleasant taste and odor.
                mtbe's impact on drinking water supplies
    MTBE contamination from all sources, but primarily from underground 
storage tanks, is fairly widespread. Approximately 419,000 petroleum 
releases from underground storage tanks have been reported since the 
beginning of EPA's Underground Storage Tank program in the mid-1980's. 
There are also hundreds of thousands of abandoned underground storage 
tanks, many of which have releases that need to be addressed. In 
addition, there is emerging evidence that vapor releases from new and 
upgraded underground storage tanks are common, and these vapors 
containing MTBE can find their way into ground water.
    A national study by the New England Interstate Water Pollution 
Control Commission in 2000 found that most states detect MTBE at 60 to 
80 percent of leaking underground storage tank sites. Based on an 
analysis of data from 31 states, a report in Environmental Science & 
Technology (May 2000) estimated that up to 9,000 community water 
supplies in those 31 states may be threatened by MTBE contamination. 
However, the U. S. Geological Survey (USGS) and others have reviewed 
the data underlying this study, and more recent surveys, and have 
estimated that the number of threatened community water supplies is 
likely far lower.
    MTBE contamination has affected communities across the country. For 
example, the City of Santa Monica, California has faced the loss of a 
significant portion of its drinking water supplies due to MTBE 
contamination caused by failures of underground storage tank systems. 
Lake Tahoe has faced similar problems. In Long Island, New York, MTBE 
contamination has resulted in alternate or improved water supplies 
having to be provided for over 160 affected public and private wells. 
Pascoag, Rhode Island, while smaller in size than Santa Monica, Lake 
Tahoe or Long Island, has also lost its drinking water supply. More 
recently, attention has turned to a release in Roselawn, Indiana.
    To gauge the impacts of MTBE levels in our water supplies, let me 
give you some background on the Agency's Drinking Water Advisory for 
MTBE, published in 1997. The advisory provides information and guidance 
to people and agencies concerned with potential taste and odor impacts 
on consumers from the presence of low levels of MTBE in their drinking 
water. The advisory is not a legally enforceable standard. The 1997 
advisory recommends not exceeding MTBE levels of 20-40 parts per 
billion (ppb) to avoid unacceptable taste and odor.
    To assess the extent of MTBE contamination at the national level, 
EPA is collecting data on MTBE in finished drinking water as part of 
the Unregulated Contaminant Monitoring Rule, which was published in 
1999, to cover new monitoring that began in 2001. This rule requires 
all large public water systems and a nationally representative subset 
of small systems to monitor for and report results of MTBE sampling. 
Preliminary data indicates that MTBE has been detected in only 1 of the 
154 large systems that have reported to date, at a level of 13 ppb. Of 
the 283 small systems that have reported, 3 systems detected MTBE at 
levels ranging from 6-49 ppb. The complete set of EPA's unregulated 
contaminant monitoring occurrence data will be available in 2004.
    The USGS has amassed a large data set for the period 1993-2000 
through its National Ambient Water Quality Assessment. Their data show 
that, as you might expect, MTBE occurs more frequently in water 
supplies in regions with high MTBE use, but that the vast majority of 
detections are very low levels, with a median concentration of 0.5 ppb. 
In addition, results published in 2001 from a joint USGS/EPA study of 
12 northeastern states for the period 1993-1998 showed that MTBE was 
detected in 7.8 percent of community drinking water supplies, with less 
than 1 percent of these detections above the 20-40 ppb levels cited in 
EPA's Drinking Water Advisory. Again, this 12-state study also 
concluded that MTBE is detected five times more frequently in drinking 
water from public water systems in areas requiring reformulated gas or 
winter oxygenated fuel than in areas where non-reformulated gas or 
winter oxygenated fuel are not required.
    Another concern is the potential risk to private household wells, 
which EPA does not have the statutory authority to regulate. In 1998, 
the State of Maine reported on sampling conducted on 951 household 
drinking water wells and 793 public water supplies. In this study, MTBE 
was detected in 16 percent of the sampled household wells, with 1 
percent of these wells containing MTBE levels exceeding the EPA 
Drinking Water Advisory level. The public water systems also reported 
detection frequency of 16 percent, but none of the systems showed 
levels above the upper end of EPA's Drinking Water Advisory.
                       addressing the challenges
    Public health researchers have limited data about what the adverse 
health effects may be if a person ingests water contaminated with MTBE. 
EPA has been working aggressively to conduct or support studies to 
better quantify the risk from ingesting water containing MTBE.
    In March 1998, EPA added MTBE to its Drinking Water Contaminant 
Candidate List, which is the Agency's targeting and prioritization tool 
to make risk-based decisions on contaminants the Agency will consider 
for future regulatory action. EPA is committed to making a decision at 
the earliest possible time as to whether or not a health-based 
regulation for MTBE is appropriate.
    This decision, like others involving the protection of public 
health, should be based on sound scientific information. In the case of 
MTBE, we are currently conducting an assessment of the human health 
consequences due to ingestion of water containing low levels of MTBE. 
We plan to issue a final health assessment in spring 2003. This 
assessment, coupled with a much clearer picture of the levels and 
extent of MTBE contamination across the U.S. from data collected 
through EPA's unregulated contaminant monitoring program data and 
USGS's studies, will provide the solid scientific underpinning for 
making the right public health decision.
    EPA is taking several actions to aid states and localities in 
addressing MTBE contamination. EPA has provided substantial funding 
and/or technical support to Santa Monica, South Lake Tahoe, Long 
Island, and Pascoag, Rhode Island to remediate MTBE. In addition, EPA 
is chairing a federal-state workgroup that will create interim guidance 
for states on the assessment and remediation of MTBE contaminated 
sites. EPA also maintains a comprehensive website covering the full 
depth and breadth of MTBE issues. EPA is also conducting a 
demonstration of treatment and remediation technologies for MTBE-
contaminated soil, ground water and drinking water at Port Hueneme, 
California.
                            closing thoughts
    Thank you, Mr. Chairman, for the opportunity to testify today 
before this Subcommittee on this important subject. EPA looks forward 
to working with you on this and other issues relevant to protecting the 
quality of one of our nation's most precious and critical resources. 
That concludes my prepared remarks, and I would be happy to answer any 
questions.

    Mr. Gillmor. Thank you very much, Mr. Grumbles.
    We will go to Mr. Timothy Miller, Chief of the National 
Water Quality Assessment Program, U.S. Geological Survey.

                 STATEMENT OF TIMOTHY L. MILLER

    Mr. Miller. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before the subcommittee and testify on 
the findings of the U.S. Geological Survey.
    I ask that my full statement be entered into the record, 
and I have a few brief comments.
    The mission of the U.S. Geological Survey to assess 
quantity and quality of the Nation's resources and providing 
information that will assist policymakers at all levels in 
making sound decisions is one of the focuses of our efforts.
    U.S. Geological Survey studies over the past 8 years have 
shown that MTBE typically is present at very low concentrations 
in shallow groundwater, and concentrations are almost always 
below the levels of concern for taste and odor. The locations 
in our data base with high concentrations of MTBE may be 
associated with leaking underground storage tanks typically.
    The results presented today come from studying MTBE and 
other volatile organic compounds as part of the National Water 
Quality Assessment Program. Within that program we measure 
about 60 VOCs on a routine basis.
    Since we first reported results in 1995 on a small number 
of sites, we have now sampled more than 40,000 wells for MTBE 
and a wide range of other compounds. About 10 percent of those 
4,000 wells are public water supply wells. The remaining 3,600 
are wells that are evenly split between domestic supply wells 
and monitoring wells which are not used for drinking water.
    At a reporting level of two-tenths of a microgram per liter 
in that large data set, we detected MTBE in about 5 percent of 
the wells sampled. Most of the MTBE detections are low 
concentrations. None of the public water supply wells and only 
one of the domestic wells had MTBE at a concentration above 20 
micrograms per liter, the lower limit of EPA's drinking water 
advisory.
    The large data set shows that low levels of MTBE are 
detected in about one out of five wells in MTBE high-use areas. 
MTBE is the second most frequently detected volatile organic 
compound. Chloroform, a drinking water disinfection by-product 
and a commercial solvent, is the most frequently detected VOC.
    We have also undertaken two additional large-scale studies, 
first in cooperation with USEPA. As Mr. Grumbles has reported, 
we did look at drinking water supply wells in 12 States in the 
Northeast and Mid-Atlantic from 1993 through 1998, and we found 
about 9 percent of those systems had detectable MTBE. Ten 
systems had MTBE concentrations that equaled or exceeded the 
lower limit of EPA's advisory on taste and odor.
    We are now completing a second large study in selected 
reservoirs, rivers and wells that supply community water 
systems. We are working with the American Water Works Research 
Association and with the Metropolitan Water District of 
Southern California. In this 4-year study, we have tested about 
950 randomly selected community water systems. Sixty percent of 
those systems are wells. The rest are rivers and reservoirs. 
The samples have come from all 50 States and Puerto Rico.
    The initial findings are similar to what we have noted 
earlier. Specifically, MTBE concentrations were almost always 
below the drinking water advisory. About 9 percent of all 
sources sampled had MTBE present. In general, the detection of 
MTBE increased with the increasing size of community water 
systems. For example, MTBE was detected in about 4 percent of 
systems serving more than 10,000 and in nearly 15 percent of 
systems serving greater than 50,000.
    Last year, USGS also coauthored an article that pointed out 
that, within 31 States, although the data are limited, about 
9,000 community wells may have one or more leaking underground 
storage tanks within a radius of 1 kilometer of the well. Not 
all community wells with gasoline releases nearby are at risk 
for MTBE contamination because not all gasoline releases 
contain MTBE and not all MTBE releases are sufficiently large 
to pollute a nearby well. Also, many wells draw water from 
deeper zones of aquifers and may be isolated from land surface 
contamination by low permeability rocks.
    In summary, the USGS has not found widespread, high-level 
MTBE contamination at rivers, reservoirs and groundwater that 
are actively used as community water systems. Furthermore, we 
have not found high concentrations in public wells and domestic 
wells sampled in our NAWQA program or in the drinking water of 
community water systems in the Northeast and Mid-Atlantic 
States. We have, however, identified MTBE and other VOCs 
frequently found in groundwater, source water and drinking 
water at concentrations below EPA's advisory.
    I appreciate the opportunity to testify today, and I would 
be happy to respond to any questions. Thank you, Mr. Chairman.
    [The prepared statement of Timothy L. Miller follows:]
Prepared Statement of Timothy L. Miller, Chief, National Water-Quality 
  Assessment Program, U.S. Geological Survey, U.S. Department of the 
                                Interior
    Mr. Chairman and subcommittee members, I appreciate the opportunity 
to appear before the Subcommittee on Environment and Hazardous 
Materials to testify on the findings of U.S. Geological Survey (USGS) 
studies on water-quality issues related to methyl tertiary-butyl ether, 
commonly referred to as MTBE.
    As you may know, the mission of the USGS is to assess the quantity 
and the quality of the earth's resources and to provide information 
that will assist resource managers and policy makers at the Federal, 
State, and local levels in making sound decisions. Assessment of water-
quality conditions and research on the fate and transport of pollutants 
in water are important parts of the overall mission of the USGS.
    USGS studies over the past 8 years have shown that MTBE typically 
is present at very low concentrations in shallow ground water within 
areas where MTBE is used. Our studies also suggest that MTBE levels do 
not appear to be increasing over time and are almost always below 
levels of concern from aesthetic and public health standpoints. The few 
locations in our database with high concentrations of MTBE may be 
associated with leaking underground storage tanks.
    Based on comparisons with the U.S. Environmental Protection 
Agency's (USEPA) drinking water advisory, the health threat to water 
supplies is small compared to other water-related issues. MTBE is 
primarily an aesthetic (taste and odor) problem. However, we believe it 
may be prudent to continue our monitoring and research within available 
resources so that we can verify that the threat remains low and to 
further the understanding of this chemical to contribute to effective 
strategies to protect our Nation's water supplies and to efficiently 
remediate those ground waters that have become contaminated.
    The results I will present today come from about a decade of 
sampling and study of MTBE and other Volatile Organic Compounds (VOCs). 
MTBE is one of about 60 VOCs that we measure on a routine basis in our 
water-quality studies.
    The single largest study we have made of MTBE is part of our 
National Water Quality Assessment (NAWQA) Program. Based on initial 
monitoring data for wells sampled in 1993-94 in the NAWQA Program, we 
published a report on the occurrence of MTBE in shallow ground water in 
urban and agricultural areas. At that time our data set was fairly 
small--about 200 randomly selected wells in urban areas and 500 
randomly selected wells in agricultural areas. We reported finding MTBE 
in about 25 percent of urban wells and 1 percent of agricultural wells. 
Many of the MTBE detections were low concentrations. In fact, only 3 
percent of the urban wells exceeded 20 micrograms per liter, the lower 
limit of USEPA's consumer advisory for taste and odor. Also, many of 
the urban wells that contained MTBE were located in Denver, Colorado, 
and in New England, both areas with extensive use of MTBE prior to our 
sampling. At the time, MTBE was a chemical for which usage had 
increased dramatically in recent years and we knew it moved in the 
subsurface differently from other gasoline components. Thus, even 
though it was detected in few wells and at very low levels, we believed 
it would be prudent to continue studying it at many locations and over 
a period of several years to learn more about its national distribution 
and fate.
    Since our first report in 1995, we have sampled additional wells in 
the NAWQA Program. This now gives us much better coverage of aquifers 
across the Nation. For the period 1993-2000, we sampled 4,260 wells (or 
springs) for MTBE and a wide range of other compounds. Of this total, 
396 are public water-supply wells; 1,847 are domestic wells; and 2,017 
are monitoring wells (or other wells not used for drinking water). At a 
reporting level of 0.2 micrograms per liter (a level that is one one-
hundredth of the USEPA advisory level), we detected MTBE in 5.2 percent 
of the wells sampled. Most of the MTBE detections are low 
concentrations. None of the public water-supply wells and only one 
domestic well had MTBE at a concentration above the lower limit of 
USEPA's advisory. Through our interpretations of this large data set we 
have also determined that low-levels of MTBE are detected in about 1 
out of 5 wells in MTBE high-use areas. Although we do not expect to see 
a great change in these results over time, we recognize that there may 
be a delay in the detection of MTBE in some wells--particularly those 
that are deeper and may be farther from the source of contamination. 
MTBE is the second most frequently detected volatile organic compound 
(VOC). Chloroform, a drinking-water disinfection by-product and a 
commercial solvent, is the most frequently detected VOC.
    Based on our NAWQA findings and interests of other agencies, we 
have undertaken two allied, large-scale studies to further our 
understanding of the occurrence of MTBE and other VOCs. We have 
completed a study in cooperation with the USEPA's Office of Ground 
Water and Drinking Water. For the period 1993-98, we have compiled 
information on the occurrence of MTBE and other VOCs in drinking water 
supplied by Community Water Systems in 12 States in the Northeast and 
Mid-Atlantic Regions of the United States. Parts of these Regions are 
designated Reformulated Gasoline (RFG) Areas and, in general, these RFG 
Areas have used MTBE in gasoline in large amounts for many years. USGS 
obtained the MTBE/VOC data from each State's drinking-water program. We 
then randomly selected about 20 percent of the almost 11,000 Community 
Water Systems in the study area for our analysis. States with MTBE data 
included Connecticut, Maine, Maryland, Massachusetts, New Hampshire, 
New Jersey, New York, Rhode Island, Vermont, and Virginia. Data for 
MTBE were not available for Delaware and Pennsylvania, at the time the 
study was completed.
    At a reporting level of one microgram per liter, about 9 percent of 
the Community Water Systems had detectable MTBE in their drinking 
water; however, most of the detections were low concentrations. Ten 
Community Water Systems had MTBE concentrations that equaled or 
exceeded the lower limit of the USEPA advisory, or about 1 percent of 
all Community Water Systems with MTBE data. We also confirmed that MTBE 
was detected more frequently in RFG Areas than elsewhere in the two 
Regions. Furthermore, larger Community Water Systems located in urban 
centers had a larger incidence of MTBE detections.
    We are also working with the Metropolitan Water District of 
Southern California, and the Oregon Graduate Institute of Science and 
Technology, to complete a study of MTBE, other ether gasoline 
oxygenates, and other VOCs in select reservoirs, rivers, and wells that 
supply Community Water Systems. This study was partly funded through 
the American Water Works Association Research Foundation (AWWARF). We 
are in the final year of this 4-year project.
    For this study, we tested the source water of 954 randomly selected 
Community Water Systems, including 579 wells, 171 rivers, and 204 
reservoirs. Samples were collected in all 50 States and Puerto Rico, 
and varied sizes of systems were included. All sampling for this 
project is completed; however, some of our intended interpretations and 
report writing are not yet completed and peer reviewed. Initial 
findings, which were reported on June 20, 2001, at the Annual 
Conference of the American Water Works Association, were similar to our 
findings noted earlier in this statement. Specifically, when detected 
in source waters, the concentrations of MTBE were almost always below 
the USEPA advisory. However, MTBE was found in about 9 percent of all 
sources sampled (at a reporting level of 0.2 micrograms per liter), and 
it was the second most frequently detected VOC. A larger detection 
frequency of MTBE was found in surface-water sources (14 percent), than 
ground-water sources (5 percent). In general, the detection of MTBE 
increased with increasing size of the Community Water Systems. MTBE was 
detected in about 4 percent of Community Water Systems serving less 
than 10,000 people, and in nearly 15 percent of systems serving greater 
than 50,000 people. Many of the surface-water sources sampled in the 
AWWARF study were large rivers and reservoirs that had recreational 
watercraft usage. Older models of watercraft motors are known to 
release a fraction of non-combusted gasoline to water and this, in 
part, may explain the larger occurrence of MTBE in surface-water 
sources.
    We also conduct research on the fate and transport of MTBE in 
ground water and surface water through the USGS Toxic Substances 
Hydrology Program. In this program, we explore the range of geochemical 
and microbiological processes that determine how MTBE will behave when 
it enters soil, ground water or surface water. This research is 
demonstrating that MTBE does biodegrade under a wide range of 
environmental settings although at slower rates than many of the 
components of traditionally formulated gasoline. These ongoing studies 
have important implications for predicting the future concentrations of 
MTBE in water, where contamination has already occurred. These results 
are also important for the design and selection of remediation plans.
    As part of the Toxic Substances Hydrology Program research, USGS 
scientists have demonstrated that naturally occurring microorganisms 
can biodegrade MTBE in many hydrologic environments, and in some cases, 
to harmless by-products. In some situations, however, biodegradation 
may be incomplete and tert-butyl alcohol (TBA) can be formed. 
Especially noteworthy are the observations that MTBE biodegrades in 
ground water and soil where sufficient oxygen is present and in bed 
sediments of streams, lakes, wetlands, and estuaries where MTBE-
contaminated ground water can ultimately discharge. Essentially, these 
environments can be considered to be natural sinks for MTBE removal. As 
noted earlier, MTBE is expected to degrade slower in ground water than 
gasoline hydrocarbons of traditional gasoline formations. The length of 
time required to complete this removal is currently a topic of ongoing 
investigation.
    The USGS has actively participated in two previous Federal reviews 
of MTBE and other oxygenates in gasoline. A Blue Ribbon Panel was 
appointed by the Administrator of the USEPA to investigate the air-
quality benefits and water-quality concerns associated with oxygenates 
in gasoline, and to provide independent advice and recommendations on 
ways to maintain air quality while protecting water quality. In 1998-
1999, Dr. John Zogorski of the USGS served as a water-quality 
consultant to the Blue Ribbon Panel and three USGS scientists testified 
before the Panel. An important finding of the Blue Ribbon Panel is that 
the major source of MTBE ground-water contamination appears to be 
releases from underground gasoline storage systems. Many of these tanks 
have been removed permanently or upgraded in the 1990s, and thus this 
source is likely to diminish in the coming years. Other major sources 
of water contamination were stated to be from small and large gasoline 
spills and from recreational watercraft, especially those with older 
model 2-cycle motors. USGS has documented low levels of MTBE in urban 
air, urban precipitation, and urban stormwater, and these sources may 
cause low concentrations of MTBE in surface water and ground water. 
MTBE has also been found in spills of home fuel oil in Northeastern 
States.
    During 1995-96, at the request of the USEPA and the Office of 
Science and Technology Policy (OSTP), the USGS co-chaired an 
interagency panel to summarize what was known and unknown about the 
water-quality implications of the production, distribution, storage, 
and use of fuel. Our efforts were published in 1997 as a chapter in a 
report entitled ``Interagency Assessment of Oxygenated Fuels'' prepared 
by the National Science and Technology Council, Committee on 
Environment and Natural Resources. The chapter summarizes the 
scientific literature and data on the sources, occurrences, 
concentrations, behavior, and the fate of fuel oxygenates in ground 
water and surface water. We also discussed the implications for 
drinking water and aquatic life, and made recommendations of 
information needed to better characterize the occurrence of MTBE and 
other oxygenates in the Nation's drinking-water supplies.Furthermore, 
last year, USGS and Oregon Graduate Institute scientists co-authored a 
feature article in the journal Environmental Science and
    Technology, a publication of the American Chemical Society. A 
salient part of the article summarized important information about MTBE 
including: growth in production; solubility, transport and degradation 
in ground water; releases from leaking underground fuel tanks; and the 
effect of select factors, such as aquifer recharge, the presence of low 
permeability stratum, and water utility pumping rates. This information 
helped to determine the likelihood of MTBE reaching community water-
supply wells. Based on available but admittedly incomplete data for 31 
States, the authors determined that about 9,000 community wells may 
have one or more leaking underground storage tanks nearby (i.e., within 
1-km radius of the well). Because detailed information on the community 
wells, storage tanks, and hydrogeology were not available, the authors 
could not determine the number of wells at risk.
    Unfortunately, some of the press coverage of this article 
inaccurately stated that 9,000 drinking-water wells were contaminated 
with MTBE. As stated in the journal publication, not all community 
wells with gasoline releases nearby are at risk because not all 
gasoline releases contain MTBE, and not all MTBE-gasoline releases are 
sufficiently large to pollute a nearby well. Also, many wells draw 
water from the deeper zones of aquifers and many wells are largely 
isolated from land-surface contamination by low permeability stratum, 
technically called aquitards. Based on these factors, data from the 
studies mentioned previously, and a recent survey by others, we would 
estimate that the number of community wells contaminated is far lower 
than 9,000 for 31 States.
    In summary, the USGS has not found widespread, high-level MTBE 
contamination in rivers, reservoirs, and ground water that are actively 
used as the sources for Community Water Systems. Furthermore, we have 
not found such contamination in public wells and domestic wells sampled 
in our NAWQA Program, or in the drinking water of Community Water 
Systems in 10 Northeastern and Mid-Atlantic States. We have, however, 
identified MTBE (and some other VOCs) fairly frequently in ground 
water, source water, and drinking water at concentrations below USEPA's 
advisory. We also conclude that the frequency of detection of MTBE is 
larger in RFG Areas, in comparison to other areas of the Nation. 
Approximately 85 million people reside in RFG areas that use MTBE 
extensively, and drinking water in these areas is provided almost 
equally from surface water and ground water.
    There are multiple strategies for dealing with situations where 
MTBE contamination of ground water has taken place and these should 
include strategies that take maximum advantage of the natural 
attenuation that we observe in our research. Within available 
resources, more research would be helpful to provide guidance on the 
most cost-effective strategies for protecting drinking water sources in 
those areas that have become contaminated.
    I appreciate the opportunity to testify on the results of USGS 
assessments and research on MTBE. I am happy to try to respond to any 
questions of the Subcommittee.

    Mr. Gillmor. Thank you very much.
    We will go to John Stephenson, who is the Director of 
Environmental Issues for the U.S. General Accounting Office.

                 STATEMENT OF JOHN B. STEPHENSON

    Mr. Stephenson. Mr. Chairman, members of the subcommittee, 
I am pleased to be here to discuss the MTBE issue.
    As you know, MTBE is a gasoline additive used primarily in 
areas of poor air quality to help limit air pollution. However, 
there are in increasing numbers reports of MTBE contamination 
in the Nation's water supply.
    Just a few weeks ago a school in Roselawn, Indiana, 
discovered that the children had been drinking water with 
nearly 10 times the EPA recommended safe level of MTBE; and it 
is suspected of causing children's nosebleeds and reported 
health problems in that area.
    Today, I would like to discuss the relationship between 
MTBE contamination and leaks, overflows and spills from 
underground storage tanks primarily at gas stations. EPA, 
working through the States is responsible for preventing such 
releases. However, as we reported last year, many tanks 
continue to leak. These releases contaminate soil and 
groundwater and pose health risks to those who live nearby or 
drink the water. As a result, several communities have had to 
close their drinking water supplies.
    How big is the MTBE problem? Currently--and I apologize for 
the small size of these graphics, but they are in my statement 
for the record--as shown in this chart, 17 States and the 
District of Columbia use gasoline containing MTBE to limit air 
pollution in specific areas. These are those 17 States. 
However, the majority of the 50 States have reported finding 
MTBE at contaminated tank sites and increasingly in 
groundwater, surface water and drinking water, albeit mostly in 
small concentrations.
    These data suggest that many more than these 17 States are 
using gasoline containing MTBE. This is possible because of 
cross-contamination from pipelines and trucks used to deliver 
gasoline across the country or from tanks that formerly 
contained MTBE gas. Also, many States use MTBE in smaller 
quantities as an octane enhancer.
    MTBE's health affects have not been conclusively 
established, as we have heard today, but the risk can range 
from nausea to kidney or liver damage or potentially even 
cancer. Because the research is still inconclusive, EPA has 
chosen not to regulate MTBE but to simply advise people not to 
drink water that contains concentrations in excess of 40 parts 
per billion.
    However, as shown in this next chart, 14 States have gone 
further to partially or completely ban the use of MTBE within 
their borders. Most of these bans do not become effective until 
2003 through 2005.
    In addition, seven States have established their own 
health-based drinking water standards for MTBE. Some States' 
standards, like California and New Hampshire's, are more 
stringent than EPA's 40 parts per billion; and some States 
like, Texas, New Jersey and Massachusetts, are less stringent.
    We believe a large part of the MTBE problem can be 
addressed by eliminating and cleaning up releases from 
underground storage tanks, and States are making good progress 
toward this end. In fiscal year 2001, States reported they had 
completed cleanups of 64 percent of the more than 400,000 known 
releases and had begun some type of cleanup action for another 
26 percent.
    As shown in this chart, States still have a formidable 
cleanup workload. States with more than 5,000 remaining 
cleanups are shown in gray on this chart. In addition, States 
face a potentially large but unknown cleanup workload. These 
include unidentified abandoned tanks and as many as 200,000 
active tanks that pose risk because their leak detection and 
prevention equipment is not being properly operated or 
maintained.
    In addition, most States do not inspect their tanks 
frequently enough, at least once every 3 years according to 
EPA, to conclusively determine how many tanks are still 
leaking.
    Finally, cleanup involving MTBE can be more expensive 
because it leaches faster and farther than other gasoline 
contaminants.
    Generally, the tank owner pays the cost of the cleanup, 
which averaged about $88,000 per site last year. However, in 
cases where ownership cannot be determined or the owner cannot 
pay, the Federal Government and several States operate trust 
funds replenished primarily through gasoline taxes to help pay 
for the cleanups.
    That concludes my statement, and I will be happy to answer 
any questions.
    [The prepared statement of John B. Stephenson follows:]
  Prepared Statement of John B. Stephenson, Director of Environmental 
                Issues, U.S.. General Accounting Office
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss the increasing concern that our nation's waters 
are becoming contaminated with methyl tertiary butyl ether (MTBE). 
About a third of the states, in certain areas, use gasoline that 
contains MTBE to help them limit air pollution because it burns 
cleaner. However, the substance could also pose risks to human health, 
especially as a contaminant in drinking water wells. One of the primary 
ways in which the contaminant has migrated into wells and groundwater 
is from leaking underground tanks used to store gasoline. The 
Environmental Protection Agency (EPA) has the responsibility through 
the Underground Storage Tank Program and working primarily through the 
states to ensure the tanks do not leak, and if they do, that the 
contamination is cleaned up. However, several studies, including our 
own report on EPA's implementation of the tank program,<SUP>1</SUP> 
showed that many tanks have leaked--and continue to leak--hazardous 
substances, such as MTBE and benzene. These leaks, in turn, contaminate 
soil and groundwater, posing health risks to those who live nearby or 
drink the water. Such health risks can range from nausea to kidney or 
liver damage or even cancer. As a result, some communities have closed 
their drinking water wells. A recent news report illustrates the 
problem. A school in Roselawn, Indiana, discovered that the children 
had been using and drinking water with nearly 10 times the EPA-
recommended safe level of MTBE. I understand that an investigation is 
trying to determine whether the MTBE came from a nearby tank and 
whether it is a factor contributing to the children's nosebleeds and 
other reported health problems.
---------------------------------------------------------------------------
    \1\ Environmental Protection: Improved Inspections and Enforcement 
Would Better Ensure the Safety of Underground Storage Tanks (GAO-01-
464, May 4, 2001).
---------------------------------------------------------------------------
    When there is a gasoline overflow, spill, or tank leak--referred to 
as releases--the tank owners and operators are to report the incident 
to EPA if the release is on tribal lands, or otherwise to the state 
agency implementing the tank program, and to initiate cleanup. Most 
releases are not discovered, however, until the tanks are taken out of 
service, when they must be permanently closed to eliminate future 
leaks. To help states cover their program costs, the Congress annually 
provides the states with grants from a trust fund it created in 1986. 
In fiscal year 2001, states each received from $252,000 to $4.5 
million, depending primarily on their cleanup workload, for a total of 
$58.7 million. States can use these resources for, among other things, 
cleaning up releases when the owner or operator is unable or unwilling 
to perform the cleanup, or cannot be identified. The fund is 
replenished primarily through a $.001/gallon federal tax on gasoline 
and other fuels and had a balance of $1.7 billion at the end of fiscal 
year 2001.
    Because of rising concerns about continuing releases and the 
resulting contamination, especially from MTBE, we determined the (1) 
extent to which these releases may contain MTBE, and whether the 
contaminant poses health risks or affects cleanups, (2) progress states 
have made in cleaning up releases, and (3) the party responsible for 
the cleanup costs. In summary, we found the following:

<bullet> A majority of the 50 states have reported finding MTBE when 
        they discover gasoline contamination at their tank sites and, 
        increasingly, in their groundwater, surface water, and drinking 
        water. This widespread contamination occurs, even though 
        currently only certain communities in only about one-third of 
        the states use gasoline with MTBE as a fuel additive. 
        Contamination continues because, among other things, MTBE has 
        been used in the past as an octane enhancer and is currently 
        transported through the same fuel pipes and trucks that deliver 
        gasoline across the country.<SUP>2</SUP> MTBE's health effects 
        have not been conclusively established, but the federal 
        government has determined it to be a potential human 
        carcinogen. Because of the health uncertainties, EPA has not 
        regulated MTBE; instead it has simply advised people not to 
        drink water that contains concentrations in excess of 20 to 40 
        parts per billion. Fourteen states have gone further on their 
        own and partially or completely banned the use of MTBE within 
        their borders or established other regulations on its use. 
        According to a December 2000 report on a survey of state tank 
        program managers sponsored by EPA,<SUP>3</SUP> finding MTBE at 
        a tank site does not typically affect the cleanup method but 
        can increase the time and cost of cleanup because MTBE travels 
        faster and farther than other gasoline contaminants. Several 
        states reported that their cleanup costs doubled as a result of 
        addressing MTBE.
---------------------------------------------------------------------------
    \2\ According to a recent EPA estimate, MTBE is used as an additive 
in about 87 percent of gasoline in the United States.
    \3\ New England Interstate Water Pollution Control Commission, A 
survey of State Experiences with MTBE Contamination at LUST Sites (Dec. 
15, 2000).
---------------------------------------------------------------------------
<bullet> States have made progress in addressing the releases they have 
        discovered, including MTBE contamination, but face a continuing 
        and substantial cleanup workload. States reported to EPA that 
        they have completed cleanups of 64 percent of the more than 
        400,000 identified releases as of the end of fiscal year 2001, 
        and have begun some type of cleanup action for another 26 
        percent. Nevertheless, states still have to both complete these 
        ongoing cleanups and begin cleanups for almost another 40,000 
        releases, or determine that they do not pose enough risk to 
        warrant a cleanup. In addition, states face a potentially 
        large, but unknown, future workload in addressing releases from 
        a number of sources, as we previously reported. These include 
        unidentified abandoned tanks, identified but empty and inactive 
        tanks that have not yet been removed, active tanks that leak 
        because their leak detection and prevention equipment is not 
        being properly operated and maintained, and unreported leaks 
        from tanks in those states that do not inspect them. Some 
        states reported that even their new tanks with the latest leak 
        detection and prevention equipment are leaking, increasing the 
        cleanup workload. A majority of the 13 states that we 
        contacted--those that had cleaned up many releases or had a 
        large backlog left to address--identified the lack of staff to 
        oversee cleanups as a barrier affecting cleanup progress.
<bullet> States typically depend on tank owners or operators to pay 
        some portion of cleanup costs and cover the remainder with 
        their own funding programs. The states depend on the relatively 
        small federal trust fund grants to pay staff to oversee 
        cleanups and administer their programs. States typically do not 
        receive appropriations from their legislatures to cover their 
        cleanup costs but pay for them out of funds supported by state 
        gasoline tax revenues, annual tank fees, or both. In a May 2001 
        survey of state funding programs, by the Vermont Department of 
        Environmental Conservation,<SUP>4</SUP> 36 states reported 
        having adequate funding to cover their current costs while 11 
        reported having more costs to cover than funds available. In 
        addition, 16 states have stopped accepting, or are scheduled to 
        stop accepting, new claims for reimbursements, leaving it up to 
        tank owners to obtain adequate insurance or other means to 
        cover their cleanup liabilities. In the future, some states may 
        seek additional federal support when and if their funding 
        programs end and they turn their attention to addressing the 
        many unidentified abandoned tanks nationwide that have no 
        financially viable owners to pay for cleanup.
---------------------------------------------------------------------------
    \4\ Vermont Department of Environmental Conservation, A Summary of 
State Fund Survey Results (May 2001). The Department conducts this 
survey annually.
---------------------------------------------------------------------------
mtbe has been detected nationwide but the extent of its effect on human 
            health and the cleanup of releases is uncertain
    While the full extent of MTBE contamination is unknown, most states 
reported in the EPA-sponsored survey that they are finding the 
contaminant in groundwater from releases at tank sites, and some are 
beginning to find it in their drinking water sources. The extent to 
which the contaminant poses a health risk is uncertain, however, in 
part because EPA does not yet have the data necessary to determine 
MTBE's health effects. Detecting MTBE from a release typically does not 
influence the type of cleanup method selected, but could increase the 
time and cost of the cleanup, according to a number of states.
Most States Have Found MTBE in Groundwater from Releases at Tank Sites; 
        Fewer Have Found It in Their Drinking Water
    Portions of 17 states and the District of Columbia currently use 
gasoline potentially containing the additive MTBE to limit air 
pollution (see figure 1). However, MTBE is being detected nationwide 
because, among other things, it had been used as an octane enhancer in 
gasoline in the past and because the pipes and trucks used to carry 
gasoline throughout the nation have been cross contaminated with the 
substance.
    Forty-four states reported in the EPA-sponsored survey that they 
sample groundwater at leaking tank sites and test it for MTBE. 
<SUP>5</SUP> Furthermore, 35 states reported that they find MTBE in 
groundwater at least 20 percent of the time they sample for it, and 24 
states said that they find it at least 60 percent of the time.
---------------------------------------------------------------------------
    \5\ Washington reported that it planned to add such testing by 
2001.
---------------------------------------------------------------------------
    States are not only finding MTBE at tank sites with reported 
releases--half of the states reported finding it at tank sites even 
when there was no documented release, although they did not know the 
number of these cases. About half of the states also reported finding 
MTBE that they could not attribute to a leaking tank and suspected that 
it came from other sources, such as above-ground tanks used to store 
fuel.
    The extent of MTBE contamination may be understated because some 
tank releases go undetected and because only 19 states said that they 
are taking any extra steps to make sure that MTBE is not migrating 
further from a tank site than other contaminants when a release has 
been detected. MTBE is less likely to cling to soil than other gasoline 
components and dissolves more easily in water, allowing it to travel 
faster, farther, and sometimes deeper. Therefore, parties might have to 
use more test wells around a leaking tank to determine if and where 
MTBE is present. If states do not conduct the extra tests, they may not 
detect the MTBE.
    Some of the states that have identified MTBE contamination have 
also found that it reached drinking water sources. More states may not 
have reported finding MTBE in part because only 24 states in the EPA-
sponsored survey said that their drinking water program offices 
routinely analyzed drinking water sources for MTBE, while another 24 
said that their offices were not conducting these analyses. Although a 
number of states were not sure how many public or private drinking 
water wells had been contaminated by MTBE, 11 states said that at least 
10 public wells had been contaminated at the time of the survey, and 15 
states reported that 10 private wells had been closed. The Maryland 
Department of the Environment reported that MTBE was found in low 
concentrations in about 100 of more than 1,200 water systems tested. In 
contrast, some communities in California, Kansas, and Maine have had 
more extensive problems with contaminated groundwater. For example, 
Santa Monica, California, closed seven wells supplying 50 percent of 
the city's water.
    At the national level, the U.S. Geologic Survey (USGS) and EPA have 
conducted some water-monitoring efforts, but have yet to find high 
concentrations of MTBE in many drinking water sources. According to a 
USGS study, MTBE was detected in generally lower concentrations in 14 
percent of surface water sources.<SUP>6</SUP> Another USGS study points 
out, however, that it was 10 times more likely to find MTBE in areas 
that use it as a fuel additive to reduce pollution.<SUP>7</SUP> A third 
USGS study, done in cooperation with EPA and issued in 2001, examined 
monitoring data from over 2,000 randomly selected community water 
systems in the northeast and mid-Atlantic regions and reported that 
MTBE was detected in about 9 percent of the systems that analyzed 
samples for MTBE.<SUP>8</SUP> Finally, EPA has completed the first year 
of a 3-year effort--under the recently implemented Unregulated 
Contaminant Monitoring Rule--to have all large water systems (serving 
populations of 10,000 or more), as well as selected small public water 
systems (serving populations of 3,000 or less), test their water for 
MTBE. Of the one-third of the systems required to test in the first 
year, 1 of 131 large systems and 3 of the 283 small systems detected 
the substance.
---------------------------------------------------------------------------
    \6\ National Survey of MTBE, Other Ether Oxygenates, and Other VOCs 
in Community Drinking Water Sources, U.S. Geological Survey (Open-File 
Report 01-399, 2001).
    \7\ Contaminants of Drinking Water Sources in 2001: Recent Findings 
of the U.S. Geological Survey, U.S. Geological Survey (Open-File Report 
00-510, 2001).
    \8\ Occurrence and Distribution of Methyl tert-Butyl Ether and 
Other Volatile Organic Compounds in Drinking Water in the Northeast and 
Mid-Atlantic Regions of the United States, 1993-98, U.S. Geological 
Survey (Water Resources Investigations Report 00-4228, 2001).
---------------------------------------------------------------------------
Reviews on the Extent that MTBE in Drinking Water Poses Health Risks 
        Are Still Pending
    An interagency assessment of potential health risks associated with 
fuel additives to gasoline, primarily MTBE, concluded that while 
available data did not fully determine risks, MTBE should be regarded 
as a potential carcinogenic risk to humans.<SUP>9</SUP> However, the 
extent that MTBE may be present in high concentrations in drinking 
water and jeopardizing public health is unknown. Because MTBE has a bad 
taste and odor at relatively low concentrations, people may not be able 
to tolerate drinking contaminated water in large enough quantities to 
pose a health risk. On the other hand, some people may become 
desensitized to the taste and smell and could end up drinking MTBE for 
years in their well water, according to the EPA program manager.
---------------------------------------------------------------------------
    \9\ National Sciences and Technology Council, Committee on 
Environment and Natural Resources, Interagency Assessment of Potential 
Health Risks Associated with Oxygenated Gasoline (Feb. 1996).
---------------------------------------------------------------------------
    EPA has efforts underway to fill in some of the data gaps on the 
health effects of MTBE and its occurrence in drinking water supplies. 
Additional research and water quality monitoring must be concluded 
before EPA can determine whether a water quality standard--an 
enforceable limit on the concentration of MTBE allowed in drinking 
water--is warranted. EPA has issued an advisory suggesting that 
drinking water should not contain MTBE in concentrations greater than 
20 to 40 parts per billion, based on taste and odor concerns. EPA is 
considering taking further steps to regulate MTBE, but notes that to 
establish a federally enforceable standard could take about 10 
years.While the potential health risks of MTBE are uncertain, 14 
states--9 of which are not required to use a fuel additive to limit air 
pollution in certain areas--have partially or completely banned the use 
of MTBE within their boundaries (see figure 2).
    In addition, seven states reported in the December 2000 EPA-
sponsored survey that they had established their own health-based 
primary drinking water standard for MTBE, as shown in figure 3. Six of 
these states currently use fuel additives to limit air pollution and 
the seventh state voluntarily used such additives until 1999.
    Another five states reported establishing a secondary standard to 
limit the allowable amount of MTBE in drinking water. These standards 
vary considerably, however, with concentrations ranging from 5 to 70 
parts per billion.
Discovery of MTBE Does Not Drive the Cleanup Methods Implemented, but 
        Could Increase the Cleanup's Duration and Cost
    According to the EPA-sponsored survey, 37 states said that finding 
gasoline, or its components of concern, <SUP>10</SUP> in soil or 
groundwater at a tank site is the primary driver of cleanup activities, 
not the presence of MTBE. In other words, the methods used to clean up 
gasoline can also be used to address MTBE contamination. These proven 
cleanup technologies include pumping and treating groundwater at its 
source, treating the water at its point of use by running it through a 
filter, or using a process known as air sparging (injecting air into 
the contaminated area to volatilize and extract MTBE). Letting the 
contaminant naturally break down over time--known as natural 
attenuation--may not be as effective as with other components of 
gasoline because MTBE persists longer in soil and groundwater.
---------------------------------------------------------------------------
    \10\ Some of the components of concern in gasoline include benzene, 
toluene, ethylbenzene, and xylene
---------------------------------------------------------------------------
    However, addressing MTBE could add time and costs to cleanups. 
According to the EPA-sponsored survey, 16 states reported cost 
increases as a result of MTBE cleanup, most less than 20 percent; 5 
states reported that their costs had doubled. States spent, on average, 
about $88,000 addressing releases at each tank site in fiscal year 
2001. Nineteen states indicated that it could cost more to test for 
MTBE because they take additional steps to ensure that this contaminant 
is not migrating beyond other contaminants in a release. Several states 
reported that their laboratories charged $10 to $50 more per sample to 
analyze for MTBE. In addition, many of the 16 states that cited higher 
cleanup costs for MTBE attributed these increases to such factors as 
longer plumes and increased cleanup time. Finally, the discovery of 
MTBE can increase costs because filters used to remove MTBE from water 
have to be changed more frequently.
states have made progress in cleaning up tank releases, but still face 
                  a potentially large cleanup workload
    States reported to EPA that as of the end of 2001, they had 
completed cleanups of 64 percent (267,969) of the 416,702 known 
releases at tank sites and had begun some type of cleanup action for 
another 26 percent (109,486), as figure 4 illustrates.
    Because states typically set priorities for their cleanups by first 
addressing those releases that pose the most risk, states may have 
already begun to clean up some of the worst releases to date. However, 
EPA tank program managers cautioned that some of the many cleanups that 
are underway may still be in their early stages because states have 
varying criteria for ``underway.'' For example, California reports a 
cleanup is underway as soon as a release is reported, even if no work 
has begun. In addition, states still have to address the remaining 
39,247 known releases (9 percent) where cleanup is not underway by 
either ensuring it has begun or is not needed because the releases do 
not pose a risk. Figure 5 illustrates the remaining cleanup workload 
for known releases in each state and the District of Columbia.
    As the figure shows, while states have made progress, seven states 
still have more than 5,000 releases that they have not fully addressed. 
Most of the 13 states we contacted cited a lack of staff as a barrier 
to achieving more cleanups. For example, the May 2001 Vermont survey of 
state funding programs indicated that, on average across the states, 
each staff person was responsible for overseeing about 130 tank sites 
during that year.
    In addition to this known workload, states most likely will 
continue to face a potentially large but unknown future cleanup 
workload for a number of reasons:

<bullet> In a June 2000 report to the Congress, EPA estimated that as 
        many as 200,000 tanks nationwide may be unregistered, 
        abandoned, or both, and have not been assessed for 
        leaks.<SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ Report to Congress on a Compliance Plan for the Underground 
Storage Tank Program, U.S. Environmental Protection Agency (EPA 510-R-
00-001, June 2000).
---------------------------------------------------------------------------
<bullet> Furthermore, even though many owners chose to close their 
        tanks rather than upgrade them with leak detection and 
        prevention equipment as federally required, tens of thousands 
        of tanks nationwide are still empty and inactive, and have not 
        been permanently closed, as we previously reported. 
        Consequently, any leaks from these tanks may not have been 
        identified.
<bullet> We also reported that an estimated 200,000 or more active 
        tanks were not being properly operated or maintained, 
        increasing the chance of a spill or leak. For example, 15 
        states reported that leak detection equipment was frequently 
        turned off or improperly maintained.
<bullet> In addition, we reported that many states do not inspect their 
        tanks frequently enough to ensure that they are not leaking and 
        that known releases are reported. Only 19 states were 
        physically inspecting all of their tanks at least once every 3 
        years--the minimum EPA considers necessary for effective tank 
        monitoring. In addition, 22 states were not inspecting all of 
        their tanks on any regular basis.
<bullet> While the number of leaks should decrease in the future--
        because all new of active tanks should have leak detection and 
        prevention equipment--we previously reported that 14 states 
        traced newly discovered leaks to upgraded tanks and 20 states 
        did not know whether their upgraded tanks leaked.
<bullet> Finally, 10 states reported in the EPA-sponsored survey that 
        they had reopened a small number of completed cleanups because 
        MTBE had been subsequently detected. If more states follow 
        suit, the future cleanup workload will increase, although the 
        size of this workload is unknown. In addition, states may be 
        responsible for the costs of these reopened cleanups because 
        tank owners and operators are not required to maintain 
        financial responsibility for tanks that were properly cleaned 
        up or closed.
   states rely on their own programs and private parties to pay for 
 cleanups, but may require federal funding to accelerate cleanups and 
                        address abandoned tanks
    States have relied primarily on their own funding programs and 
private parties to pay for cleanups, using the relatively small federal 
trust fund grants they receive for staff, program administration, and 
to a lesser extent, cleanups. States' reliance on private and federal 
funding could increase in the future if they end their funding programs 
and begin to address the problem of abandoned tanks with no financially 
viable owner.
State Funding Programs and Private Parties Have Paid for Most Cleanups
    In creating the Underground Storage Tank program, the Congress 
expected tank owners and operators to take financial responsibility for 
cleaning up contamination from their tanks, correcting environmental 
damage, and compensating third parties for any injuries. Tank owners 
and operators were to demonstrate that they had the financial resources 
to cover potential cleanup liabilities. Initially, private insurers 
were hesitant to take on the risks of providing liability coverage to 
owners and operators of underground storage tank systems, so many 
states created their own financial assurance funds. These state funds 
could be used to cover the financial responsibilities of owners and 
operators for site cleanup as long as long as the state funds met the 
federal financial responsibility requirements. Forty-seven states 
established such programs most often from a gasoline tax, an annual 
tank fee, or both, rather than state appropriations. The remaining 
three states relied on owners and operators to locate suitable 
insurance, now more readily available, or other financial resources. 
Under many state programs, owners or operators pay for the cleanup and 
seek reimbursement for a portion of the cleanup costs from the state. 
Six of the 13 states we contacted cap the amount of reimbursements and 
expect tank owners and operators to be financially liable for the 
remaining costs.
    In the May 2001 Vermont survey of state funding programs, states 
reported spending a cumulative $6.2 billion from their funds since 
their programs began (13 states did not report their costs). The amount 
of private funds spent on cleanups is unknown. At the time of the 
survey, 36 states reported having adequate funding to cover their 
current costs, but 11 other states said that they were about $625 
million short of the funds necessary to cover known claims. Program 
managers in five of the 13 states we contacted said that their state 
funds were stable. In addition, nine states reported that eligibility 
for their programs had ended <SUP>12</SUP>--meaning they would no 
longer accept any reimbursement claims for new releases--and another 
seven states expected eligibility to end by 2026. Furthermore, the 
program fees used to replenish state programs had expired in 1 state 
and were expected to expire in another 12 states within the next 
decade. As a result of these provisions, tank owners and operators 
would be responsible for cleanup costs with no state funding support.
---------------------------------------------------------------------------
    \12\ In Maine, fund eligibility expired only for ``non-conforming'' 
tanks--those which had not been upgraded with leak detection and 
prevention equipment.
---------------------------------------------------------------------------
States Have Used Federal Funds Primarily for Cleanup Oversight
    States have been using federal grants from the Leaking Underground 
Storage Tank Trust Fund primarily to pay for staff to oversee cleanups 
and pursue owners and operators so that they clean up their sites, 
according to the EPA program manager. States cannot use these federal 
funds to clean up releases when an owner or operator can pay. States 
spent $662.5 million in federal trust fund dollars from fiscal year 
1987 through fiscal year 2001, roughly 10 percent of the expenditures 
from states' funds during the same period. States used $19.5 million, 
or 36 percent, of the $58.7 million they received in fiscal year 2001 
grants on cleanup (see figure 6).
    Of the 13 states we contacted, 7 said that their programs rely on 
the federal grants. On the other hand, for example, a program manager 
in Florida said that the state's program does not depend on federal 
grants because it is a small amount of money compared with the amount 
coming from the state fund. Some states use their federal funds for 
staffing costs. However, a Maryland program official pointed out that 
the size of the annual federal grants to states has not kept pace with 
the salary and other costs they must cover for staff. An Indiana 
program official attributed a backlog of 4,000 cleanups at one point in 
the state's program to a lack of federal funding that could be used to 
pay for additional staff. States may be using their federal trust fund 
grants to pay for staff because the use of these funds is more 
restrictive than the state funds, which can be used to reimburse tank 
owners for their cleanup costs, among other things.
    Six states have used an additional funding source that receives 
federal support to cover some cleanup costs, namely, their Clean Water 
State Revolving Funds. States get federal seed money to initiate and 
maintain this type of fund. Eligible parties can apply for loans under 
the fund and have used them to cover a variety of leak prevention and 
cleanup projects. According to the EPA, the six states using this 
vehicle have made a total of $84 million in loans for tank cleanups 
through June 2000. Program managers in 9 of the 13 states we contacted 
said that they did not expect to use their revolving loan fund for tank 
cleanups.
Some States May Seek More Federal Support for Cleanups in the Future
    In addition to the federal grants and loan funds, some states may 
look to the federal government in the future to help them clean up 
those abandoned tanks that pose health risks when financially viable 
parties cannot be identified to pay for cleanups. States admit that 
they do not often identify releases until they are closing or removing 
tanks, meaning that EPA and the states might inadvertently be 
underestimating the risks and cleanup workload that abandoned tanks 
pose.
    States may seek additional federal assistance to address abandoned 
tanks if state funding programs expire or are depleted. As of January 
2002, states can access one new source of federal funding for abandoned 
tanks, made possible by the Small Business Liability Relief and 
Brownfields Revitalization Act. Under the act, the Congress authorized 
up to $50 million annually to clean up properties that may be 
contaminated by a petroleum release, including abandoned tanks.
                         scope and methodology
    To respond to your questions, we primarily analyzed data (1) that 
states reported to EPA on the status of tank releases, (2) from the 
December 2000 report on the EPA-sponsored survey of state tank 
programs, and (3) from the May 2001 Vermont survey of state cleanup 
funding programs. In addition, we contacted 13 state tank program 
managers to discuss their cleanup workload, their concerns with MTBE, 
and their approach for funding cleanups. We selected these states 
because they had addressed the largest number of releases, had the 
largest backlog, or both. We also met with EPA tank program managers to 
discuss cleanup efforts. We performed our work from April to May 2002 
in accordance with generally accepted government auditing standards.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any question you or Members of the Committee may have.
[GRAPHIC] [TIFF OMITTED] T0670.002

[GRAPHIC] [TIFF OMITTED] T0670.003

[GRAPHIC] [TIFF OMITTED] T0670.004

    Mr. Gillmor. Mr. Stephenson, let me follow up on one 
question regarding the leaching qualities of MTBE. Compared to 
other substances, how fast, how far would it go into the 
groundwater?
    Mr. Stephenson. I don't know the specifics. My 
understanding is that it leaches very fast in soil. Therefore, 
it reaches groundwater more readily than, say, benzene or other 
contaminants in gasoline.
    Mr. Gillmor. Can you give us a ballpark figure? Take your 
typical tank with a leak, what kind of area are we talking 
about that we are going to find MTBE? And I am going to direct 
that open-ended question to anybody.
    Mr. Stephenson. I don't have a specific answer on that.
    Mr. Gillmor. Are we talking a football field? Badminton 
court?
    Mr. Miller. That depends upon the amount of fuel leaked and 
the geohydrology. It varies all over.
    Mr. Gillmor. When you get to cleanup, what is necessary 
physically to necessitate what you would consider a cleanup? 
How much dirt are you going to have to move? What are you going 
to have to do?
    Mr. Stephenson. My understanding is that you actually 
aerate the soil and hope that most of the MTBE will evaporate. 
Again, that depends on the size of the area of contamination 
that you have to clean up as to how long that takes and how 
expensive that becomes.
    Mr. Gillmor. Mr. Grumbles, we heard testimony here and in 
the past to what extent MTBE is a health issue and to what 
extent it is a taste and odor issue. How would you answer that 
question? Is it both?
    Mr. Grumbles. Mr. Chairman, I think it has the potential to 
be both. Our preliminary recommendations in 1997 in the 
consumer advisory was that levels of MTBE that were unlikely to 
cause taste or odor problems would be less than 20 parts per 
billion. They were also likely to be safe from a public health 
standpoint.
    EPA is continuing to research health issues associated with 
MTBE. We hope to have more definitive information on that in 
draft form in the coming months and in final health assessment 
report next year.
    But I think the answer is that, clearly, there are taste 
and odor problems, and there may very well be health problems, 
but it depends on what the level is.
    Mr. Gillmor. Based on your statement which the benchmark 
was 20 parts per billion, although that is not scientifically 
established but kind of a figure that is being used, if we take 
the fact that most sites are found to be 5 parts per billion or 
less, that hopefully would help us confine the problem to fewer 
areas. Do we have any idea of all the sites that are out there, 
which there are over 400,000 of them, how many of them would be 
in the 20 parts per billion or above?
    Mr. Grumbles. My sense is that it is a very small number, 
at least based upon our current findings and data.
    I know also, and Mr. Miller may have some data as well, 
basically what we have been finding is that those instances 
where there is MTBE it is generally below the 20 parts per 
billion.
    Mr. Miller. Mr. Chairman, the estimate is perhaps 1 percent 
of those sites might fit that category.
    Mr. Gillmor. That is very helpful. Thank you.
    Mr. Grumbles, the Leaking Underground Storage Tank 
regulations became effective in 1998. In your opinion, have 
those regulations helped in addressing concerns about MTBE 
contamination?
    I would also ask the other members of the panel if they 
have a view on that.
    Mr. Grumbles. From the perspective of cleaning up the 
problem, it has helped. The underground storage tank program 
which has been in place since 1988 has also helped. EPA has 
given States about $800 million in Leaking Underground Storage 
Trust Fund funding to help in terms of State assessment and 
cleanup for petroleum contamination, including MTBE releases. 
Since 1988, EPA has provided over $230 million to States in 
LUST funding.
    Also, through the authorities under that program, EPA has 
been funding some MTBE pilot programs in various places 
throughout the country; and through that program and statutory 
authorities as well, it has been providing some technical 
support such as to South Lake Tahoe.
    My figures, Mr. Chairman, indicate that, through the 
funding, States together with EPA have cleaned up about 370,000 
petroleum releases, averaging about 19,000 cleanups a year 
since 1988. Some of these cleanups have clearly helped to 
address the MTBE contamination, but we do not have data at this 
point on exactly how many.
    Mr. Gillmor. My time has expired.
    I recognize the ranking member, Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    This question is to Mr. Grumbles. A number of States have 
established drinking water guidelines and action levels for 
MTBE. I know that EPA has established a drinking water advisory 
and a monitoring rule that does not have an enforceable health-
based standard.
    You said in your testimony, Mr. Grumbles, that you are 
committed to making a decision as to whether or not health-
based regulations for MTBE is appropriate, and you say you plan 
to issue a final health assessment next spring, which I guess 
would be a year from now. It seems to me, though, that you are 
kind of moving slowly, given the action that some of the States 
have taken, almost as if the States see this as a lot more 
serious in terms of the health impact than you do. I wonder why 
is that the case, or am I missing something?
    Mr. Grumbles. I think you are missing something, 
Congressman.
    Mr. Pallone. I know that you say you are going to get to it 
by next year. That seems like a long time. What information 
does EPA feel it needs to establish a standard? Why the wait?
    Mr. Grumbles. I appreciate the opportunity to elaborate on 
that. It is not that you are missing something, but EPA has 
been taking a multi-statutory, multi-media, combined effort to 
look at MTBE problems.
    I work in the Office of Water, and one focus that we have 
in the Office of Water is on Safe Drinking Water Act 
authorities and focusing in on risk assessments and whether or 
not to establish a primary or secondary standard MCL for MTBE.
    One of the things that we are doing is working closely with 
the Office of Research and Development on this risk assessment. 
I know that they have been working to try to get the right data 
to make sure that this is a scientifically sound decision in 
terms of the health assessment.
    Mr. Pallone. What is the information that is lacking that 
is going to take a year?
    Mr. Grumbles. One of the things that is lacking is 
gathering data from all areas across the country and also 
translating that into relevant end points as to what is the 
right type of health standard.
    Mr. Pallone. Going back to what I said in the beginning, 
the States are having these guidelines and action levels, but 
you are telling us you don't feel that there is really a 
problem or that there may not be a problem and you need another 
year before you come out with some kind of health assessment. 
It seems to me that there is a difference there between these 
State guidelines, which obviously concern people, versus your 
statement today. I know you do not think that it is 
inconsistent, but why is it that the States seem to be more 
concerned about this at this point?
    Mr. Grumbles. I don't know that the States seem to be more 
concerned. I know that some of the States have taken very 
specific actions in terms of phaseouts or established health-
based standards or parts per billion regulatory requirements.
    What I would try to communicate is, while EPA is going 
through the data to make sure that it is a risk-based approach 
to the most pressing problems and whether or not there should 
be a secondary standard or a primary standard in addition to 
the consumer advisory we have established, the Office of Air 
and Radiation is looking specifically at the authorities under 
TSCA in terms of the phaseout and whether or not that is 
appropriate.
    One of the things that I want to convey is, under the 
statutory framework of the Safe Drinking Water Act, one of the 
things that is important to EPA is to gather through the 
unregulated monitoring rule the data from the large public 
water supply systems from throughout the country to try to get 
a better picture.
    Mr. Pallone. Shouldn't we be requiring monitoring of all 
drinking water systems, especially those that rely on limited 
groundwater sources?
    Mr. Grumbles. I would say that it would probably be 
prudent. I don't know if it would require a Federal mandate, 
but it would be prudent for any public water supply system to 
be looking for contaminants in the groundwater or surface water 
or source water that they use for drinking water purposes.
    I think the basic principle where we start from is based on 
all of the debate regarding the Safe Drinking Water Act over 
the years, particularly the 1996 amendments, is to make sure 
that when we do impose a monitoring requirement or a regulatory 
provision that it is very clear that it is the best use of 
everyone's resources and from a risk-based standpoint it is a 
targeted good effort to get at particular contaminants.
    Mr. Pallone. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Gillmor. The gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. A couple of quick 
questions. In December 1997 the EPA issued a drinking water 
advisory for MTBE. The question I had, based upon responses to 
other questions, is how long did that advisory--how long did it 
take you to get to the point in 1997 where you made an advisory 
for MTBE?
    The reason I am asking that question is now we are 5 years 
after that. We are still asking questions. And the response, 
Mr. Grumbles, is, well, next year we are going to issue another 
finding based upon this. Regardless of who is in charge of the 
administration, we get constantly frustrated by saying, well, 
when are we going to make a decision? What is the time line?
    So there must have been 5 years prior to 1997 that you 
probably researched it to say we are going to do this advisory. 
I may not be right. But maybe it took 5 years to develop that 
advisory. That is the question. How long did it take? Now we 
are 5 years after.
    Because we are talking about 40 parts per billion. That is 
what you all recommend. And then out of the conversations we 
hear 20 parts per billion. No wonder we are kind of confused as 
to what is safe and what is not safe. And that is a very 
scattered array of buckshot that I just fired at you. So you 
pick which little piece of shot you want to respond to, and 
please do.
    Mr. Grumbles. Well, thank you, Congressman. In terms of the 
up-front analysis process and how long it took before EPA 
provided the 1997 consumer advisory, I don't know exactly 
whether it was 2 years or a couple of years. It was a couple of 
years. Part of that was based on, in part, waiting to get some 
data, such as from USGS in 1995, some monitoring USGS was 
doing.
    We were also working in terms of a blue ribbon panel to 
also get their views and their recommendations. But I believe 
that it was a couple of years before we finalized that consumer 
advisory.
    Mr. Shimkus. You understand the concern we have?
    Mr. Grumbles. I do understand that.
    Mr. Shimkus. That would be helpful for us to at least get 
to a point, because we do also know that MTBE is proven to 
cause cancer in animals at extremely high doses; is that 
correct? Like rats or animals?
    Mr. Grumbles. I have to say that from my own personal 
knowledge, I am not sure of the precise way to answer that 
question. I know from the data that I have had in preparations 
for the hearing that there have been some studies that have 
shown that at certain levels in laboratory animals there has 
been some cancer-causing affects.
    Mr. Shimkus. I think that is correct. Our concern will be 
what is the effect of MTBE on humans at low doses? I think that 
is what this debate is.
    Mr. Grumbles. Congressman, one of the reasons why we are 
working, and it is going to take more time before we issue the 
report on the health assessment, is the whole issue of dealing 
with the fact that there is already inhalation data, but there 
isn't much data in terms of ingestion of MTBE. So one of the 
areas, the gaps that we are trying to fill that is taking some 
time is to be able to translate and to extract data.
    Mr. Shimkus. I am glad you mentioned that. Inhalation would 
mean breathing it in, correct? Which would not concern us on 
the LUST issue, would it, the underground storage tank issue 
unless you are a mole? We have moles in Illinois, a lot of 
them.
    But the only follow-up is there are other ways for MTBE to 
enter into the atmosphere than just underground storage 
systems.
    I am a guy now. I have got my chain saw. If I make the 
mistake of not getting gas that has 10 percent ethanol, I never 
hardly make that mistake, but if I am in a hurry and I 
unfortunately get some that is using MTBE as the oxygenate, and 
I overspill my little chain saw, that, in essence, could seep 
and be a contaminate if it runs down into the system. Or jet 
skis. I mean Lake Michigan for boaters. There is a lot of ways 
other than the underground storage tanks in which MTBE can 
enter into the environment?
    Mr. Grumbles. As my colleagues would point out, there are 
other sources beyond underground storage tanks for MTBE 
releases.
    Mr. Shimkus. I yield back my time. Thank you.
    Mr. Gillmor. We will go to a second round. I beg your 
pardon. Snuck back in on me. The gentlelady from California, 
Mrs. Capps.
    Mrs. Capps. Thank you, Mr. Chairman. And thank you for your 
testimony, each of you. I have a couple of topics, so if I 
could address the first the one to you, Mr. Grumbles, and ask 
you about the LUST trust fund.
    I understand that the surplus in this fund is expected to 
grow to over $2 billion by the end of fiscal year 2002. There 
is a surplus almost of $2 billion right now, and it keeps 
climbing. And so my question to the administration is: With the 
evidence that has been described today, why did this 
administration's budget cut the LUST funding by $68,700?
    Mr. Grumbles. Congresswoman, I appreciate very much your 
strong interest in this issue. I would have to say at the 
outset I am not--I am really not the best person to be able to 
respond to the question, partly because of the responsibilities 
in terms of EPA, where Assistant Administrator Marianne Horinko 
is the one who works most on the LUST fund. But I would just 
want to say that in the overall context of putting together the 
budget request, as I have observed, there has been some fairly 
standard requests in terms of the LUST program over the years.
    I am not the best person to be able to explain exactly what 
the dollar amount was and why it was chosen. I can certainly, 
and I will, relay your question and your concerns about the 
funding level in the President's budget request.
    Mrs. Capps. Mr. Chairman, I would like to follow up with a 
request that we have this information for our committee as part 
of our decisionmaking process, because, you know, the budget 
request is less than half of the interest this trust fund is 
going to earn this year. At the same time we have a huge 
backlog of contaminated sites, and I would assume that for 
whatever purposes, if it is even to assess the situation 
further, that we need access to this funding because safe 
drinking water is something we want our citizens to be 
absolutely confident of.
    People are saying they don't know the extent of the risk. 
We know it smells bad and it tastes bad. But that is bad 
enough. But if it is really dangerous and we have young 
children drinking it, what is going to be the effect on their 
overall lifespan and what kind of problems are we running into? 
This is something we should be addressing with every bit of 
urgency. So I was assuming that we would have someone here who 
could tell us why there was a cut in the funding for something 
that we need to bring attention to.
    Mr. Grumbles. We certainly do recognize that MTBE 
contamination, or any kind of groundwater contamination or 
surface water contamination, does present a significant 
problem. It can present a public health problem. It clearly 
presents a problem to the utilities that may have to go with 
alternative water supplies. There are various mechanisms, 
authorities under the Federal environmental statutes beyond 
just the LUST fund that may offer some assistance for utilities 
or for States.
    Mrs. Capps. Well, I know there are several lawsuits going 
on. But to me, if we have a fund that people are paying into 
from their gasoline costs, every time you fill up your tank you 
are paying into this fund for the direct purpose of remediating 
a situation just like we have before us, it would seem to me to 
be common sense to put those moneys to use.
    If the tanks are leaking, who knows what else they are 
leaking, if we can clearly tell that they are leaking. But I 
want to talk about one other issue. I don't want to pick on you 
the whole time either.
    Mr. Grumbles. Thank you.
    Mrs. Capps. But I want to make sure that somehow we get the 
information about how comprehensive this problem is, what is 
the extent of it. And we need some comprehensive assessments. 
And, again, if we are talking about drinking water, and here I 
am from a State where we have asked for a waiver from MTBE. We 
can purify our gasoline to meet the air requirements without 
either ethanol or MTBE, and yet we have been denied a waiver 
because MTBE is the solution that the U.S. Government has set 
forth. And yet we have hundreds and thousands of problems 
arising because of it. I think it is time for us to address 
this with all due haste, and I am wondering what efforts there 
are in our government agencies to provide the comprehensive 
assessment of the extent of this problem.
    Mr. Miller, if you would.
    Mr. Miller. The study that I mentioned earlier, 
Congresswoman, that we are collaborating with the American 
Water Works Association and the Metropolitan Water District of 
Southern California, that is a random statistical sample, 
includes almost a thousand community water systems across the 
country, and it is both groundwater and surface water. That 
will provide at least a statistical portrayal of the community 
water systems, large and small, in terms of what we find in 
MTBE presence.
    Mrs. Capps. Can you get me an estimate of when that study 
will be completed?
    Mr. Miller. By the end of this year. It is a 4-year study. 
We are almost complete now.
    Mrs. Capps. Excellent. Any other studies going on that you 
wish to comment on?
    Mr. Stephenson. I would just suggest that we recommended 
last year opening up the trust fund to not only more rapid 
cleanups, but greater inspections. We are concerned that while 
there is 400,000 reported releases, that there may be many more 
out there because the States don't inspect their tanks often 
enough to find such leaks, and even the requirements of putting 
on equipment to monitor leaks and detect for leaks, if that 
equipment isn't working properly, as we reported, that is a 
potential for active tanks to continue to leak. And we 
estimated there may be up to 200,000 of those. So that is where 
we were last year. That is where we are this year.
    Mrs. Capps. Thank you. Mr. Chairman, I know that I have 
used my time. But if I can just make one statement, that I 
really feel it is reprehensible that we have a huge surplus of 
taxpayers' money, of people contributing when they buy their 
gasoline, setting aside some of that funding to be used for 
mitigation of problems just as we are addressing today, and 
that we are salting that money away and we clearly have a 
problem that we should be doing something about. I think this 
committee needs to act on this.
    Thank you. I yield back.
    Mr. Gillmor. The gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman. And let me first ask 
all three panelists. Mrs. Capps brings up a good point about 
the amount of contamination, and it seems like from the 
testimony the average detection is less than 1 part per billion 
nationwide. Could each of you comment on that? Is that 
statement correct, that the tests done nationwide, the average 
is less than 1 part per billion.
    Mr. Grumbles. Yes, sir.
    Mr. Green. That is something that all three panelists agree 
on. California has a standard of more than 5 parts per billion. 
Is that correct?
    Mr. Stephenson. I believe it is 13 parts.
    Mr. Grumbles. 13 for the primary and 5 parts per billion 
for the secondary standard.
    Mr. Green. But the EPA standard is 20 to 40 parts per 
billion?
    Mr. Grumbles. It is not a standard technically. It is an 
advisory level.
    Mr. Green. The advisory then is 20 to 40 parts per billion. 
So well above, 40 times what the average has been found in the 
studies; is that correct? If 1 part per billion has been found 
average and the EPA advisory is 20 to 40, so at least 20 times 
is the EPA advisory?
    Mr. Grumbles. Based on what we know right now, the 20 to 40 
parts per billion guidance seems to be protective and 
responsive to the concerns about odor and taste.
    Mr. Green. Okay. So below that the odor and taste is not 
detectable?
    Mr. Grumbles. It is not that it is not detectable, it does 
not present a problem.
    Mr. Green. Okay. Let me ask another general question. And I 
know each of you, although the GAO, it seems like in other 
panels that we have had in our committee for a number of years, 
the ban on MTBE, if it was nationwide, and the suggestion by my 
colleagues, the effect on the gasoline supply, and I have--
again through testimony, and would it affect about 5 percent of 
our gasoline supplies? Or do you have any idea from the GAO 
studies or EPA?
    Mr. Stephenson. I think that reformulated gas is in about 
30 percent of all of the gas, and MTBE is the predominant 
oxygenator in that 30 percent.
    Mr. Green. So it could be even more than 5 percent of the 
gasoline that we use in our country?
    Mr. Stephenson. Probably, if my math is correct.
    Mr. Green. I know. My wife is an algebra teacher, but I am 
not. That is why I serve on this committee and not 
appropriations. So it is well above 5 percent.
    Mr. Stephenson, let me ask you, because in your testimony, 
and in your oral testimony you skipped over a part that I 
wanted to go back and point out, because in the discussion from 
some of my colleagues about MTBE being a carcinogen, in your 
written testimony, and in the middle of the first paragraph, 
EPA's implementation of the tanks program showed that many 
tanks have leaked and continue to leak hazardous substances 
such as MTBE and benzene. These leaks in turn contaminate soil 
and are imposing health risks. Such health risks include 
nausea, kidney, liver damage, and even cancer.
    In your oral testimony you left out benzene. That is my 
point. Benzene, toluene, xylene, everything else in gasoline is 
a known carcinogen; is that correct?
    Mr. Stephenson. I don't know if that is a known carcinogen, 
but it is not something, as you put it, you would want in your 
drinking water.
    Mr. Green. Well, that is true. But I think, let me ask,--
those substances are found by the EPA, I think they are on the 
list of known carcinogens.
    Mr. Stephenson. Benzene certainly is.
    Mr. Green. Okay, benzene. I notice in your written 
testimony--but like I said, in your oral testimony you just 
mention MTBE and not benzene. I differentiate between benzene 
and these other, toluene, xylene--again I don't want to drink 
because they are known carcinogens--whereas MTBE--and I know 
this issue has been around for at least 4 years, I have been on 
the committee 5 now, and we have had similar hearings, and yet 
we have not gone further than saying that MTBE is a 
possibility.
    In fact, in your testimony, you--the first time I have seen 
GAO quote the National Science and Technology Council says, 
MTBE, and concluded the available data has not fully determined 
the risk--this is on page 7 and 8--MTBE should be regarded as a 
potential carcinogen risk to humans. Is that--I haven't noticed 
this testimony in past GAO testimony on their studies.
    Mr. Stephenson. That is based on other studies. That is not 
original GAO work.
    Mr. Green. I know it is based on other studies. It is the 
first time that I have noticed that GAO has provided this 
information to the committee. Because I have--you know, I don't 
know what it does. My colleague from Illinois talks about how 
in high parts per billion I guess anything could kill someone. 
But I know benzene, toluene and xylene would. But so far we do 
not know that MTBE is a known carcinogen?
    Mr. Stephenson. That is right. My understanding is there is 
not enough health-based research yet.
    Mr. Green. I know I have only been looking at it for 4 
years, and we are not scientists, so I hope--I join my 
colleagues in saying we need to do the studies to look at it. 
And obviously 4 years is too long.
    Mr. Grumbles, banning MTBE, do you believe if we 
substantially improve our drinking water supply around the 
country, given that the average detections is less than 1 part 
per billion, if we banned MTBE today, would that substantially 
improve our drinking water supply, even from your testimony 
that the average is less than 1 part per billion?
    Mr. Grumbles. Congressman, I guess the response to that 
question is if we ban MTBE we certainly are taking one step, a 
very strong step to address an odor and taste issue. I really 
am not sure what the position is, if we do have a position, on 
the banning of MTBE and whether it is a necessary step based on 
the potential health effects.
    Mr. Green. Mr. Chairman, are we going to have a second 
round?
    Mr. Gillmor. Yeah, we will.
    Mr. Green. Let me say that the banning of MTBE, as 
suggested by my colleagues, we haven't banned benzene, toluene, 
or xylene in gasoline, and yet we are talking about banning 
something that is not a known carcinogen. With that, I will be 
glad to wait for our second round.
    Mr. Gillmor. Yeah. I do want to get to the second panel. 
But I know members have some more questions. So we will try to 
get through those as quickly as we can.
    Mr. Stephenson and Mr. Miller, GAO found MTBE contamination 
in States that did not mandate the use of RFG. What is the 
explanation and why have the releases been so widespread?
    Mr. Stephenson. Our understanding, it is both cross-
contamination from pipelines and trucks or in a State that 
might have used MTBE in the past but no longer uses it, or some 
States still use MTBE in low, very low doses as not an 
oxygenator, but as an octane enhancer.
    Mr. Gillmor. Okay. And then could you explain or expand on 
the information GAO received from the States regarding lack of 
tools and resources for tank inspection and other enforcement 
responsibilities? Did you find evidence that that situation is 
improving?
    Mr. Stephenson. We took a snapshot in time. Unfortunately, 
that report was issued last year. And we found that many States 
don't have enough resources to do all of the inspections that 
EPA would mandate as the minimum to enforce the tank program, 
and that many times you have turnover at gas stations and you 
can't keep the folks trained well enough and often cases there 
were reports of actually turning the equipment off. So we think 
maintenance and operation of the equipment--while the equipment 
is a good idea, maintenance and operation is equally important. 
And if it is allowed to go into disrepair, then essentially you 
have defeated the purposes of putting the equipment on in the 
first place.
    Mr. Gillmor. Could you update us on the overall progress 
that EPA, the States and private entities are making in 
cleaning up underground storage tanks? I understand that EPA 
reports that newly discovered releases from tanks are 
declining, which would seem to make sense as the program 
matures. What do you think is driving the reduction in releases 
from tanks and do you expect that to continue?
    Mr. Stephenson. I think the equipment and the education of 
the operators has gone a long way toward reducing the leaks. 
However, as I mentioned, we are concerned that if the tanks 
aren't being inspected often enough you may not be finding 
leaks because you are not looking for them. So that is why I 
keep emphasizing that concern.
    Mr. Gillmor. Mr. Miller, in your view what is the greatest 
single contributor or source of MTBE contamination in 
groundwater?
    Mr. Miller. Based on our research, Mr. Congressman, the 
leaking underground storage tanks are where we find the highest 
concentrations. But other fuel spills, either through pipeline 
ruptures, refueling facilities, those also have significant 
contamination of groundwater as a potential.
    Mr. Gillmor. Thank you very much.
    Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to go back 
to Mr. Grumbles again when I asked about the monitoring of 
drinking water systems. I know that there is this EPA Blue 
Ribbon Panel on Oxygenates report that was issued on September 
15, 1999. It says, EPA has proposed a revised unregulated 
contaminant monitoring rule which would require large water 
systems serving more than 10,000 persons and a representative 
sample of small and medium-sized water systems serving fewer 
than 10,000 persons to monitor and report MTBE levels.
    This started, I guess, in January of 2001. But under this 
regulation, the majority of the public--and this is the 
report--the majority of the public groundwater supply wells 
will not be monitored for MTBE. The majority, in other words.
    So, again, going back, Mr. Grumbles, to what I said before, 
you know, shouldn't we be requiring monitoring of all drinking 
water systems, especially those that rely on limited 
groundwater sources? I mean this report seems to be that--we 
are not even getting to most of them because of this rule in 
terms of large versus medium or small.
    Mr. Grumbles. Well, Congressman, I will double check. But I 
don't believe we have gotten a lot of the data in from the 
unregulated contaminant monitoring rule. One of the goals here 
is to get as much of the data in from the systems that are 
above 10,000 and also that representative sample below 10,000, 
and then to assess how much more we need to get a good picture 
of whether or not to require monitoring.
    Mr. Pallone. Could you get back to us on exactly where that 
is, what the data shows, where you are in terms of that?
    Mr. Grumbles. Sure.
    [EPA had failed to respond at the time of printing.]
    Mr. Pallone. And this Blue Ribbon Panel that I mentioned 
made a number of recommendations to enhance water protections 
from MTBE, and if I could just go through them. They included, 
or I have selected some here: Seeking to prohibit full delivery 
to all non-upgraded tanks in every State; developing and 
implementing an integrated fuel research program into the 
groundwater behavior of gasoline and MTBE; accelerating testing 
for and reporting of MTBE in public drinking water supplies at 
all UST release sites; working with States to enhance their 
efforts to protect surface waters that serve as drinking water 
supplies, particularly in regard to older recreational 
watercraft; working with State and Federal partners to 
implement and expand programs to protect private water 
supplies; expanding programs to train and license UST 
installers and maintenance personnel.
    I mean, I can go through these, and you can respond to each 
of them. But what has been done with regard to these 
recommendations? Do you want to comment on them? Do you want me 
to start over again and you go one by one?
    Mr. Grumbles. I am not going to be able to respond to each 
one of them. But I think that I would be happy to work with 
your staff and provide directly to the committee a response to 
each one of them.
    Mr. Pallone. I would appreciate that, with the indulgence 
of the chairman, if we could have that. Thank you. But go 
ahead.
    [EPA had failed to respond at the time of printing.]
    Mr. Grumbles. I was going to say, in terms of the results 
and the recommendations of the blue ribbon panel, that one of 
the things that--I mean, that has done a variety of things. One 
is over the last couple of years it has certainly elevated 
within EPA the importance of looking at pollution prevention, 
source water protection under existing authorities under the 
Safe Drinking Water Act. That applies to both groundwater 
supplies and surface water supplies.
    Additionally, it is concepts like that that in knowing of 
the widespread presence of MTBE at low levels throughout the 
country, various watersheds in particular, it is one of the 
things that this administration is looking at as one of the 
beneficiaries of a watershed initiative through EPA assistance 
at targeted watersheds to look at a wide range of sources of 
contamination and trying to have partnerships to prevent that 
contamination, or to have public and private entities working 
on that front.
    There are several other things. One, based on the blue 
ribbon panel, I think that also is shared with various offices 
within EPA, such as the Office of Air and Radiation which is 
the looking at TSCA as a possible tool to restrict or limit the 
manufacturing use of MTBE, as something that continues to be 
looked at very seriously.
    In terms of some of the other recommendations, I would just 
say that in the Office of Water, which is where I work, we are 
in the process of coordinating with the Office of Research and 
Development on looking at remediation, better technologies, 
monitored natural attenuation, learning more about granular 
activated carbon or air stripping in terms of some of the 
treatment technologies, but also recognizing that prevention 
rather than remediation is a preferred approach generally.
    Mr. Pallone. Okay. Thank you.
    Mr. Gillmor. The gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Prevention rather 
than remediation. You struck a cord, Mr. Grumbles. In your 
testimony, your written testimony, you indicate that there is 
emerging evidence that vapor releases from new and upgraded 
tanks are common, and that such releases can find their way 
into the groundwater, which is certainly surprising for the 
normal person. If you are going to have upgraded new tanks, you 
would think that they would be designed to prohibit any of 
that.
    On what evidence and information is that statement based?
    Mr. Grumbles. My colleagues from USGS and GAO will, I am 
sure, add if I am misstating the situation, or anyway to be 
able to elaborate on it. But some of the data that we have 
gathered and the studies we have conducted with other partners 
at the State level as well as the Federal level have indicated 
that vapor releases occur, because MTBE is--the precise 
chemical and physical features of it, make it subject to--I 
mean it may be causing contamination more than just through a 
leak, but through vapor releases.
    Now, I think some of the studies, there is an ongoing 
study, my notes indicate some new and upgraded tanks in 
California found only one liquid release, but they found vapor 
releases at two-thirds of the tank sites. I think this was in 
Sacramento and Yellow County, California.
    Mr. Shimkus. That really follows up on my next question to 
Mr. Stephenson. According to the GAO survey, can you update us 
on the latest number regarding States that have traced newly 
discovered leaks or releases from regulated tanks and States 
that have seldom or never detected such leaks?
    Mr. Stephenson. Not specifically. I mean, we included that 
question in our survey and several reported that even upgraded 
tanks do continue to leak. They still had reports of leaks. But 
as the chairman pointed out, the number being reported has 
fallen off greatly, in large part because there has been over a 
million tanks closed. So a lot of the problematic tanks have 
been closed. So that may be an explanation.
    Mr. Shimkus. So you don't think that there is an adequate 
and full data set that readily supports researching the 
scientific conclusions about the scope of the new regulated 
tanks versus the old underground storage tank issue?
    Mr. Stephenson. I think there is room to look at mandatory 
tank requirements. I mean, even the minimal equipment that we 
put on so far, if it is not being operated and maintained 
properly, is going to not do any good. So you can continue to 
have leaks. We are finding that even with abandoned tanks, once 
they dig them up, you can find a contamination problem. My 
understanding is that MTBE stays in the soil for a very long 
time.
    Mr. Shimkus. Let me just, because of my friend from Texas, 
MTBE evaporation has no effect on the ozone layer, does it?
    Just a joke. I yield back my time.
    Mr. Gillmor. The gentleman yields back. The gentlelady from 
California.
    Mrs. Capps. Yes. Again, thank you, Mr. Chairman, for 
calling this hearing on what I would arguably say is one of the 
more important topics that we need to have on our agenda here 
on this subcommittee and in our Committee on Energy and 
Commerce.
    Thinking of the accountability, as more information, more 
data is gathered, of even small communities like the little 
town of Cambria, the public becomes knowledgeable about this 
topic. And I don't want us to be caught asleep at the wheel, to 
have the means with which to address a problem and then be 
found holding onto the resources when we shouldn't be. I am 
eager for us to get to the second panelists because I think 
they will give us some more practical light on this as well as 
you folks have.
    But if I could follow up, Mr. Grumbles, I was a little 
taken aback. I asked an initial question of you and you said 
that wasn't really your expertise, but really it was the Deputy 
Administrator of Underground Storage Tank Programs. That person 
is Marianne Horinko, and she is in charge of the budget aspect 
of that; am I correct?
    Mr. Grumbles. Well, she as the Assistant Administrator for 
the Office of Solid Waste and Emergency Response which has 
authority over the programmatic aspects of the----
    Mrs. Capps. The LUST fund? I thought this hearing was on 
that. I am just wondering why she is not here. That was my only 
question.
    Mr. Grumbles. I think I was invited to focus primarily on 
the water contamination issues, and we certainly recognize--I 
mean this is an example of an issue that is multimedia, 
bringing together various offices and agencies because it 
involves groundwater, surface water, different types of 
programs. But it was my opportunity to be before the committee 
to try to talk about some of the underground storage issues, 
but really to focus on my area, and that is some of the 
activities being carried out under the Safe Drinking Water Act 
and the overall question of the extent of contamination of MTBE 
throughout the country of the Nation's water supplies.
    Mrs. Capps. I yield back.
    Mr. Gillmor. The gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman. My colleague from 
California brought up talking about international data. Have 
the agencies, EPA, GAO, looked at international data on MTBE? I 
know in Europe MTBE is fairly prevalent as an additive for 
clean air problems.
    Mr. Stephenson. We have not at GAO.
    Mr. Miller. No, sir.
    Mr. Green. It might be good to look at what another 
industrialized country is doing and how they are addressing the 
potential for MTBE contamination, because I assume Europe 
sometimes has even tougher environmental lays than we do.
    Mr. Grumbles, again I will go back to the 1 percent. Since 
the national detection average for MTBE is less than 1 part per 
billion, do you believe the health benefits great enough, or 
the concern great enough to ban MTBE at this time?
    Mr. Grumbles. Well, Congressman, I would hesitate to make a 
judgment on that question right now, because we are finding 
that that is at a low level. What we are concerned about is 
making sure that we have the most up-to-date information, the 
research on exactly what the level is that could trigger health 
effects, adverse health effects.
    So I am a little hesitant to make--to state a position 
since I know there is--I believe there is not an official 
position of the agency on the banning of MTBE, and I do know 
that we are very aggressively working to try to get as much 
data as we can on the inhalation and ingestion components of 
MTBE and whether it presents a human health risk.
    Mr. Green. Okay. And my colleague from Illinois talked 
about the inhalation concern, and it seemed like inhalation 
would mainly be when I am filling up my car; is that correct? 
If I am using MTBE as reformulated gasoline, I am inhaling it 
while I am putting gas in my car?
    Mr. Grumbles. There could be many other pathways of 
exposure. If the MTBE is in the water supply and the water is 
entering into someone's home, there might be routes of 
exposure, inhalation exposure.
    Mr. Green. That would be well above the 20 to 40 parts per 
billion, though, that the EPA has talked about?
    Mr. Grumbles. I am talking about various routes.
    Mr. Green. I was just wondering, because I know you are 
dealing with clean water. But MTBE was designed to help us with 
clean air. And when we do fill up our vehicles we have--where 
we catch those vapors now, in most of our updated fueling 
stations. So whether it is MTBE, benzene, like I said, any of 
the other--anything else that may be there, if MTBE is phased 
out--and this is for all. The chairman asked a similar 
question--other additives will undoubtedly be used to increase 
octane and reduce air pollution. What are we doing to study 
these other additives to ensure that they do not have the same 
or similar problems in the terms of groundwater?
    The blue ribbon panel recommended that EPA should conduct a 
full multimedia assessment of any major new additive to 
gasoline prior to introduction. What is the EPA doing in this 
regard now?
    Mr. Grumbles. If I could, Mr. Chairman, I would like to 
provide a detailed response on the record in terms of what EPA 
is doing with respect to research on alternatives to MTBE.
    [EPA had failed to respond at the time of printing.]
    Mr. Green. Great. If you could make sure you include 
ethanol, because it seemed like there was some concern about 
ethanol and clean air concerns. For instance, what about 
groundwater contamination from ethanol? Isn't ethanol extremely 
volatile in groundwater as well? Doesn't ethanol have the same 
capacity to extend the plumes of other dangerous contaminants 
such as benzene, toluene, xylene due to the preference of 
microbes to metabolize in ethanol? Is there or will there be a 
national monitoring for ethanol in groundwater? Is there a 
national monitoring?
    For example, my colleague, Mr. Ganske, said that they don't 
use MTBE but they use ethanol in Iowa. Is there a detection? Is 
anybody detecting ethanol contamination in Iowa?
    Mr. Grumbles. I personally don't know the answer to that 
question. But someone in the gallery behind me is saying it is 
hard to analyze. I can also commit to provide an answer for the 
record.
    [EPA had failed to respond at the time of printing.]
    Mr. Green. Well, I know ethanol also evaporates, because 
just the properties. But so does MTBE over a longer period of 
time, if it is surface. But if it is in the groundwater, that 
evaporation is not available, so we could have ethanol 
contamination in the groundwater. And so I would appreciate, 
when you respond to that question, if you all would look at 
that also.
    Mr. Gillmor. Very good. The gentleman's time has expired.
    I do want to thank our panelists for your excellent 
testimony. And we will move straight to the second panel, 
because we will want to give as much opportunity to hear from 
them as possible, because we are being told we may have a 
series of votes going off here pretty soon. But thank you very 
much.
    Well, I appreciate the second panel coming. I am sorry you 
had to wait so long until we got to this point. But we will 
start right out, first with Ms. Patricia Ellis, Hydrologist 
with Delaware Underground Storage Tank.

      STATEMENTS OF PATRICIA ELLIS, HYDROLOGIST, DELAWARE 
UNDERGROUND STORAGE TANK; PAMELA R.D. WILLIAMS, EXPONENT; JAMES 
  R. JONES, PRESIDENT, BOARD OF DIRECTORS, SOUTH TAHOE PUBLIC 
UTILITY DISTRICT; AND CRAIG PERKINS, DIRECTOR OF ENVIRONMENTAL 
       AND PUBLIC WORKS MANAGEMENT, CITY OF SANTA MONICA

    Ms. Ellis. Good afternoon, Chairman Gillmor and members of 
the subcommittee. I am Patricia Ellis. I am a hydrologist with 
Delaware's Underground Storage Tank Program. I am pleased to 
appear here today on behalf of the National Groundwater 
Association, which is a nonprofit professional society and 
trade organization for the groundwater industry that promotes 
the responsible production, utilization and cleanup of our 
Nation's groundwater.
    Our membership includes both public and private sector 
groundwater scientists, engineers and hydrologists across the 
country. I am here today to present an overview of the extent 
of MTBE groundwater contamination in the U.S., and I present 
this data as a scientist employed by the State of Delaware as 
well as my experiences as having been one of the blue ribbon 
panelists.
    The Federal Reformulated Gasoline Program was established 
in the Clean Air Act of 1990, and it was meant to provide 
reductions in the emissions of air pollutants from motor 
vehicles. The importance to us is in dealing with MTBE 
contamination in groundwater, and there are three main aspects.
    First, MTBE is highly water soluble, and it absorbs less on 
soils, which means it tends to migrate faster and farther than 
any of the other components of gasoline.
    Second, while the health risks are still being debated due 
to MTBE, contamination at low levels does cause taste and odor 
problems and can render the water undrinkable.
    And last, I am looking at the large number of studies 
demonstrating that the water systems are being impacted by 
MTBE.
    By 1998, MTBE had become the fourth highest produced 
organic chemical in the United States. And you will see the 
impact of contamination when we hear from South Lake Tahoe, 
which was forced to shut down about half of their water supply 
wells due to impacts or imminent threats to their wells, and 
they are facing clean-up costs of about $50 million.
    But there is also a growing number of studies that 
demonstrate on a local and regional scale the extent of MTBE 
contamination. One of the USGS studies looked at shallow 
monitoring wells in newly developed areas of Boston. This is 
not in the metropolitan--it was out in the newly developed 
residential area, not in the city center. And they looked at 
sand and gravel aquifers and found MTBE in 52 percent of the 
wells that they looked at.
    Another study that we have heard brief mention of looked at 
existing data in public water systems in the Northeast and Mid-
Atlantic States. They looked at about 20 percent of the 
community systems and found MTBE in detectable quantities in 
8.9 percent of those, and 1 percent of those exceeded the 20 
part per billion lower limit of EPA's drinking water advisory.
    A more recent study has just come out, and it was done as 
part of the NAWQA, or National Ambient Water Quality Assessment 
program, of USGS. They collected studies in Delaware between 
August and November 2000 from 30 randomly selected drinking 
water supply wells that were screened in the unconfined 
aquifer, and they were trying to assess the currents and 
distribution of pesticides, volatile organic compounds, other 
inorganic ions, and nutrients. They found volatile organic 
compounds in all 30 wells, generally at less than a part per 
billion. The big three were chloroform, tetrachloroethane, and 
MTBE, most frequently detected, and they were found in at least 
half of the samples. Seventeen of the 30 samples had MTBE. Six 
of these were between 1 and 10 parts per billion, and one was 
over our newly established 10 part per billion drinking water 
standard for MTBE, which became effective on May 10, which I 
believe is the lowest in the country.
    We can't always blame tanks. In 1998, a car accident in 
Maine resulted in the spill of less than 20 gallons of 
gasoline, which would be maybe two gallons of MTBE. The 
incident resulted in contamination of 24 domestic wells located 
within 2,200 feet of the spill and 10 of those wells exceeded 
100 parts per billion.
    In response to this and several other incidents that 
happened at about the same time, the Governor of Maine directed 
State and local--State health and environmental agencies to 
look at all of the drinking water supplies in Maine. They 
sampled about a thousand private wells and almost all of their 
regulated public water supplies. MTBE was found in 16 percent 
of the private water supplies, about 1 percent exceeding their 
State standard of 35 parts per billion. And the questionnaire 
that accompanied the survey found that the wells were not 
necessarily anywhere near underground storage tanks or gasoline 
tanks or any known gasoline spills. MTBE was also detected in 
16 percent of the public water supplies, but none exceeded 
their 35 part per billion standard.
    Pascoag, Rhode Island is an village in northwest Rhode 
Island. Their water supply came from a wellfield that served 
about 4,000 people. And they had recently added an additional 
well to their wellfield, which when first tested contained no 
MTBE last spring. After that initial testing, the MTBE levels 
began to rise and it began a 5-month ordeal for this town. On 
Labor Day a multiagency response started to try to find out 
where the problem was. It was eventually traced to a gas 
station about 1,700 feet from the wellfield. They initiated an 
enforcement action and an investigation got started and limited 
targeted remediation began. By the end of October, the 
contamination had climbed to 1,700 parts per billion. The Rhode 
Island Department of Health issued advisories. First, don't 
drink the water, don't cook with the water, and don't let your 
small children bathe in the water. A little later they also 
added other advisories: To limit your showering time; to open 
the windows to ventilate to keep the exposure to vapors 
reduced; and to reduce the overall usage of water to minimize 
the amount of pumping that was drawing on those wells which 
would draw MTBE into the wellfield more.
    By November the operators of the station had filed for 
bankruptcy. By mid-November, they got carbon filters on the 
water system. That did reduce the contamination to between 40 
and 100 parts per billion. An adjoining town, Harrisville, had 
been planning to install a new wellfield about 2 years down the 
line. They accelerated the installation of their new wellfield. 
After a few disputes over how you merge two water districts, 
clean drinking water began reaching the residents in January, 
mid-January this year. And they are still looking at 
determining the cause of the release, and they are working on 
remediation in the source area. But the contamination in this 
town has been a very public issue and seriously impacted all of 
the people who lived in that area.
    Another hot spot was in New York. The Greenbush area in 
Hyde Park has had as of last August 77 homes that have carbon 
filters on their wells, and a total of 123 wells so far that 
have been impacted. Three or four different gas stations were 
the sources of this contamination, and some of the 
contamination of MTBE was known about as long as 15 years ago. 
The New York Department of Environmental Conservation is 
planning on contributing $1.9 million toward the $3.1 million 
cost of bringing in water from Poughkeepsie.
    Another hot spot recently was Montgomery County area in 
Pennsylvania. I will detail one of sites in a little more 
detail. It was a gasoline station in the town of Bluebell 
reported a release in May 1998, 2 days after an explosion of a 
nearby building. They reported a release of a few gallons, 1 to 
2 gallons, he said. But it turned out to be a leak of about 
13,000 gallons that resulted in the explosion nearby and 
evacuation of a number of families from their homes due to 
vapors. Fourteen families have had to be connected to public 
water because their wells were contaminated. And it was a 
faulty leak detection device that failed to alert the operator. 
They anticipate cleanup is going to cost about $5 million, and 
it will come from a State fund since the operator really has no 
assets.
    Mr. Gillmor. Ms. Ellis, we are going to have to take a 
recess now. We have 6\1/2\ minutes to make this vote. We have a 
total of 7 votes. And although they shorten some of those votes 
up, we are realistically looking at almost an hour before we 
get back here.
    So, Mr. Pallone and I and hopefully some others will be 
back as soon as the votes are terminated, and so I guess you 
are free for about an hour. Thank you very much.
    [Brief recess.]
    Mr. Gillmor. The committee will come to order. I very much 
appreciate your patience. Apologize for the delay. It was all 
Mr. Pallone's fault. It was beyond the control of any of us. We 
were--Ms. Ellis was wrapping up her statement. So if you want 
to finish then we will move to the other members of the panel.
    Ms. Ellis. I will pick up where I stopped off. To continue 
a little bit on the impacts in New Hampshire, 16 percent of the 
public water supplies had MTBE detected and 27 percent of the 
private supplies that were tested. New Jersey, 15 percent of 
the wells had detectable MTBE. And in the northern area called 
the Highlands area had up to 43 percent detections. Around an 
area called Cranberry Lake which is heavily used for boating, 
there are a lot of private wells surrounding the lake that draw 
water from the lake, 93 percent of them had MTBE in them.
    We heard mentioned the unregulated contaminant monitoring 
rule that started in January 2001 that requires sampling of the 
larger systems. The State of Delaware has five larger systems 
that are year round, two more that serve over 10,000 people in 
the summertime. I am told that we require also a representative 
sample of the smaller systems. Well, we have 575 smaller 
systems in the State of Delaware. And the representative 
statistical sampling I was told we need to do was one of those 
systems. If you hit the one with MTBE, maybe we have got a bad 
problem. If you happen to miss it, I guess we have no problem. 
But there are 575 small systems in the State of Delaware.
    When public health started sampling in June 2000, of the 
first 210 samples they collected, 38 had MTBE in them, which is 
18 percent detection, and two of them exceeded our recently 
enacted drinking water standard of 10 parts per billion.
    Last summer, the Department of Natural Resources and Public 
Health tried a different sampling protocol. They sampled all of 
the shallow drinking water wells within a mile radius of 
hazardous substance sites. This is the State level Superfund 
sites. Of these shallow wells, we have about 400 shallow public 
drinking water supply wells that are unconfined and at risk. 
They sampled 39 wells and four surface water intakes, both raw 
and treated water. They did 58 samples. From my notes you can 
see they analyzed for almost 200 and some different substances. 
MTBE and chloroform tied for first place with 21 detects out of 
these 58 samplings. And MTBE was the only thing that triggered 
either an EPA drinking water standard, which doesn't exist, or 
the Delaware standard. We had 12 and 16 parts per billion and 
one of those jumped up immediately to 30.
    Normally, domestic wells are not sampled in many States. 
The only ones we bother doing are the ones that are near LUST 
sites because they are part of the investigation. But where we 
have sampled we have turned up about 60 domestic wells that 
have MTBE impacts. The earliest one we discovered was in 1989, 
well before we were using RFG in the state.
    We have had hits as deep as 260 feet for the depth of a 
well that has been impacted by MTBE, although most of these 
have been less than 50 feet. We have got two individual LUST 
sites that have managed to impact between 15 and 18 domestic 
wells.
    Normally our first response is get the carbon filters out 
there that day. We are doing it now at about 5 parts per 
billion. Then we will monitor for a while, decide whether to 
put in a deeper replacement well, or try to extend a water 
line. We will spend $3,000 to $5,000 a year for every site 
where we have carbon filters, more if it is at higher levels of 
contamination. If we drill a deeper replacement well that is 
200 or 300 feet deep, that is going to cost us $8,000 to 
$10,000.
    We recently ran a water line about 1,000 feet because of 
two impacted wells that had five different connections, houses 
and business to it, and the State, out of our money, paid 
$450,000 for that. It was quite an expense.
    As more studies are completed across our State and the rest 
of the Nation we are getting a handle on the extent of the 
problem. We have further concerns as the 1998 deadline we were 
told would take care of everything. ``1998 compliant tanks 
could not leak,'' and they do. We see it every day. We have 
trouble separating out why they leak. We don't know if it is in 
the design, the construction, or the poor training that is 
really hard to identify what the problem is that is causing the 
leaks.
    I do commend the panel for taking time to evaluate and 
focus on the extent of contamination for our water supplies in 
this country. I would be happy to respond to any questions you 
might have.
    [The prepared statement of Patricia Ellis follows:]
 Prepared Statement of Patricia Ellis, Delaware Department of Natural 
 Resources and Environmental Control, on behalf of the National Ground 
                           Water Association
    Good afternoon Chairman Gillmor and members of the Subcommittee, I 
am Patricia Ellis, a hydrologist with Delaware's Department of Natural 
Resources and Environmental Control, Underground Storage Tank Branch. I 
am pleased to appear today on behalf of the National Ground Water 
Association, a non-profit professional society and trade association 
for the ground water industry that promotes the responsible protection, 
utilization and cleanup of our nation's ground water. Our membership 
includes both public and private sector ground water scientists, 
engineers, and hydrologists across the country.
    I am here today to present an overview of the extent of MTBE 
(methyl tertiary butyl ether) ground water contamination in the United 
States. I present this data as scientist employed by the State of 
Delaware as well as my experience from being a member of the EPA's Blue 
Ribbon Panel on MTBE.
                               background
    The Federal Reformulated Gasoline Program was established in the 
Clean Air Act of 1990 as a means to provide reductions in the emissions 
of air pollutants from motor vehicles. The importance of dealing with 
MTBE contamination is three-fold. First, the fact that MTBE is highly 
water-soluble and absorbs less on soils, relative to other components 
of gasoline means that following a spill or leak it tends to migrate 
faster and further than other components of gasoline. Secondly, while 
health risks due to MTBE water contamination are still being 
investigated, contamination at low levels does cause taste and odor 
problems thus rendering the water undrinkable. And lastly, the number 
of studies demonstrating that water systems are currently impacted by 
MTBE.
    By 1998 MTBE had become the 4th highest organic chemical produced 
in the United States. The impact of contamination becomes clear when 
one looks at the situation in South Lake Tahoe, California, which was 
forced to shut down more than half of its supply wells due to impacts 
or imminent impacts to its wells and is facing cleanup costs estimated 
around $50 million.
    There are also a growing number of studies that demonstrate the 
local and regional scale of MTBE contamination. For example, one USGS 
study looked at shallow monitoring wells in newly developed areas of 
the Boston, Massachusetts metropolitan area which has sand and gravel 
aquifers and found MTBE in 52% of the wells. Another USGS study 
evaluated the occurrence and distribution of MTBE in drinking water in 
northeast and Mid-Atlantic States that involved the collection of 
existing information from 20% of community water systems in the area. 
MTBE was found in detectable quantities in 8.9% of the samples with 1% 
exceeding 20 ppb (the lower limit of EPA's drinking water advisory). 
The USGS, as part of the NAWQA (National Ambient Water Quality 
Assessment) Program collected samples between August and November 2000 
from 30 randomly selected drinking water supply wells screened in the 
unconfined aquifer to assess occurrence and distribution of selected 
pesticides, volatile organic compounds, major inorganic ions, and 
nutrients. Volatile organic chemicals were present in all wells, 
generally at less than 1 microgram/liter (roughly <1 ppb). Chloroform, 
tetrachloroethene and MTBE were most frequently detected VOCs, and were 
found in at least half of the samples. 17 of 30 samples had MTBE 
detected. 6 samples were between 1 and 10 ppb, 1 sample above the 10 
ppb drinking water standard.
             examples of mtbe contamination across the u.s.
    In 1998, a car accident in Maine resulted in a spill of less than 
20 gallons of gasoline, or less than 2 gallons of MTBE. The incident 
resulted in the contamination of 24 domestic wells located within 2200 
feet of the spill. Ten of the wells exceeded 100 ppb. In response to 
this and several other incidents, the Governor of Maine directed state 
health and environmental agencies to undertake a study of the 
occurrence and concentrations of MTBE in Maine's drinking water 
supplies by sampling 1000 private wells and nearly all regulated public 
water supplies. MTBE was detected in 16% of the private water supplies, 
with slightly more than 1% exceeding the state drinking water standard 
of 35 ppb. The questionnaire that accompanied the survey found that the 
wells were not necessarily located near gasoline storage tanks or known 
gasoline spills. MTBE was detected in 16% of the public water supplies 
tested, but no samples exceeded the 35 ppb.
    Pascoag, Rhode Island is a village on northwest Rhode Island. 
Pascoag's water supply came from a well field that served about 4000 
people. They had added an additional well in the spring of 2001, and 
when first tested, the well contained no MTBE. After initial testing 
MTBE levels began and signaled the beginning of a five-month ordeal for 
the residents of the village. On Labor Day weekend, a multiagency 
response began. The release was traced to a gas station about 1700 feet 
from the well field. In response to an enforcement action by the state, 
an investigation was initiated, and limited targeted remediation began. 
By the end of October, concentrations had risen to about 1700 ppb. The 
Rhode Island Department of Health issued advisories asking residents to 
limit showering time, ventilate to reduce exposure to MTBE vapors, and 
reduce overall water use to minimize the pumping of the wells, which 
was drawing MTBE to the well field. By November, the station operators 
had filed for bankruptcy. In mid-November, carbon filters were 
installed on the water system, which reduced contamination to between 
40 and 100 ppb. An adjoining town, Harrisville, that had been planning 
a new well field has provided a long-term solution. They accelerated 
installation of the new well field and after initial disputes as to the 
administration of the two water districts; clean drinking water began 
reaching residents on January 19th. The investigation to determine the 
cause of release continues and remediation in the source area is 
progressing. The contamination of the Pascoag well field has been a 
very public issue that seriously impacted all the people who live and 
work in Pascoag.
    The Greenbush area of Hyde Park, New York is another area impacted 
by MTBE contamination. As of last August, the neighborhood had 77 homes 
with carbon filters on wells, and at least 123 wells had been impacted. 
Three or four gas stations were identified sources of the 
contamination. Contamination was detected as much as 15 years ago at 
some of the sites. The New York Department of Environmental 
Conservation will contribute $1.9 million of the cost toward the town's 
$3.1 million system to bring water from Poughkeepsie.
    Bucks and Montgomery Counties, Pennsylvania, have also been dealing 
with MTBE contamination of their water resources. A gasoline station in 
the town of Blue reported a release in May 1998 two days after an 
explosion occurred at a nearby building. The reported release of a 
``few gallons,'' turned out to be a leak of as much as 13,000 gallons, 
which resulted in the explosion, and evacuation of several families 
from their homes due to gasoline vapors. Fourteen families have been 
connected to public water because their wells were contaminated. A 
faulty leak detection device failed to alert the operator about the 
release. Cleanup is expected to cost $5 million, which will likely come 
from a state fund, since the operator has no assets. .
    In New Hampshire, slightly over 16% of public water supplies have 
MTBE at 0.5 ppb or higher. Of the private water supplies sampled, 27% 
had MTBE detected.
    In New Jersey, 15% of community water systems had detectable MTBE 
(>0.5 ppb), in one area in the northern part of the state, up to 43% of 
the domestic wells had detectable MTBE. MTBE has been detected in 93% 
of private wells in Cranberry Lake area where gasoline-powered boats 
are used, and the wells draw their water from the lake.
    Beginning in January 2001, the EPA Office of Drinking Water, as 
part of the Unregulated Contaminant Monitoring Rule, now requires that 
public water supplies serving more than 10,000 people include MTBE 
sampling. This sampling is to collect information on occurrence of MTBE 
in drinking water, to determine whether the problem is serious enough 
to warrant developing a drinking water standard. They also require 
sampling of a ``representative number'' of small systems (serving 
<10,000 people) which is crucial in gaining a complete picture of MTBE 
contamination. For example, Delaware has 5 systems serving more than 
10,000 people year-round, while approximately 575 systems serve less 
than 10,000 people. When the State of Delaware started testing for MTBE 
in June 2000, of the 210 samples collected in the first few months of 
testing, 38 samples or 18% had detections of MTBE, two exceeded the 10 
ppb Delaware MTBE drinking water standard that became official on May 
10, 2002.
    Last summer and early fall, the Delaware Department of Natural 
Resources and Environmental Control and Public Health sampled public 
wells and surface water intakes within a 1-mile radius of known 
hazardous waste sites in unconfined aquifers. Delaware has over 400 
public drinking water supply wells that are screened in unconfined 
parts of the shallow aquifer alone. 39 wells and 4 surface water 
intakes were sampled, both raw and treated water, for a total of 58 
samples. The samples were analyzed for 69 regulated chemicals, 10 
chemicals with secondary standards, and 108 other chemicals. Of the 58 
samples, MTBE and chloroform were detected in 21 samples. MTBE was the 
only chemical that exceeded a Delaware or EPA maximum contaminant level 
(MCL). These included two wells with MTBE at 12 and 16 ppb, and one of 
those wells has more recently increased to 30 ppb.
    In Delaware, as in most other states, domestic wells are normally 
only sampled for MTBE near Leaking Underground Storage Tanks (LUST) 
sites, where potential for impact is suspected. Approximately 60 
domestic wells have been impacted, with the earliest discovered in 
1989, well before reformulated gasoline was used. Wells screened as 
deep as 260 feet have had detects for MTBE, although most wells 
impacted were shallower than 50 feet. Two LUST sites have impacted 15-
18 wells each. When a well is impacted, the first response is normally 
carbon filters on the well, monitoring, followed by deep replacement 
well, or extension of a waterline. It costs from $3000-$5000/well/year 
for filters, and $8-10,000 to drill deeper replacement well. We 
recently extended a water line approximately 1000 feet, due to two 
impacted wells that served 5 connections. The cost was $450,000. 
Initially, a deeper well was drilled to replace one well, but the 
ground water at 100 feet also contained MTBE.
    As more studies on MTBE contamination are being completed across 
the nation the extent of the problem is becoming fairly well known. 
Further concerns are being raise by indications that upgraded tanks 
that meet the 1998 standards are still leaking. Although there is 
difficulty in separating problems with design and construction of 
underground storage tank systems from operator errors or lack of 
training this issue still needs to be addressed.
    I commend the Subcommittee for taking the time to evaluate and 
focus on the extent of MTBE contamination in our nation's water 
supplies. I would be happy to respond to any questions you might have 
regarding my testimony.

                               References

    Occurrence and Distribution of Methyl tert-Butyl Ether and Other 
Volatile Organic Compounds in the Northeast and Mid-Atlantic Regions of 
the United States (1993-1998). US Geological Survey Water Resources 
Investigation 00-4228.
    Occurrence and Distribution of Selected Contaminants in Public 
Drinking-Water Supplies in the Surficial Aquifer in Delaware. USGS 
Open-File Report 00-327.
    Source Drinking Water for Selected Public Drinking Water System: 
Report of Findings. May 2002. Department of Natural Resources and 
Environmental Control and Department of Health and Human Services.

    Mr. Gillmor. Thank you very much. We will go to Dr. 
Williams.

                  STATEMENT OF PAMELA WILLIAMS

    Ms. Williams. Good afternoon, Mr. Chairman and members of 
the subcommittee. I am a senior scientist with Exponent, which 
is a consulting firm headquartered in Menlo Park, California. I 
would like to thank you for the opportunity to present some of 
my research findings related to MTBE in drinking water, 
particularly in the State of California. And most of this 
research has been published in the literature as well as 
presented at various technical conferences over the last few 
years.
    The first issue that I would like to address relates to the 
common perception that MTBE contamination of drinking water 
supplies is widespread and growing. A review of the available 
water monitoring data in California, however, does not support 
these claims and, in fact, of all the public drinking water 
supplies that have been monitored for and reported for MTBE, 
only about 1 percent or less of all of those sources have been 
found to contain MTBE at any level over the last 6 years.
    In addition, contrary to some of the projections that were 
made a couple of years ago, MTBE detections have not increased 
over time and, in fact, the number of new sources that have 
been found to contain MTBE has actually decreased in recent 
years. And this is most likely a result of the new tank upgrade 
program that has been implemented in California as well as the 
ban on two-stroke engines in certain waterways.
    As noted earlier today and in previous testimony by USGS, 
even when MTBE is detected, it tends to be found at very low 
concentration levels, and these are levels that are typically 
below California's secondary and primary standards for MTBE, 
both of which, I might add, are very conservative estimates to 
begin with and are far below the U.S. EPA's advisory level of 
20 to 40 parts per billion.
    I have a background in public health and what I find to be 
of even greater interest is the finding that other chemicals, 
such as TCE and PCE tend to be found more often and at greater 
concentration levels than MTBE in California's drinking water. 
I think that these findings help to illustrate how our current 
focus and energy directed toward MTBE may be misguided if our 
real intent here is to protect public health and the 
environment and reduce risks.
    The second issue that I would like to comment on relates to 
the frequent misrepresentation of MTBE as a human carcinogen. 
In reality, there is no national or international regulatory 
body or agency that has classified MTBE as a human carcinogen. 
Furthermore, the U.S. EPA states that its advisory level for 
MTBE is about 100,000 times below exposure levels found to 
cause any adverse effect in animals.
    I think it is, therefore, very unlikely that MTBE, at 
current environmental exposure levels, would cause any risk to 
public health.
    The final issue that I would like to discuss relates to the 
risks and benefits of MTBE. While the risks--while the 
perceived risks of MTBE, such as significant and widespread 
water contamination, are not supported by the current available 
data, the benefits of MTBE and, I mean, in particular the air 
quality benefits, have been well documented.
    On the other hand, very little is known about the 
alternatives to MTBE such as ethanol, which may end up 
resulting in greater risks to human health or the environment.
    It will ultimately be up to decisionmakers, such as 
yourselves, to weigh the risks and benefits of MTBE as well as 
for the alternative to ensure the greatest benefits and the 
fewest risks to society.
    In closing, although MTBE has certainly impacted some 
drinking water sources in California, the most notable being 
those in Santa Monica and South Lake Tahoe, the productions 
about widespread and high-level contamination of MTBE have just 
not materialized. The risks and benefits of MTBE need to be 
evaluated in a fair, comprehensive and quantitative manner, and 
the risks and benefits of the alternative need to undergo the 
same thoroughness and scientific scrutiny as that for MTBE. I 
thank you for your time and I will take any questions.
    [The prepared statement of Pamela Williams follows:]
   Prepared Statement of Pamela Williams, Senior Scientist, Exponent
    Thank you Mr. Chairman and Members of the Subcommittee for the 
invitation to appear here today. I appreciate the opportunity to 
discuss the impact of MTBE on drinking water supplies, particularly in 
California, and the potential threat to public health from exposure to 
MTBE in drinking water. Over the past few years, I have conducted 
extensive research on MTBE and other volatile organic compounds (VOCs). 
I have presented my findings in approximately 7 published manuscripts 
and 12 presentations at various conferences nationwide. During this 
period, I have found that much misinformation has been circulated, and 
many misperceptions exist, about MTBE. I hope to help clarify some of 
these issues for you in my testimony today.
                         mtbe in drinking water
    A common perception is that there is widespread contamination of 
drinking water supplies in the U.S. due to MTBE, particularly in 
California, and that the degree of contamination is increasing over 
time. It is also believed that ground water sources are at greater risk 
of MTBE contamination than surface water sources. Analysis of the 
available drinking water data, however, does not support these claims. 
In fact, MTBE was detected in 1% or less of all sampled drinking water 
sources in California from 1996 to 2001, and MTBE was detected 
approximately 5 to 10 times more often in surface water sources than 
ground water sources during this period. Furthermore, detections of 
MTBE in California surface water sources decreased by about 50% from 
1998 to 2001, most likely due to a ban on the use of two-stroke engines 
in selected surface water bodies. Contrary to prior claims and 
projections, detections of MTBE in California drinking water have not 
increased over time, and the annual rate of new MTBE detections has 
actually decreased in recent years for both ground water and surface 
water sources (likely due to the implementation of a new underground 
tank program in California and the ban on two-stroke engines).
    Even when MTBE is detected in drinking water, the concentrations 
are typically very low. For example, approximately 87% of detected MTBE 
concentrations were below California's primary (health-based) standard 
of 13 parts per billion (ppb), and about 72% were below the State 
secondary (aesthetic-based) standard of 5 ppb from 1995 to 
2001.<SUP>1</SUP> The average concentration of MTBE detected in 
California drinking water sources was less than 8 ppb from 1997 to 
2001. The average concentration of MTBE in water sources where it was 
detected was higher before 1997; the average was made higher due to the 
sampling of the Arcadia and Charnock wells in Santa Monica, which had 
been affected by a nearby leaking underground storage tank. It should 
be noted that California's drinking water standards are very 
conservative, and the secondary standard in particular is 4 to 8--times 
lower than the USEPA advisory level of 20-40 ppb, which is based on 
taste and odor effects. These findings suggest that current levels of 
MTBE in drinking water are unlikely to pose a health or, in most cases, 
even an aesthetic concern. In our own independent analyses, we have 
found that current levels of MTBE in California drinking water pose a 
negligible health risk to water consumers.
---------------------------------------------------------------------------
    \1\ Maximum contaminant levels (MCLs) are enforceable and represent 
the maximum permissible level of a contaminant in water delivered to 
users of a public water system. In California, the primary MCL (13 ppb) 
was established to be protective of cancer effects, while the secondary 
MCL (5 ppb) was established to address taste and odor concerns
---------------------------------------------------------------------------
    According to recent statements made by the U.S. Geological Survey, 
similar findings for MTBE have been observed in other regions (see 
Statement by Robert M. Hirsh to the House Committee on Energy and 
Commerce on November 1, 2001). Specifically, various national 
assessments by USGS have indicated that MTBE levels do not appear to be 
increasing over time, that MTBE is typically present at very low 
concentrations in shallow ground water within areas where MTBE is used, 
and that MTBE levels are almost always below those of concern from 
aesthetic and public health standpoints. Recent findings from USGS, 
based on an evaluation of 954 randomly selected community water systems 
nationwide, also found that the median concentration of MTBE detected 
was only 0.54 ppb.
    Perhaps of greater interest is that, besides MTBE, many other VOCs 
have been detected in California's drinking water. For example, 
chloroform, tetra-chloroethylene (PCE), and trichloroethylene (TCE) 
were found in approximately 10-14% of sampled drinking water sources in 
California from 1996 to 2001. In addition, many of the drinking water 
sources in which PCE and TCE were detected (i.e., about 18-22% of 
sources from 1995 to 2001) had concentrations that exceeded 
California's primary standard of 5 ppb for these chemicals. These 
findings suggest that the intense efforts to regulate or decrease 
exposures to certain chemicals, such as MTBE, may be misguided from a 
public health perspective, given the presence of other chemicals in 
drinking water that may pose a greater risk.
                            toxicity of mtbe
    Another common perception--one that is often fueled by the media--
is that MTBE is a human carcinogen. This belief stems from reports that 
MTBE has been found to be carcinogenic to laboratory animals at very 
high doses. However, these animal studies have several important 
limitations with respect to understanding the carcinogenic potential of 
MTBE in humans, and do not provide any clear evidence of human cancer 
potential. In fact, no national or international regulatory agency has 
classified MTBE as a known human carcinogen. Although few national (or 
international) regulatory guidelines exist for MTBE, the USEPA believes 
that its aesthetic standard (20-40 ppb) is at least 20,000 to 100,000 
(or more) times lower than the range of exposure levels in which cancer 
or non-cancer effects have been observed in rodent tests.
    In California, the Office of Environmental Health Hazard Assessment 
(OEHHA) considers MTBE to be an animal carcinogen and a possible human 
carcinogen. OEHHA is the only state or national agency in the country 
that has derived a cancer potency value for MTBE. A comparison of their 
value for MTBE with those for benzene, TCE, and PCE indicates that 
OEHHA considers the latter three to be about 5 to 50 times more potent 
than MTBE (when considering oral exposures).<SUP>2</SUP> Several 
aspects of OEHHA's approach for evaluating MTBE's cancer potential in 
humans have been criticized, including their use of unvalidated non-
human models and reliance on animal tumor data that may not be relevant 
to humans.
---------------------------------------------------------------------------
    \2\ Cancer potencies (often expressed as a cancer slope factor or 
CSF) are defined as an upper bound, approximating a 95% confidence 
limit, on the increased cancer risk from a lifetime exposure to an 
agent. OEHHA's CSF for MTBE is 1.8 (mg/kg-day)<SUP>-</SUP>\1\. OEHHA's 
CSFs for benzene, TCE, and PCE are 100, 21, and 10 (mg/kg-
day)<SUP>-</SUP>\1\, respectively.
---------------------------------------------------------------------------
    In short, the USEPA has not conducted a cancer risk assessment for 
MTBE. The analysis by OEHHA, which is very controversial, is the only 
one that is currently available.
                       risks and benefits of mtbe
    Despite perceptions to the contrary, developing and using any 
material or technology entails some degree of risk. Decision makers are 
therefore faced with the challenge of a ``risk/benefit balancing act,'' 
in which they must decide whether the benefits achieved by a particular 
technology or material are greater than the associated risks. The risks 
and benefits of alternative technologies or materials must also be 
evaluated, with the same level of thoroughness, to ensure that 
decisions ultimately provide the greatest benefits (and fewest risks) 
to society.
    In the case of MTBE, the tradeoff is clearly between air quality 
benefits and potential threats to water quality. While the air quality 
benefits of gasoline containing MTBE have been documented in California 
and elsewhere, claims of widespread MTBE contamination of drinking 
water supplies have not been proven. In addition, preliminary data 
suggest that alternatives to MTBE, such as ethanol, may result in 
increased health risks to the public, while providing few additional 
benefits. Of particular concern is the potential for increased air 
emissions and greater water contamination by other gasoline 
constituents (e.g., benzene) if ethanol is substituted for MTBE. Other 
life-cycle impacts may occur from the production and transportation of 
alternative fuels.
                          concluding comments
    The decision about whether or not to ban or diminish the use of 
MTBE, or to require a specific replacement for MTBE, requires the 
consideration of many factors. Although public perceptions are 
certainly important to policy makers, decisions about whether a 
chemical poses a significant threat to human health or the environment 
should be based on a review of the scientific data.
    MTBE has clearly impacted a few drinking water sources in the U.S. 
(most notably the Santa Monica wells in the mid-1990's), and these 
incidents have raised legitimate concerns about the longer-term use of 
this oxygenate in gasoline. However, the assertion that there is 
widespread or growing contamination of MTBE in drinking is not 
supported by either historical or more recent drinking water data. In 
most cases, detected concentrations of MTBE are also significantly 
below the USEPA advisory level for MTBE. The benefits from banning or 
diminishing the use of MTBE are therefore likely to be inconsequential 
in terms of reducing human exposures or health risk, particularly when 
evaluated in the broader context of other drinking water contaminants. 
A more comprehensive (life-cycle) analysis of alternative oxygenates or 
fuels is required to better inform decision makers about the potential 
risks, costs, and benefits of these alternatives.
    I hope that the information I have presented here today helps 
clarify some of the common misperceptions and factual data about MTBE. 
Again, I appreciate the opportunity to testify about my knowledge and 
research on MTBE. I would be pleased to respond to any questions that 
you may have.

    Mr. Gillmor. Thank you very much, Dr. Williams.
    Mr. Jones.

                   STATEMENT OF JAMES R. JONES

    Mr. Jones. Thank you. Mr. Chairman and members of the 
subcommittee, I am James R. Jones, President of the Board of 
Directors in South Tahoe Public Utility District. On behalf the 
District, I am honored to be here today to address one of the 
most serious drinking water challenges that we have encountered 
in recent memory: The MTBE contamination. I will summarize my 
remarks and request that my written statement be included in 
the record.
    The District provides regional waste water treatment and 
supplies domestic water to the South Shore of Lake Tahoe. We 
serve approximately 17,000 permanent residents and more than 
1.8 million citizens who visit the Tahoe region annually. Our 
source of drinking water is exclusively from the groundwater 
aquifer in that area.
    H.R. 4, section 504 as passed by the House, authorizes the 
U.S. EPA administrator to use $200 million of the Leaking 
Underground Storage Trust fund revenues to respond to the MTBE-
related needs. Similarly, the Senate passed version of H.R. 4 
contains authority to conduct inspections, actions against 
violators of the underground storage tank program. The 
Committee, the House, and the Senate are to be commended for 
this action. I especially want to recognize the efforts of 
Representative Capps and Waxman and our Congressman John 
Doolittle.
    It is a good start. However, the costs associated with the 
MTBE cleanup are tremendous. Assessments, corrective actions 
and inspections are an important tool to prevent further 
contamination. We need to do more for the communities that 
today are suffering the consequences of MTBE. The LUST trust 
must be used to its maximum, including providing clean-up 
assistance to communities.
    I want to draw your attention to a number of important 
points. First, MTBE contamination is a potential health issue. 
Once contamination occurs, the potential for health 
consequences of ingesting MTBE may exist for a long periods 
because of the MTBE's slow breakdown in the groundwater 
aquifer.
    Second, MTBE contamination is a consumer confidence issue. 
The turpentine-like quality of the contamination makes drinking 
water impossible even at low--to drink even at the low 
concentrations, very low concentrations. Third, the MTBE 
contamination is a technological challenge. One of the biggest 
problems we have experienced is responding to this 
contamination. Quite simply it is difficult and expensive to 
remove MTBE from the water supply. The contamination will 
remain in our water supply for decades.
    Fourth, the use of MTBE, we believe, was an ill-advised 
decision that has potentially created tens of billions of 
dollars of cleanup needed across the country that could have 
been avoided. It is important that we do not ask the innocent 
ratepayers to pay for the cost of this cleanup.
    Since 1997, 15 of our wells have been shut down or suffered 
limited pumping to contain the contamination. This translates 
to over a third of our wells. As a result of this situation, in 
1998, the District filed a lawsuit in San Francisco Superior 
Court against 31 defendants. To this date, the District has 
settled with 26 of the defendants for approximately--this is 
settled out of court, with 26 of the defendants for 
approximately $34 million. This action was taken to recover the 
costs incurred to the water system as a result of the MTBE.
    How did this happen? The origin of the contamination was 
from 14 different gas stations of the 17 we have in our 
community. Our area's geography is a confined basin with high 
groundwater aquifers and poor soils that are highly susceptible 
to the fast moving MTBE.
    When the District sought assistance, the very State and 
local agencies that were charged with protecting the public 
health and environment were slow to react to our problem. The 
responsible parties refused to lend a hand and the regulators 
informed us that there were no programs or resources available 
to address the situation. The District was forced to initiate 
the lawsuit to address our needs.
    The suit found that the MTBE--the suit found that the 
industry knew that MTBE would reach groundwater, pollute public 
water supplies and threaten the public health. We learned a 
number of things about MTBE. Once the MTBE enters the 
environment, there is no easy solution to respond to the 
impaired water supply. The solution is expensive from a 
treatment as well as a staff resource perspective. You need to 
respond without delay to reduce the spread of that MTBE plume.
    How can we avoid creating future MTBE situations? First, 
avoid any effort to provide refiners and distributors of MTBE 
or other fuel additives liability protection. Our experience 
demonstrates that the consequences of using MTBE were well-
known. The decision to proceed armed with the knowledge should 
never be rewarded with a get-out-of-jail free card. Simply 
stated, water agencies should have the freedom to secure 
remedies from the responsible parties.
    Second, the current regulatory program governing 
underground storage tanks fails to address the problems that 
have contributed to the crisis. The program should reformed to 
provide meaningful, financial and technical support to the 
communities.
    Third, spend the money. The current appropriation request 
for the LUST fund program is $73 million. The trust fund has 
now more than $1.7 billion in receipts. If ever there was a 
time that we should use our resources, it is now. I urge you to 
work with your colleagues on the committee on appropriations to 
leverage the trust fund to its maximum potential.
    In closing, the District believes that a mix of aggressive 
enforcement, Federal cleanup assistance and an effective 
regulatory program that alerts the communities to potential 
problems before they get out of control we can avoid the 
serious public health and environmental threat that our 
district has had to address.
    Again, thank you for the privilege to appear here today. I 
look forward to responding to any of your questions.
    [The prepared statement of James R. Jones follows:]
Prepared Statement of James R. Jones, Member, Board of Directors, South 
                     Tahoe Public Utility District
    Mr. Chairman, members of the Subcommittee, I am James R. Jones, a 
Director of the Board of Directors of the South Tahoe Public Utility 
District (District). On behalf of the District, I am honored to be here 
today to address one of the most serious drinking water quality 
challenges that we, as public officials, have had to encounter in 
recent memory--MTBE contamination.
    I also appear before you today as a former U.S. Environmental 
Protection Agency and U.S. Bureau of Reclamation employee. My 
educational training is as a Professional Civil Engineer. And in the 
instance of MTBE, former California Governor Pete Wilson appointed me 
to sit on the Advisory Panel on Leaking Underground Fuel Tanks and 
MTBE.
    As background, the District provides regional water treatment and 
supply and wastewater treatment services. Our service area comprises 
the Counties of Alpine and El Dorado, California covering more than 380 
square miles. We serve approximately 17,000 permanent residents and 
more than 1.8 million citizens who visit the Tahoe region annually. Our 
source of drinking water is exclusively groundwater and annual 
production is 2.4 billion gallons
    For more than 28 years, the District has prided itself in 
delivering the highest quality drinking water supplies while protecting 
what has become one of the world's most valuable ecosystems, Lake 
Tahoe. In 1997, our mission changed overnight from a water supplier and 
wastewater treatment operator to an organization trying to grapple with 
the problems created by MTBE contamination. Over the past several 
years, the District has been on the front lines of the MTBE battle.
    I have been requested as part of this hearing to comment on 
provisions of H.R. 4, the energy bill, currently pending before 
Congress that address MTBE and the underground storage tank program. 
H.R. 4 as passed by the House contains section 504. Section 504 would 
authorize the U.S. EPA Administrator to use not more than $200 million 
of the Leaking Underground Storage Trust fund revenues to respond to 
MTBE-related investigations and corrective action needs. Similarly, the 
Senate-passed version of H.R. 4 contains section 832, which would 
direct the use of the trust fund's revenues in a manner similar to the 
House version except that it appears the funding is phased over five 
years rather than being made available as necessary. We would encourage 
the House language be accepted during conference committee 
negotiations. The Committee and the House are to be commended for this 
action. It is a good start to ensure that future MTBE catastrophes are 
avoided or mitigated without delay. However, the costs associated with 
MTBE cleanups are tremendous and estimated to cost in the tens of 
billions of dollars. As I will note later in my statement, the LUST 
trust fund's resources must be used to their maximum utility. The point 
I want to emphasize with you is that the estimated cost to respond to 
MTBE contaminated groundwater supplies ranges from $29 to $40 billion 
dollars. The provisions of H.R. 4 will only begin the process; we 
should not anticipate that these resources would adequately address our 
local communities' needs.
    Our communities have experienced the closure of a substantial 
portion of our water supply because of MTBE contamination. This has 
created a serious potential for water shortages should we experience 
any serious drought conditions. So, as we consider the implications of 
MTBE contamination, I want to draw your attention to a few important 
points that we have encountered over the past several years.
    First, MTBE contamination is a potential health issue. Once 
contamination occurs, the potential for health consequences of 
ingesting MTBE may exist for a long period because of MTBE's slow 
breakdown in the environment.
    Second, MTBE contamination is a consumer confidence issue. The 
turpentine-like quality of the contamination makes drinking the water 
impossible, even at very low concentrations. The secondary MCL in 
California illustrates this fact. It was set at 5 parts per billion.
    Third, MTBE contamination is a technological challenge. One of the 
bigger problems we have experienced is responding to the contamination. 
Quite simply, it is difficult and expensive to remove MTBE from a water 
supply. The contamination can remain in our water supplies for decades.
    Fourth, MTBE contamination is an economic issue. For an area like 
Lake Tahoe, tourism is vital to our local economy's health. A water 
shortage created by MTBE contamination has devastating effects to the 
vibrancy of the local economy.
    Fifth, MTBE contamination cleanup is an equity issue. The use of 
MTBE, we believe, was an ill advised if not pernicious decision that 
has potentially created tens of billions of dollars in cleanup needs 
across the country that could have been avoided. It is important that 
we do not ask innocent ratepayers to pay the cost of cleanup. This 
contamination occurred because of a blatant disregard for the known 
hazards of MTBE use.
    Each of these points leads us to a conclusion that Congress must 
take decisive action to remedy the threats generated by MTBE use. 
Equally important, Congress must take action to ensure that we do not 
repeat the steps that led to MTBE contamination.
    With these points in mind, I would like to turn attention to how 
the District and our ratepayers found ourselves in the position of 
becoming the first victim of MTBE contamination, the lessons we 
learned, and our recommendations on how we should proceed to address 
local communities' cleanup needs.
    In 1997, the first of 8 wells were contaminated. As of today, 15 
wells have been shutdown or suffered limited pumping to contain the 
contamination. This translates into over a third of our wells. As a 
result of this situation, in 1998 the District filed a lawsuit in San 
Francisco Superior Court against 31 defendants including refiner, 
distributor, and local retailers. These included Exxon, Shell, TOSCO, 
Atlantic Richfield, Lyondell (formerly ARCO Chemical), Chevron, BP, and 
Ultramar.
    To date, the District has settled with twenty-six of the defendants 
for approximately $34 million. This action was taken to recover the 
costs incurred to the water system as a result of MTBE contamination.
    In 2002, the District learned that it had received a verdict in its 
case, finding the defendants guilty. At this stage, the case is 
proceeding with the penalty phase. Because of a court order that 
prohibits comment on any aspects of the pending litigation, I can only 
say that the District is hopeful that once the case is closed our 
ratepayers will be fully compensated for the tragic and avoidable 
circumstances we have had to deal with for the past several years.
    In 1999, Governor Davis issued an Executive Order to phase out MTBE 
in California gasoline by December 2002, and to provide Lake Tahoe with 
special consideration to secure MTBE free gasoline without delay. (This 
has been extended for an additional year.) In addition, the District 
adopted a non-detection policy for MTBE in its drinking water. Because 
of the contamination, the District was also forced to enact a water 
shortage contingency plan. In 2000, El Dorado County followed with its 
own ordinance banning the use of MTBE.
    The question that comes to mind is: How did this happen? The answer 
is not a simple one. The origin of the contamination was from 14 
different gas stations' tanks. Second, our area's geography is a 
confined basin with a high groundwater aquifer and porous soils that 
were highly susceptible to the fast spreading MTBE.
    From a different perspective, when the District sought assistance, 
the very state and local agencies that were charged with protecting 
public health and the environment were slow to react to the problem. 
So, as contamination continued to spread and authorities failed to 
react, we were forced to initiate actions in this vacuum.
    We conducted a series of investigations to identify the problem. We 
organized a Potential Responsible Parties meeting to determine if we 
could work together to solve the problem. Working closely with the 
Association of California Water Agencies (ACWA) we encouraged strong 
state and county enforcement of regulations. We imposed water 
conservation measures to anticipate the possibility of losing more 
wells. We sought federal and state assistance. And, we enacted a 
groundwater management plan ordinance that would provide the necessary 
teeth to protect our limited resource.
    As a result of these activities, we discovered the nature, extent 
and impact of the problem for our community. Unfortunately, the costs 
of the response were dramatic. Estimates of the cleanup exceed $45 
million. To date, we have expended more than $9 million for cleanup and 
modifications to the system. This is for a water purveyor with an 
annual budget of approximately $11 million. The District was in no 
position to initiate the cleanup because of the cost, and because our 
ratepayers and we were not responsible for the problem.
    When we turned for help, we found ourselves in a no-win situation. 
The responsible parties refused to lend a hand and the regulators 
informed us that there was no program or resources available to address 
this situation. Effectively we were told go away. The District was 
forced to initiate the lawsuit I mentioned earlier to address our 
needs.
    The suit found the industry knew that MTBE would reach groundwater, 
pollute public water supplies, and threaten public health. As I 
mentioned, we are now in the penalty phase of that trial.
    After years of struggling with a public health and environmental 
threat, we learned a number of lessons.
    Once MTBE enters the environment, there is no easy solution to 
respond to the impaired water supply. The solution is expensive from a 
treatment point of view as well as local staff resources and finance 
perspectives. You need to respond without delay to reduce the movement, 
spread and dilution of the MTBE plume. And last, the current regulatory 
agency framework is unable to provide timely assistance.
    Let me now turn attention to how we can avoid creating future MTBE-
like situations.
    First and foremost, avoid any effort to provide refiners and 
distributors of MTBE or other fuel additives liability protections. Our 
experiences demonstrate that the consequences of using MTBE were well 
known. The decision to proceed armed with this knowledge should never 
be rewarded with a get out of jail card. Simply stated local, state and 
federal governments should have the freedom to secure remedies from the 
responsible parties.
    Second, the current regulatory program governing underground tanks 
fails to address the problems that have contributed to the MTBE crisis. 
We have had very good relations with U.S. EPA's Office of Underground 
Storage Tanks, but the resource base and authorities to respond to MTBE 
are stretched. The program should be reformed to provide meaningful 
assistance (financial and technical) support to communities that are 
grappling with this fast moving contaminant.
    Third, the existing underground storage tank program needs a 
thorough top to bottom review. Clearly, the circumstances surrounding 
the contaminations origin in Lake Tahoe illustrates that there are 
cracks in the regulatory program that allow leaks such as those 
experienced by the District to endanger public health and the 
environment.
    Fourth, spend the money. The current appropriation for the LUST 
program is $77 million dollars. The trust fund has more than $1.7 
billion in receipts. If ever there was a time that we should use our 
resources it is now. I urge you to work with your colleagues on the 
Committee on Appropriations to leverage the trust fund to its maximum 
potential.
    In closing, the District believes that with a mix of aggressive 
enforcement, federal cleanup assistance and an effective regulatory 
program that alerts communities to potential problems before they get 
out of control, we can avoid a repetition of the serious public health 
and environmental threats that the District has had to address.
    Again, thank you for the opportunity to appear before you today. I 
look forward to responding to any questions you may have.

    Mr. Gillmor. Mr. Perkins.

                   STATEMENT OF CRAIG PERKINS

    Mr. Perkins. Thank you, Chairman. I would like to share 
with you today the key lessons we have learned from our painful 
experience in Santa Monica with underground fuel storage tanks 
and MTBE. Santa Monica is a city of nearly 90,000 permanent 
residents, and over 200,000 daily visitors. The city depends 
heavily on its groundwater for its drinking water supply. After 
many years of effort by 1995 we had become 70 percent water 
self-sufficient. This was an extraordinary accomplishment for 
southern California. By using our sustainable local water 
supplies we were therefore able to reduce our reliance on 
outside sources of water, increasingly scarce from northern 
California and the Colorado River.
    This all changed in 1996 when Santa Monica was hit with our 
drinking water catastrophe caused by MTBE. Within a 6-month 
period in 1996, MTBE forced Santa Monica to shut down most of 
its water wells. These wells had accounted for one-half of the 
total daily water supply in Santa Monica, and we must now 
import over 80 percent of our drinking water, putting further 
strain on California's already fragile water supply system.
    The effects of MTBE can be very devastating. As you have 
heard, it travels quickly and readily dissolves in water, and 
it has an uncanny ability to find its way into drinking water 
wells. Although gasoline has been around for decades and we 
have been producing oil since 1922, it was only relatively 
recently with MTBE that we ever found any gasoline 
contaminants. MTBE attacks swiftly. Once it is discovered, the 
levels in our wells rose very quickly, more quickly than any 
other contaminant that we had ever encountered. At the time our 
first well was shut down, the level had risen to 610 parts per 
billion, which is nearly 50 times the current State standard. 
As has been mentioned by Mr. Jones, MTBE strikes at the level 
of public confidence in the safety of drinking water supplies. 
People will not drink water that tastes or smells like 
turpentine, nor should they have to.
    With hard work and perseverance, Santa Monica will 
eventually overcome our MTBE crisis, but the price will be 
steep. The projected cost to just clean up Santa Monica's main 
well field runs in the hundreds of millions of dollars. Current 
estimates for the total cost of nationwide MTBE cleanup exceed 
$30 billion and counting. Clearly the costs of remediation for 
MTBE and other water contamination must ultimately be paid for 
by the polluter but, unfortunately, those companies responsible 
for causing the MTBE pollution in Santa Monica and other 
communities have not yet stepped forward to do the right thing. 
So until they do, the significant financial burden for MTBE 
cleanup rests unfairly on the backs of our water customers.
    We need to make sure that we are doing everything that we 
can to keep underground storage tanks from leaking in the first 
place, even the newest underground storage tank systems leak 
and the leaks are often not in the tanks themselves, but in the 
piping that connects the tanks to the fuel dispensers. A 
primary focus needs to be placed on underground storage tank 
inspection and training and enforcement.
    Too often in the past, operators of underground fuel tanks 
have been able to act irresponsibly because the threat of 
enforcement was remote or even non existent. Let's make sure 
that the tools and resources are in place so the noncompliant 
tanks can't be used.
    Most importantly, we need to stop using MTBE as quickly as 
possible. The longer we continue to widely distribute, store, 
and dispense it, the worst water contamination problem will 
become not only in California, but in the rest of the country. 
And how can we concentrate our resources on cleaning up the 
problem when we have to respond to the plague of new tank 
releases causing MTBE contamination.
    In conclusion, our two irrefutable facts that have emerged 
from our odyssey as the poster child for MTBE, if you will, are 
that underground storage tanks leak, a leak-proof tank is one 
of the greatest oxymorons of history, and it is extremely 
difficult to get polluters to pay for the cleanup once their 
pollution is identified. We must change our current policies 
with respect to MTBE and underground storage tank management if 
we hope to have a better chance of not repeating the mistakes 
of the past. I thank you very much for the privilege of 
testifying today.
    [The prepared statement of Craig Perkins follows:]
Prepared Statement of Craig Perkins, Director of Environment and Public 
                Works, City of Santa Monica, California
    On behalf of the Mayor and City Council of the City of Santa Monica 
I want to thank you for the opportunity to give testimony before this 
subcommittee. I am the Director of Environment and Public Works for 
Santa Monica and one of my major areas of responsibility is management 
of the City's drinking water production and distribution system. I 
would like to share with you today the key lessons we have learned from 
our painful experiences with underground fuel storage tanks and MtBE in 
Santa Monica. Santa Monica is a city of nearly 90,000 permanent 
residents and over 200,000 daily visitors. The City depends heavily on 
groundwater for its drinking water supply. After many years of effort, 
by 1995 we had been able to maximize the use of local groundwater 
supplies and achieve 70% water self-sufficiency. This was an 
extraordinary accomplishment in arid Southern California. By using our 
sustainable local water resources we were therefore able to reduce our 
reliance on increasingly scarce water imported from Northern California 
and the Colorado River. This all changed in 1996 when Santa Monica was 
hit with a drinking water catastrophe caused by MtBE. Within a six 
month period in 1996 MtBE forced Santa Monica to shut down most of its 
water wells. These wells had accounted for one-half of the total daily 
water supply in Santa Monica. We must now import more than 80 percent 
of our drinking water, putting further strain on California's already 
fragile water supply system. The effects of MtBE can be devastating:

<bullet> Once released from a tank or pipeline, MtBE travels quickly 
        and readily dissolves in water unlike the other chemicals in 
        gasoline;
<bullet> MtBE has an uncanny ability to find its way into drinking 
        water wells. Although gasoline has been around for decades, it 
        is only the relatively recent addition of MtBE that has caused 
        widespread water contamination in Santa Monica and elsewhere;
<bullet> MtBE attacks swiftly. Once discovered, MtBE levels in the 
        City's wells rose more quickly than any other water contaminant 
        we had ever encountered. At the time that one of our first 
        wells was shut down, the MtBE contamination had soared to 610 
        parts per billion, nearly fifty times the current state 
        standard; and
<bullet> MtBE strikes at the heart of public confidence in the safety 
        of drinking water supplies. People will not drink water that 
        smells and tastes like turpentine, nor should they be expected 
        to.
    With hard work and perseverance, Santa Monica will eventually 
overcome this MtBE crisis, but the price will be steep. The projected 
cost to just clean up Santa Monica's main well field is well over 
several hundred million dollars. Current estimates for the total cost 
of nationwide MtBE clean-up are $30 billion and counting. Clearly, the 
costs for remediation of MtBE and other water contamination must 
ultimately be paid for by the polluter. But, unfortunately, those 
companies responsible for causing the MtBE pollution in Santa Monica 
and many other communities have not yet stepped forward to do what's 
right. Until they do, the significant financial burden to start the 
MtBE clean-up process is placed unfairly on the backs of our water 
customers.
    We need to make sure that we are doing everything that we can to 
keep underground storage tanks from leaking in the first place. Even 
the newest underground storage tank systems leak and the leaks are 
often not in the tanks themselves but in the piping that connects the 
tanks to the fuel dispensers. A primary focus needs to be placed on 
underground storage tank inspection, training and enforcement. Too 
often in the past, operators of underground fuel tanks have been able 
to act irresponsibly because the threat of enforcement was remote or 
even nonexistent. Let's make sure that the tools and resources are in 
place so that non-compliant tanks are taken out of service and the 
public and environment are better protected.
    Most importantly, we need to stop using MtBE as quickly as 
possible. The longer we continue to widely distribute, store and 
dispense MtBE the worse the water contamination problem will become not 
only in California but throughout the country. It is extremely 
difficult to concentrate our efforts and resources on cleaning up the 
widespread MtBE pollution that has already occurred while we continue 
to be plagued by new MtBE leaks.
    In conclusion, the two irrefutable facts that have emerged from 
Santa Monica's odyssey as the ``poster child'' for MtBE water 
contamination are: 1) underground storage tanks leak; and 2) it is 
extremely difficult to get polluters to pay for the clean-up of their 
pollution. We must change our current policies with respect to MtBE and 
underground storage tank management if we hope to have a better chance 
of not repeating the mistakes of the past. Thank you for the privilege 
of testifying before the Subcommittee today.

    Mr. Gillmor. Thank you, Mr. Perkins.
    Kind of a general question directed to Mr. Jones, and Mr. 
Perkins, we have heard conflicting testimony here, probably 
most of which is that MTBE, either there is no evidence it does 
have these horrible effects, at least it hasn't been 
established as a carcinogen, and we have had MTBE and gasoline 
since 1979 in California and the thrust of your testimony, I 
take it, this is something that we suddenly discovered that 
horrible polluters are causing to happen.
    I mean, isn't it a fact that California, I mean, has done 
nothing to stop MTBE and these facts were known? It would seem 
to me at least, at the very least, the State of California is 
an aider and abettor, if not a polluter. So I mean, why are we 
trying to look for somebody behind the tree instead of 
accepting some responsibility yourselves?
    Mr. Perkins. Well, I will respond first. There certainly 
are a lot of suspects that can be rounded up in terms of the 
MTBE debacle. However, one thing I can tell you very clearly is 
that the responsible parties are not my customers in Santa 
Monica. We are the victims of bad decisions and gross 
negligence which was exercised by other parties. And so all I 
am saying----
    Mr. Gillmor. Basically governmental parties.
    Mr. Perkins. No, we are talking about private companies as 
well as governmental agencies that should have known better. 
And in fact did know better and chose not to act upon that 
knowledge. So I think what I am saying is that clearly the 
major part of the responsibility lies with the companies that 
manufacture, distribute it, and sold the MTBE gasoline as well 
as these watchdog agencies which really weren't watching very 
much at all.
    Mr. Jones. Maybe just add to that yes it has been used 
since the late 1970's, early 1980's, but it was in much smaller 
levels, perhaps about 2 percent as an antiknock agent and not 
in very many of the gases. It wasn't used on the level that we 
are seeing now until the mid 1990's, I believe.
    The State of California--the University of California did a 
very in-depth study, and they did find that there were some 
evidences that it could be a carcinogenic agent, and with that 
as well as a lot of other information that was provided in that 
report, Governor Davis, in 1999, mandated the ban of MTBE by 
December of this year.
    And because of the infrastructure for providing ethanol as 
a replacement not being in place, he had to put that off for 
another year. It is just not feasible to meet the deadline.
    Mr. Gillmor. So take another year of cancer. Okay.
    Mr. Jones. That is one the things we are working on.
    Mr. Gillmor. Let me go to Ms. Ellis. As a State employee of 
the State's Underground Storage Tank Program, former member of 
the Blue Ribbon Panel, what experience, what recommendations do 
you think are important for us to know regarding reducing the 
instances of MTBE in groundwater?
    Ms. Ellis. I would like to comment a little bit about tank 
standards. The Federal Government has set certain minimums and 
the States must be as stringent or can be more stringent than 
those Federal regulations. Some States have chosen to double-
wall their entire systems, some haven't. I also would do leak 
detection. Leak detection is kind of a tricky thing. There are 
certain allowable leak rates depending on the methods that is 
used. And one of the methods allows a tenth of a gallon per 
hour a leak rate. That is all the system has to be able to pick 
up. That is 1,700 gallons a year from a single allowable leak.
    The State programs are kind of strapped. Right now we are 
shorthanded. We are down hydrologists. We are down inspectors. 
I remember that I think a figure in one of the Government 
Accounting Offices that our inspectors should be able to 
inspect 200 sites per year. I guarantee they would have a tough 
time doing a good job doing maybe 30 or 40 per year if you 
include all the paperwork and follow-up that goes along with 
that. They are out in the field for a few hours at a site. They 
are back in the office, you know, making phone calls, writing 
letters, dealing with the Attorney General's office for 
sometimes five or 10 times that. So, for us to do a more 
effective job to get the inspections done we need larger 
staffs.
    As a hydrologist, I deal with a hundred different LUST 
projects, a hundred different sites, plus I do a lot of related 
things. Some States, the caseload is 2 or 300 projects per 
hydrologist. If you consider the number of working days in a 
year, there are, if I have got a few projects that are eating 
up my time where I am spending days and days on them, there are 
other projects that are going to get 10 minutes here and there.
    So staffing for us is very important. Being very 
shorthanded right now I don't think we probably are allowed to 
hire anyone being in a freeze. We also need money. I know when 
I first started with the State 12 years ago, I don't remember 
what the figure was that we got in annual trust money, you 
know, part for staffing and part for annual cleanups. But over 
the years, I do know it has dwindled down so we are getting 
somewhere around $10- or $20,000 a year that we are actually 
able to go out and spend on cleanups when you consider staffing 
and the overhead and everything else for supervising the works. 
So definitely funding would help us.
    We do have some additional State money that we haven't had 
in the past for orphan tanks that we haven't been able to 
address and some other funding. We did get a LUST fields grant 
to deal with a LUST fields project. But if you look at the 
staffing in the States definitely money is an issue.
    And State programs are quite variable in how they will fund 
cleanup. Some States have the money to move right in and take 
over. We are an RP-led State. Our RPs pay for the cleanups. 
There are very limited number of sites that are reimbursed by 
the State. Some States it is entirely State-funded through 
their funds. Some are insurance driven. So there is a wide 
variety of ways that cleanups are funded and, you know, money 
straight to a State may or may not do the entire job.
    Mr. Gillmor. Let me ask you, you mentioned that health 
risks due to MTBE water contamination are still being 
investigated. Could you give us some indication of who might be 
doing those studies and also how many water systems would you 
estimate are taking proactive steps to protect their citizens 
from drinking water problems?
    Ms. Ellis. Other than the testing that they are doing, I 
don't know how they really can be proactive. Some communities 
have different requirements. We require double-wall tank 
systems and well head protection areas and excellent recharge 
areas. We have a few areas that said no double--no single wall 
tanks anywhere. If you are going to be in a wellhead area, it 
has to be double-wall. There are different local regulations on 
it. But to be proactive, evidently they are sample now, our 
public health department is doing all of the systems for 
volatiles, at least on a one-shot basis, not just those few 
larger systems that we have.
    Mr. Gillmor. My time is running down, but let me ask you 
one more question. You referenced the incident in the Greenbush 
area of Hyde Park, New York, and some of the contamination 
referenced here has roots extending back before the beginning 
of the reformulated fuels program. In your experience, would 
you say that it is common to have contamination dating that far 
back?
    Ms. Ellis. I think it was very common to have 
contamination, it is just nobody was analyzing for it. I have 
collected some case histories as part of EPA's task effort and 
for a few other people, and I do have a few sites I can track 
back and find that I had contamination in the early 1980's in 
the groundwater. I did have, I think it was the 1989 public 
well that was impacted. It is just nobody was looking for it. 
We had a few people that were looking back then and 
mysteriously, MTBE dropped off their list and didn't come 
around again until we started requiring it.
    So we can go back and pull old lab reports and they will 
look for a peak on a lab report, yes, that is where MTBE is. If 
we asked for--if they had asked for it, we would have told them 
it was there. But we are finding it way back when. And we 
require analysis for it on all the sites now. But in the past 
nobody did.
    There are still States out there that are not requiring 
MTBE analyses at LUST sites. There are a heck of a lot of other 
States that are not looking for other oxygenates. And they are 
out there, I guarantee it. Because the States that are looking 
are finding DIPE and TAME and TBA.
    Mr. Gillmor. Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I am leaving it to my 
colleague from California to address the California comments 
that were made by the chairman. We will see.
    I wanted to ask Dr. Williams because he was very--I am kind 
of upset by your testimony because you say that current levels 
of MTBE in California pose a negligible health risk toward 
consumers that national assessments by USGS indicated that MTBE 
levels do not appear to be increasing over time, and that 
intense efforts to regulate or decrease exposures to MTBE may 
be misguided.
    I guess my concern is, I don't know why you think that the 
available evidence is sufficient to be so sure that MTBE 
contamination is actually decreasing. Won't it be some time 
before we know the full extent of the problem once we ban MTBE? 
And what comfort can local areas take from this sort of 
national perspective that I think you are giving to it? It 
seems like you are suggesting subjecting that the problem is 
one that we don't have to address. Even the EPA representative 
when he spoke before, although I thought he wasn't doing 
enough, certainly suggested that we need to do a lot more 
investigation and they may actually find that there are major 
health problems.
    So why do you feel that the problem is negligible and 
perhaps doesn't even have to be addressed?
    Ms. Williams. I would like to clarify that I haven't said--
I do think that we should continue to do the research on this 
issue. However, the available data that is collected by 
California, this is, their drinking water quality monitoring 
data base does not show that there is widespread MTBE 
contamination. And as I have said, in fact, the detection 
frequency is low. It has not increased over time. As was just 
mentioned a moment ago, the MTBE has probably been there for 
many years, it is just that no one was sampling for it. It 
wasn't a crisis then, it doesn't appear to be a crisis now.
    The crux of the comment that you are getting at that I 
mentioned is, it is important to put this in context. We are 
talking about broad public health exposures and risk in 
drinking water. If you really want to go after what is 
causing,--you know, what is causing the greatest risk from 
drinking water you have to expand your search beyond MTBE. We 
have just submitted a paper for publication in ES and T which 
we have looked at five other VOCs in California drinking water. 
The USGS has just put out some of their data where they----
    Mr. Pallone. We heard a lot of that in the previous panel. 
You are not suggesting that this is a problem that we don't 
need address, right?
    Ms. Williams. I guess I am taking issue with the fact that 
calling it a ``problem'' if you look at it relative to other 
drinking water contaminants.
    Mr. Pallone. We have--Ms. Capps has talked about this $2 
million in the trust fund that is available right now. Would 
you support spending that money or any of that money now on 
testing and cleanups? Do you think we should be doing that?
    Ms. Williams. I am not familiar with how this money is 
supposed to be spent.
    Mr. Pallone. We have the money available for this purpose 
if we want to use it.
    Ms. Williams. I think we should continue the water quality 
monitoring data not only in California, but also in other 
States.
    Mr. Pallone. What about cleanup? You wouldn't support doing 
cleanups?
    Ms. Williams. I guess it depends on the level.
    Mr. Pallone. Well, I guess I am just trying to get at--you 
seem to be subjecting that this is so negligible that maybe we 
don't even have to do anything. I think now you are saying that 
is not the case and I am misunderstanding.
    Ms. Williams. What I am saying is there are a lot of 
contaminants in drinking water. We don't have zero levels of 
many contaminants in drinking water. So when you say do you 
want to clean MTBE, in my mind, I have to ask where we can get 
the biggest bang for our buck. Are there other contaminants 
that perhaps we might want to spend our resources on where we 
would get better public health benefits from reducing exposures 
to those.
    Mr. Pallone. Not necessarily that we shouldn't spend some 
money on testing and cleanup, it is just that you feel there 
may be other priorities.
    Ms. Williams. Exactly.
    Mr. Pallone. Okay. Even if it doesn't turn out to be a 
health problem, doesn't the very presence of MTBE cause the 
water supplies to becoming undrinkable? And isn't that a major 
problem itself with both potential health and environmental 
consequences, just the fact that you can't drink it?
    Ms. Williams. I am glad you asked that question actually. 
The U.S. EPA advisory level which is based on odor and taste 
effects of 20 to 40 parts per billion was based on a number of 
studies that have attempted to quantify at what level people 
can actually sense and taste MTBE. They found that that tended 
to encompass the range including folks that are particularly 
sensitive to taste and odor for MTBE.
    So, yes, if you are finding detections in your drinking 
water above those levels that may cause concern based on 
esthetic reasons. However, in most cases, we are finding that 
the detections are far below that 20 to 40 standard.
    Mr. Pallone. So you are saying that at some point, it may 
be become undrinkable, but people are making too much of that 
because in a lot of cases it is drinkable.
    Ms. Williams. I am saying that there is wide variability in 
people's ability to sense and taste and smell MTBE and that 
probably very few people are able to sense this at very low 
levels that we are currently finding in water based on the 
available taste and odor studies that are currently published 
and available.
    Mr. Pallone. Okay. I would ask maybe the other panelists 
similar questions, but let's move on. I don't want to 
monopolize. Thank you.
    Mr. Gillmor. The gentlelady from California.
    Mrs. Capps. Thank you, Mr. Chairman. And I am aligning 
myself with our two representatives in the trenches. As a 
public health nurse, I am working right where the people are 
who consume our water supply. Although I am tempted to ask Ms. 
Ellis, you know, there are some States that don't even gather 
data on this.
    Ms. Ellis. There are still some that don't.
    Mrs. Capps. I think we have tremendous work to do on all 
oxygenates and what we are trying to do to our water supply in 
order to have air to breathe. We really do need as much 
research as we can.
    But I am going to ask Mr. Perkins and Mr. Jones, if you 
would help me explain to our chairman the plight of the 
California citizen, the water drinker, if you will. And correct 
me, I am going to lay out a very sketchy scenario. California, 
early on, was in the area that was designated polluting and 
mandated by EPA to do something about it in the form of 
oxygenates. Am I correct so far? So before many other States 
were even getting into this arena of adding things to gasoline 
to purify the air, we were out there partly on our own 
initiative as a State with the heavy pollution index, but also 
because of mandates by the Federal Government.
    So it is the Federal Government who encouraged this, but we 
have where--you are the pioneers both in Santa Monica and South 
Lake Tahoe, for having been in this so long. So we have seen 
the downside to this whole scenario, both with the additive 
itself and the problems that may result from it, of oxygenates, 
in this case, MTBE, but also the leaks in the underground 
tanks.
    MTBE is called the canary in the mine, right? It is so 
permeable. This is where I would like you to help pick up the 
story and explain why I was so frustrated when our colleague 
Mr. Bilbray a good Republican on our committee in the last 
session led the charge to see if we could get a waiver for the 
State since we had come up with levels of protected gasoline 
non polluting gasoline without even using oxygenates, yet we 
were denied by this Congress for seeking to protect our 
citizens.
    Mr. Perkins. I will start. Our city council strongly 
supported a Federal oxygen waiver for California. We were very 
disappointed at the decision that was made and what essentially 
has been the result is MTBE will continue to be used throughout 
California for at least an additional year. There will be 
subsequent releases from those tanks and fuel systems and it 
will cause further water contamination. So it is a bad 
situation and we think that the right decision would have been 
the waiver.
    Mrs. Capps. Thank you. We are being held hostage by so-
called environmental protections when we can provide gasoline 
that is every bit as non invasive of the air quality. At the 
same time we can't get our hands on enough of the LUST fund to 
do something about the problem.
    Mr. Jones. I totally agree with you and just ditto the 
comments from Mr. Perkins. Luckily in our county, our county 
supervisors passed an ordinance which banned the sale of MTBE 
gasoline in the Lake Tahoe basin. So unless we have an 
automobile accident and a car rolls over like we know of 
instances where it has, we shouldn't have any more pollution. 
But this is something that our community is going to have to 
live with for certainly decades. We have done quite extensive 
studies. We had to do it because we were going to court over 
this issue. And we have done some very extensive hydro 
geological studies that show how the plumes will move and how 
they will be there for many years. And we know what the 
treatment costs may be because they are changing.
    We are coming up with some new technologies, or at least 
refining some of the existing technologies that have been used 
in other areas for water quality treatment to specifically 
treat MTBE. But we are talking about talking about $45 million 
to clean up the problem that we have and we have already 
expended, our district has already expended about $9 million, 
and this is for a water district whose annual budget is only 
around $10 or $11 million a year. So that is a major cost to 
us.
    Mrs. Capps. It seems unconscionable to me that we are 
shifting the burden of responsibility to consumers and to their 
local elected officials when we are the body that, in the first 
place, mandated the use of oxygenates. And are turning our back 
on the very people who took them seriously, even before it was 
mandated in many instances and now need some assistance and 
have the right to come and ask for our help. I strongly suggest 
to our Chair that we move forward with good legislation to 
address the situation at the earliest possible date.
    Mr. Gillmor. The gentlelady's time has expired, but we will 
proceed with another round, so you have another opportunity. 
Let me ask Ms. Williams. Oh, you know what, it is very 
difficult to overlook Texas. And I apologize.
    Mr. Green. In fact, I don't mind being beat but I never 
want to be overlooked. Thank you, Mr. Chairman. I appreciate--I 
will stay around for a second round too.
    Dr. Williams, the gentleman just mentioned that Lake Tahoe 
was going to be cleaning their groundwater for decades. Could 
you comment to that in your experience, and is that really 
going to be a problem, the cleanup of groundwater for decades?
    Ms. Williams. Remediation is not my area, but certainly 
MTBE if it is not being remediated, is persistent and may be 
there for a couple of years. I don't know what the conditions 
are of their aquifer.
    Mr. Green. Okay. Let me ask Mr. Jones. Ms. Ellis said that 
wells, at least in her testimony--and I will ask some questions 
of her in a minute--said wells were impacted by lake 
contamination. Is that true of Lake Tahoe that the groundwater 
that people pump out of the wells is impacted by Lake Tahoe? 
You said you had high water tables.
    Mr. Jones. Hydrologically there may be some impact by the 
gradient from the mountains toward the lake for the most part. 
And the plumes are being moved by that gradients and it is 
being moved through some of our areas that we have wells in.
    Mr. Green. Okay. When were two-cycle engines banned on Lake 
Tahoe?
    Mr. Jones. It has been staged over the last about 4 years. 
The jet skis were banned about 3 or 4 years ago. I am not sure 
of the exact dates. I know I have a small sailboat with an 
auxiliary engine which wasn't required to be taken off until 
this season. I only use about a gallon a year just getting out 
of the marina.
    So those types of engines were exempted because of the 
small use. But most of the pollution is coming from underground 
storage tanks. We have seen a significant reduction in the lake 
itself of MTBE after the bans of both the sale of MTBE within 
the basin and the elimination of the two-stroke engines.
    Mr. Green. The two-stroke engine, I understand, was banned 
and we have had a number of hearings in our committee over the 
last 6 years, and actually one before the two-cycle ban and 
would you say the ban on two cycle engines on Lake Tahoe 
contributed to the cleaning up of MTBE and whatever else may 
have been leaking out of that, whether they you know, out of 
the tanks of the jet skis or your sailboat or anywhere else?
    Mr. Jones. Only in the lake itself and not in the 
groundwater aquifer, which is----
    Mr. Green. And the groundwater aquifer you said was from 
the leaky storage tanks. What is the enforcement in the basin, 
and is it your responsibility or is it someone else's 
responsibility for those leaky storage tanks in the basin? Is 
it the State's?
    Mr. Jones. It was the State's authority. Because we felt 
that they were slow in responding, we set about in State law in 
California that allowed districts to set up a groundwater 
management plan. We have done that. We will be--the idea of our 
program is to put in some more monitoring wells at gas stations 
and make these monitoring wells large enough so if we do detect 
any leaks that we can immediately respond and put in pumps that 
can start pumping and treating immediately.
    And let me say a couple more things about some of the data 
that is available. And I know you say the average is a 1 part 
per billion. We have a lot of wells and the data that Dr. 
Williams----
    Mr. Green. I only have 5 minutes and you had plenty of time 
for your testimony, though. When you were testing, did you test 
anything other than for MTBE?
    Mr. Jones. Oh, yes.
    Mr. Green. Did you test for any benzine? Was there--did you 
find benzine along with MTBE?
    Mr. Jones. We do find all of those things. But what we were 
finding was that the MTBE plume is spreading so much faster 
because it is so much more soluble. It is spreading a lot 
faster than the BTEX components are spreading. Those tend to 
spread a small distance and then dilute and break down. The 
MTBE travels with the speed of the groundwater.
    Mr. Green. You mentioned that the problem in Lake Tahoe 
started about 1995 when they started to use a great deal of 
reformulated gasoline, and MTBE use was the product of that, 
not ethanol. Ms. Ellis talked about that she has evidence of 
the 1980's, there was problems with MTBE. And I guess, you 
know, there wasn't a reformulated requirement until 1990. Was 
there anything that you can trace back in the Tahoe basin that 
was to the 1980's for MTBE?
    Mr. Jones. We did not know anything about MTBE until I went 
to a meeting where Mr. Perkins spoke and was talking about the 
problem that they were having in Santa Monica. I went backed 
back and talked to our water manager and asked him about MTBE 
and he just had this glossy look and like what are you talking 
about. We started then testing and we started then finding it. 
This would have been in 1997.
    Mr. Green. Did you start testing in 1997, but did you test 
before that for any of the known carcinogens? I know your 
testimony was the MTBE may be a carcinogen.
    Mr. Jones. We test for all of the things that are required 
by the State Department of Health and the benzines and some of 
these other things are required.
    Mr. Green. Benzine, toluene, xylene.
    Mr. Jones. I am not sure about all of those, but I know we 
are testing for the things that are required by the California 
Department of Health Services.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Gillmor. I am looking closely to be sure I didn't 
overlook anybody else. Let me go to Ms. Williams. Are you aware 
of any, or Dr. Williams, any test samples or studies reports 
that would evaluate the effects from the ingestion of MTBE and 
if you are where--do you have who authored them and what the 
findings were?
    Ms. Williams. Are you talking about toxicity studies?
    Mr. Gillmor. Yes, I think.
    Ms. Williams. Currently I am aware of only studies that 
have looked at animals that have been injected straight into 
the--oral gavage studies. As far as I know, there have been no 
oral drinking water chronic studies conducted to date. Although 
I think the EPA may be considering conducting such studies.
    Mr. Gillmor. Thank you. Let me go to Mr. Jones. In your 
testimony, you mentioned responding to remediation of MTBE 
contamination has presented a complex set of challenges. I 
guess what my question is what are the common technologies that 
you use for cleanup and what would be the general time line 
that you had be looking at for completion of a cleanup at an 
MTBE site?
    Mr. Jones. First of all, we are not looking at cleaning up 
an MTBE plume as such. We feel responsible parties should be 
doing that. We need to go ahead and provide water to our 
customers now so we don't have time to do that. What we are 
doing is to solve our problem is, in some places, we are going 
to develop some new wells and in other place where is we have 
lower concentrations of MTBE in the water we are use some of 
the existing technology that has been modified to treat with 
the MTBE.
    That can be aeration, it can be activated carbon. It could 
be advanced oxidation process. And there are several others 
that are out there that are being tested at this point. But we 
think the advanced oxidation process and the activated carbon 
are probably best for our district in the concentrations that 
we are looking at and the wells we want to be able to treat at 
the wellhead.
    Mr. Gillmor. You talked about the fact of delay in treating 
MTBE contamination is increasing the cost. Can you quantify 
that in any way as to what your--how much delay increases cost 
by what factor or some kind of----
    Mr. Jones. I know what you are asking. I am not sure I can 
really answer that. What happens in the delaying, the going in 
and treating immediately is that it allows the plume to spread 
and dilute. If it dilutes enough, that may have solved part of 
the problem. But as it spreads, you just have a much larger 
aquifer that becomes contaminated, and therefore, you have more 
wells that could, you know, be knocked out of operation.
    Mr. Gillmor. Would you take a crack at that, Ms. Ellis.
    Ms. Ellis. There are differences in technology. I clean up 
primarily LUST sites. We may be dealing with a much smaller 
volume of water at a much higher concentration. We have sites 
where we have hundreds of parts per million of MTBE and the 
technologies are different than treating very large volumes of 
water in a public system with very low quantities. If we can 
catch them quickly, they are treatable, particularly in our 
down State areas, very sandy aquifer. If we have a small plume, 
if I can pump it out of the ground, I can remediate a site.
    Now, removing the MTBE from the water once it is pumped out 
of the ground can be extremely costly, and part of it is based 
on the fact we are very stringent on our air emissions for 
treatment systems. In other parts of the State, there is almost 
no way to pump groundwater out of the ground. You may get half 
a gallon a minute yield, or something from a well and it is 
going to be very difficult to clean up the MTBE on those sites. 
And the treatment costs are extremely dependent on how long it 
has gone.
    If we have got a 2,000-foot long plume, there is no way I 
can pump enough groundwater out of there to treat that site. We 
will kind of write off the wells. We will do replacement wells 
or try and bring in public water from somewhere else. What we 
will address on those sites is try and hit the source area and 
knock the high contaminant levels down in the source area, so 
this thing won't continue to grow for years and years. But if I 
pump groundwater out of a long plume, I haven't place to put 
it, and I can't afford to treat it. But the costs are extremely 
variable. We have a number of million dollar cleanups going 
right now, I guarantee they can't afford to do them.
    Mr. Gillmor. The gentleman from New Jersey.
    Mr. Pallone. Thank you, Mr. Chairman. I just wanted to go 
back basically to some of the things I asked Dr. Williams and 
see if the other panelists wanted to comment on it. If I could 
ask the panelists to comment, we have almost $2 billion in the 
trust fund now. Do you support spending all or part of that 
money on testing and cleanups? Are you--not that you are 
looking to attack Dr. Williams here, but if you would maybe 
like to comment in that context about some of the things she 
said. Because it does--I am concerned that she is saying, you 
know, we don't have much of a problem, even though she said we 
do have a problem.
    Mr. Jones. We support the $200 million. It is a good step. 
Our cleanup cost was about $45 million. Santa Monica's is on 
the order of $200 million; $200 million in your bill is not 
going to go very far.
    The costs, the study that was done by Comex, a consulting 
firm, had a range--and there a lot of variables--but had a 
range between $29 billion and $90 billion to clean up what is 
existing. I believe there is a typo in my paper that says $40 
billion. It should be $90 billion. Those costs we think should 
be borne by the responsible party. That is why we have sued the 
31 defendants that we did sue.
    As far as your question on the data that is available and 
what was used by Dr. Williams, she was using what was 
available. The system that the California Department of Health 
Services has set up does not have all of the data. In many 
cases it is misleading. I have looked at the data which our 
district has or has been put into the system. On many wells we 
are showing zero, and that is just for our production wells. We 
have monitoring wells that are around the zone of influence of 
those wells, and in some of those we have very high 
concentrations of MTBE, sometimes at 100 or 1,000, and in some 
cases over 10,000 parts per billion. We have shut those wells 
off so we do not pull the rest of that plume into that zone of 
influence and totally destroy the well, hoping that someday we 
may clean up the existing plume and start those wells again. So 
that a lot of that data does not show up in the Department of 
Health Services' data base.
    Mr. Pallone. Mr. Perkins.
    Mr. Perkins. I guess it does not make me or my customers 
feel any better to hear that we are just really unlucky that we 
found so many places in Santa Monica. I think that the data is 
very misleading, that MTBE is not only very prevalent now, but 
it is going to be more prevalent as a drinking water well 
contaminant.
    Just to respond to the issue of money and time for cleanup, 
we are looking at hundreds of millions of dollars. Our estimate 
in terms of the time that it is going to take to get to a 
treatment facility that is operating is around 5 years from 
today, and we estimate that that treatment facility will need 
to operate from between 10 to 30 years, depending on how 
optimistic you want to be about the level of contamination that 
we are going to find.
    It does not do any of us any good to talk about averages of 
less than 1 part per billion and not so many communities have 
been impacted. More communities are impacted each year, and it 
is something that has to be addressed now, when we can prevent 
it earlier in the process, than if we ignore it and try to deal 
with it later on.
    Mr. Jones. I think that that money could be used for 
increasing the inspection rate. If the inspector is going to 
get out there once in 3 years, that means 1 day out of 1,000 
you are not leaking. We are finding a lot of them have not even 
been inspected up to this point. Some of that money could be 
used for training or certification of the operators and owners. 
Right now there is no certification program. We require our 
barbers to get some sort of certification, but we do not 
require the operators of gas stations that are operating highly 
technical operations as well as volatile fluid and something 
that can pollute the groundwater. I think that some sort of 
certification program would be very helpful.
    Mr. Pallone. Ms. Ellis?
    Ms. Ellis. I will comment on the health studies. The World 
Health Organization and the California Board, the Center for 
Disease Control, these people that decide whether some things 
are carcinogens or not, are basically saying there is not 
enough evidence to prove it is a carcinogen. There has been a 
limited number of studies. They are short term, high dose, 
usually inhalation, rats and mice, and we are supposed to 
translate what that means to humans. Most boards which vote 
have been within a vote one way or the other. It has not been 
flat-out no, this stuff is not going to hurt you. It has been 
5-to-4 and 3-to-7. All of those boards have been pretty close, 
and mostly they are stating there is not enough evidence, we 
need more evidence to decide one way or the other.
    With regards to California not having a very high number of 
well impacts, their geology is different and they rely 
primarily on deeper aquifers. In Delaware, we do not have a 
whole lot of really deep wells; 200 or 300 feet is deep in 
Delaware. We have shown we can impact a 200-foot well.
    Most of our community systems are serving the day care 
centers and schools downstate, it is rare to get more than 75 
feet deep, and some are 50. And Murphy's law will always put 
those guys directly down gradient of a gas station. They will 
not be up gradient where they are a little bit safer. We may 
have Santa Monicas and Lake Tahoes, but in Delaware we have 
Lincoln and Campton, we have little towns that--and it is just 
as important to those few hundred people in a town that their 
water supply has hundreds of parts per billion MTBE; and in one 
case we had a domestic well with 25 parts per billion.
    They may not be 50 percent of the wells being impacted, but 
it is their well or their well system or their domestic wells. 
Whenever we go to a public meeting with our people, an impacted 
party, we try to get out there right away to explain the 
process and what the State is going to be doing and what the 
timetable is. You have to picture yourself sitting on the other 
side of that desk, sit yourself in the audience and see what 
you would feel like if you were told, we do not know what it 
means about health. Yes, it smells and tastes bad; it may take 
a year to do an investigation. If you were sitting out there, 
you would not want to hear that.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Gillmor. The gentlewoman from California.
    Mrs. Capps. Thank you, Mr. Chairman. That hit hard to me, 
Ms. Ellis.
    I am going to turn our attention to the California 
representatives. The groundwater pollution that is in my 
district are in little communities, over 100 in Santa Barbara 
County, but the beautiful village of Cambria has to use their 
secondary water system now. And they are in a high fire 
district. If they have a forest fire, they do not know what 
they will do. I have had to ask for some funding for 
desalination for them.
    It seems very tragic to me that we are putting our citizens 
in such a vulnerable position. I am going to go back to the two 
people from California and start with Mr. Perkins. What should 
we be doing here? Particularly with the idea that there is a 
fund established and that every time someone fills up their car 
at a gas station, they set aside a little money for this LUST 
fund, and we have a huge amount of that, $2 billion plus in a 
reserve, what would you like to see that money used for?
    Mr. Perkins. It is there to deal with urgent situations. If 
this is not an urgent situation, I don't know what is. It needs 
to be spent and not kept sitting unused and unproductive, money 
both for direct cleanup, investigation and cleanup as well as 
training enforcement, all of those issues related to 
underground storage tank management.
    The other thing that I think needs to be done is grant the 
oxygenate waiver just to remove MTBE from the stream of 
commerce as a precaution, which has proven to be a reasonable 
precaution based on what has happened.
    Finally, if ethanol is mandated to be used, no waivers, no 
immunities for ethanol. If it is a safe product, then the 
people that make it and sell it should be willing to be 
responsible for its safety. That is the three elements that I 
would point to.
    Mrs. Capps. Thank you.
    Mr. Jones. I agree, so I will not discuss those things. I 
agree with what Mr. Perkins has said. I talked earlier about 
some program for training owners and operators and maybe some 
sort of certification program. Increased inspection is 
important and we need to train those inspectors better.
    Another thing is that we need to look at the design of gas 
stations, and have a paradigm shift on the design of gas 
stations. Right now we are putting the tanks over here and the 
dispensers here. If we do something like what they do in 
Europe, there are countries there that require the dispensers 
to be directly over the tanks, and those are contained. And in 
some countries, they have very little leakage of MTBE or 
gasoline into their systems.
    There are people that have done that here in the United 
States, I know Sunoco has done that, and there are some others 
that have been built around the country and they do not have 
the leaks. It is not so much in the tanks. Everybody says it is 
the tanks that are leaking. No, it is more in the plumbing. 
When you have hundreds of feet of plumbing between tanks and 
the dispensers, that is where you are going to get a lot of 
leaks.
    In California with earthquakes, shifting can cause leaks. 
Also, we have a lot of stupid human error, mistakes that were 
done by people, such as disconnecting systems, driving away 
from dispensers. That is going back to the certification and 
training so people understand what is happening. Education 
would be a big help.
    Mrs. Capps. Just a quick question. There is a very strong 
pro-ethanol group here, both on our committee and in Congress. 
I have no quibble about ethanol, but it is a huge issue for us 
in California where it would have to be imported, I understand. 
So the Governor has extended the time to have to come to terms 
with this.
    Mr. Perkins, did you say something about ethanol? What do 
we need to make certain if that is what we are faced with?
    Mr. Perkins. There has been a lot of talk about creating a 
safe harbor, an immunity from liability for the manufacturers 
of ethanol. I think that is a big mistake. One thing that MTBE 
teaches us is the law of unintended consequences, particularly 
as it pertains to field additives. If it is safe, let us make 
sure that there is no immunity from liability. Or if there is 
information that is not being divulged now about ethanol, that 
may call that into question.
    Mrs. Capps. Am I right in supposing that methods of 
removing harmful products of gasoline have been developed that 
are not oxygenates that would not fall into any of these 
categories? This is not your field either, I understand.
    Mr. Perkins. There is a lot of very legitimate questioning 
of the benefits from oxygenate at all in gasoline and what 
truly does it result in, improved air quality. That aside, 
there are some refiners that claim that they will be able to 
create a gasoline formula that has the same air quality profile 
as oxygenated fuel without using the oxygenates. I am not sure 
whether they have been able to make that commercially available 
or how long it would take to do that.
    Mr. Jones. I have heard from the experts that they can make 
a gasoline with no backsliding on air quality. In California we 
do not have the infrastructure for production of ethanol. We 
can do it in a few years, but to put us in a position where 
that is going to have to come from the Midwest at greatly 
increased cost, there is a big question whether we have enough 
tank cars or barges to get the material to California.
    I think it can be phased in over a period of time if we 
find that ethanol is not an environmental problem. The 
University of California study, one of their last conclusions 
in that report was let us not jump in and put in another 
oxygenate to replace MTBE without thoroughly studying it. And I 
don't think it has been thoroughly studied. When people say all 
you have to do is put an olive in it and a couple of ice cubes, 
I would ask them if they would really drink denatured alcohol. 
The reason it is denatured is to keep people from drinking 
industrial-grade alcohol.
    Mr. Gillmor. We will close with the never-to-be-overlooked 
man from Texas.
    Mr. Green. Mr. Chairman, this last panel has been so 
interesting. I have heard a lot of analogies about science and 
causing cancer. I would hope that our committee would go to the 
CDC on the various health issues and not just depend on analogy 
testimony. I do support use of sound science to determine 
whether something is harmful to the public health.
    I will mention, as I did earlier, we are talking about 
banning MTBE, but you are not going to ban benzene or any of 
the other things that make the cars in California run. But 
because you can smell and taste it, and it is not a known 
carcinogen, you want to ban it. It makes no sense.
    The first panel, EPA and the GAO, in their statements and 
under questioning, talked about it is not a known carcinogen. 
We have had hearings in this committee for at least 4 years, so 
maybe more studies are needed. And why haven't they been done 
in the last 4 years by the States of Delaware or California? It 
could bring us actual scientific testimony instead of saying I 
know it is a one-vote majority vote, whatever it is. That is 
not substantive enough to say what we would do with banning 
MTBE, and the high cost to the California resident, and every 
resident; at least 5 percent of the gasoline is MTBE, maybe as 
high as 30 percent according to the first panel.
    You can ban MTBE, but we have to replace it, and it may 
cost 50 percent to 100 percent more per gallon. I hope to fix 
the leaky storage tank problem.
    Mr. Perkins, you talk about a strong argument for local 
standards. And it seems California, because of the earthquakes, 
and Ms. Ellis said Delaware has developed and established local 
standards for underground storage tanks; has that been 
discussed in California?
    Mr. Perkins. Yes, it is discussed a lot. We are responsible 
for the management and enforcement of storage tank standards 
within our city limits. We have actually required double 
systems not only for the tanks, but also for the piping, a 
containment system for the piping. That is for a number of 
years, and I think we are the only community in California 
doing that, and we have tried to encourage the State to look at 
that.
    However, our problem is a number of our water wells that 
were impacted are outside of our city limits, actually in the 
city of Los Angeles, and so we were subject to just the routine 
standards which were, quite frankly, not very well enforced. 
That is where our problems are occurring.
    Mr. Green. I understand we have the Governor banning it and 
yet not enforcing some of the standards.
    Ms. Ellis, I have an April 12 issue of the World Fuels 
Today that the USGS survey completed last August in Delaware, 
found that the contamination rate is on the average of less 
than a half part per billion. I know you have some examples 
that you shared of individual communities. And I was wondering 
if--and, again, there may be a particular problem in other 
communities--but is that report from the World Fuels Today 
pretty accurate? I think you annotated it in your testimony.
    Ms. Ellis. They did detect MTBE in 17 of the 30 wells at 
local levels. There were a number in the 1 to 10 parts per 
billion range; and in that study, there was 1 over the 10 parts 
per billion.
    Mr. Green. Should all chemicals showing up in 
concentrations of less than a half part per billion be banned 
or phased out?
    Ms. Ellis. No, not in my opinion. One thing that is very 
difficult to look at is cumulative risk. If you have a half 
part per billion of this, and 5 parts per billion of this, and 
2 of that, and they are all under the maximum contaminant 
levels, if there is a level that has been established, you have 
to add those together somehow, and that may trigger your cancer 
risk so it is over the acceptable level.
    Mr. Green. Wait a minute. You are a hydrologist and not a 
scientist.
    Ms. Ellis. I think a hydrologist is a scientist.
    Mr. Green. But to give us testimony on cancer, and I would 
love to have it, I want somebody who is a scientist from the 
CDC giving that kind of testimony. Again, it is anecdotal and 
it is interesting; but I would rather have maybe less than 5 
parts per billion of MTBE than 1 part per billion of benzene. 
That is again the relationship.
    Mr. Chairman, I would like to submit this copy of the World 
Fuels Today from April 12, 2002, that talks about the Delaware 
public water wells in its entirety for the record.
    Mr. Gillmor. Without objection.
    [The information referred to follows:]
                           World Fuels Today
                             april 12, 2002
Regulatory Activity:
    A recent survey of 30 randomly-sampled Delaware public water wells 
revealed that all of the wells had at least one VOC detection and MTBE 
was among the three most frequently detected compounds, although its 
levels were relatively low. The survey, conducted by the U.S. 
Geological Survey (USGS) between August and November 2000, found MTBE 
in 17 of the 30 sampled wells, with median levels of 0.2 parts per 
billion (ppb). None of the MTBE samples were above EPA's non-
enforceable Consumer Acceptability Advisory for odor and taste of 20-40 
ppb, the Delaware Department of Natural Resources and Environmental 
Control (DNREC) pointed out, although the report shows that the state's 
water resources are vulnerable to contamination. ``The USGS report 
shows the need to continue our groundwater protection efforts for a 
resource that is clearly vulnerable,'' said John Barndt, program 
manager in the Water Supply Section, Division of Water Resources. ``The 
good news is that the levels of chemicals that have been found are 
extremely low, which indicates that efforts at using best management 
practices will work. The USGS will be doing further assessment work 
with this data, which will help the state DNREC refine our protection 
efforts,'' he added. Specifically on MTBE contamination, Barndt said 
the agency ``wasn't concerned about any specific wells, but was 
concerned that MTBE was present in so many wells.'' But don't look for 
the state to introduce an MTBE ban any time in the near future. 
Delaware would like to see MTBE out of its gasoline, but the state is 
concerned about the legality of trying to remove the chemical, 
according to Patricia Ellis with DNREC's underground storage tank 
division. Ellis, who sat on EPA's Blue Ribbon Panel on MTBE, said the 
state is looking to the U.S. Congress for a solution to the issue, to 
allow the state out of the 2% oxygenate standard. The state opted into 
the RFG program and is therefore required to meet the 2% standard. 
Chloroform and tetrachloroethylene were the other two most frequent VOC 
detections in the study. This study is part of two larger projects: the 
USGS's National Water Quality Assessment project for the Delmarva 
Peninsula and Delaware's Source Water Assessment and Protection 
Program. To obtain a copy of the study, call USGS at (302) 734-2506.

    Mr. Green. I yield back.
    Mr. Gillmor. The gentleman yields back and that concludes 
our hearing.
    I would ask the witnesses if they would be willing to 
submit to questions in writing after the hearing if members 
have some further questions, which I expect they may have. I 
want to thank you once again for coming. It has been a long 
day, and you have been not only informative but very patient 
and we appreciate it.
    [Whereupon, at 8:12 p.m., the subcommittee was adjourned.]

                             <greek-d>

</pre></body></html>
